No.
IN THE

Supreme Court of the United States
_____________

ARGENTUM PHARMACEUTICALS LLC,
Petitioner,
v.
NOVARTIS PHARMACEUTICALS CORPORATION,
_____________

Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Federal Circuit
_____________

PETITION FOR WRIT OF CERTIORARI
_____________

TERESA STANEK REA
Counsel of Record
DEBORAH YELLIN
ALI H.K. TEHRANI
CROWELL & MORING LLP
1001 Pennsylvania Ave., N.W.
Washington, DC 20004
(202) 624-2500
trea@crowell.com
dyellin@crowell.com
atehrani@crowell.com
Counsel for Petitioner
December 4, 2020

i
QUESTIONS PRESENTED
Introducing generic alternatives that compete
with previously approved drugs requires market
approval through the Food and Drug Administration
(“FDA”). To do so, competitors submit an Abbreviated
New Drug Application (“ANDA”) that relies on the
safety and efficacy data of the previously approved
brand name drug. When that previously approved
drug is covered by a patent, however, the mere act of
filing the required ANDA subjects the competitor to
an immediate patent infringement suit by the brand
name company. Such suits are common. By filing an
infringement action, the brand name company
obtains an automatic 30-month stay during which the
FDA cannot approve the competitor’s ANDA.
The real and immediate risk of an infringement
suit extends equally to all members of joint ventures
that work towards FDA market approval. Petitioners
formed a joint venture with a manufacturing partner
to develop a generic alternative to Respondent’s
brand name drug. Fearing an infringement suit,
Petitioner challenged the validity of Respondent’s
patent through an administrative proceeding created
by Congress under the Leahy-Smith America Invents
Act. Petitioner did not prevail on the challenge and
appealed the adverse decision.
The questions presented are:
Did the Federal Circuit categorically and
erroneously preclude redress for injured members of
joint ventures in the pharmaceutical industry by only
recognizing (1) the manufactuing partner in the joint
venture, and (2) the partner applying for FDA
marketing approval in the joint venture, as having
demonstrable injury-in-fact for Article III standing?

ii
Did the Federal Circuit err by rejecting the
Leahy-Smith American Invents Act’s statutory
estoppel provisions as a basis to demonstrate injuryin-fact for Article III standing?

iii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Argentum Pharmaceuticals LLC
(“Argentum”) respectfully brings this petition for a
writ of certiorari from the United States Court of
Appeals for the Federal Circuit’s decision in
Argentum Pharmaceuticals LLC v. Novartis
Pharmaceuticals Corp., 956 F.3d 1374 (Fed. Cir.
2020) (App. 1a-8a).
Argentum was one of eight petitioners in an
inter partes review (“IPR”) proceeding before the
United States Patent and Trademark Office’s Patent
Trial and Appeal Board (“Board”), by which
Argentum challenged the validity of United States
Patent No. 9,187,405 owned by Respondent Novartis
Pharmaceuticals Corporation (“Novartis”).
Argentum identified and represented its
manufacturing partner KVK-Tech, Inc. (“KVK”) as a
real party in interest throughout the IPR proceeding
and on appeal at the Federal Circuit. The other IPR
petitioners were Apotex Inc., Apotex Corp., Actavis
Elizabeth LLC, Teva Pharmaceuticals USA, Inc., Sun
Pharmaceutical Industries, Ltd., Sun Pharmaceutical
Industries, Inc., and Sun Pharma Global FZE.
Argentum and the other petitioners appealed
from the Board’s adverse decision and briefed all
issues together in a consolidated appeal. Teva
Pharmaceuticals, Actavis, and Sun Pharmaceutical
Industries settled before oral argument. App. 2a n.1.
Apotex settled after oral argument. Id. Argentum
remained the only appellant in the appeal after oral
argument, and during the subsequent petition for
rehearing en banc.

iv
RULE 29.6 STATEMENT
Pursuant to Supreme Court Rule 29.6, Argentum
discloses that Intelligent Pharma Research LLC, APS
GP LLC, and APS GP Investors LLC are parent
corporations or own 10% or more of the Argentum’s
stock.

v
LIST OF RELATED PROCEEDINGS
Pursuant to Supreme Court Rule 14.1(b)(iii),
Argentum discloses that this petition is directly
related to and arises from:
Argentum Pharms. LLC v. Novartis AG, No.
IPR2017-01550 (PTAB July 11, 2018);
Apotex Inc. and Apotex Corp., Argentum Pharms.
LLC, Actavis Elizabeth LLC, Teva Pharms. USA, Inc.,
Sun
Pharmaceutical
Industries,
Ltd.,
Sun
Pharmaceutical Industries, Inc., and Sun Pharma
Global FZE v. Novartis AG, No. IPR2017-00854
(PTAB July 11, 2018); 1
Apotex Inc., Apotex Corp., Sun Pharmaceutical
Industries, Ltd., Sun Pharmaceutical Industries, Inc.,
Sun Pharma Global FZE, Actavis Elizabeth LLC,
Teva Pharm. USA, Inc., and Argentum Pharm. LLC,
v. Novartis Pharms. Corp., Nos. 18-2209, -2230, 2260, -2273 (Fed. Cir.); 2
Argentum Pharms. LLC v. Novartis Pharms.
Corp., 956 F.3d 1374 (Fed. Cir. Apr. 23 2020); and
Argentum Pharms. LLC v. Novartis Pharms.
Corp., No. 2018-2273 (Fed. Cir. Jul. 9, 2020).

1 This case consolidated the following IPR proceedings:
IPR2017-01550, IPR2017-01946, and IPR2017-01929.

These appeals were consolidated. Appellants Apotex Inc.,
Apotex Corp., Actavis Elizabeth LLC, Teva Pharmaceuticals
USA, Inc., Sun Pharmaceutical Industries, Ltd., Sun
Pharmaceutical Industries, Inc., and Sun Pharma Global FZE
eventually settled with Novartis at different stages of the
appeal. Those appeals were voluntarily dismissed pursuant the
parties’ respective settlements.
2

vi
TABLE OF CONTENTS
QUESTIONS PRESENTED ....................................... i
PARTIES TO THE PROCEEDINGS BELOW ......... iii
RULE 29.6 STATEMENT......................................... iv
LIST OF RELATED PROCEEDINGS ...................... v
TABLE OF CONTENTS ........................................... vi
TABLE OF AUTHORITIES ..................................... xi
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ................................ 2
STATEMENT OF THE CASE
AND FACTUAL BACKGROUND...................... 2
A.

Argentum’s Generic Version of Gilenya
Will Provide Affordable Treatment to
Millions Suffering from Relapse-Remitting
Multiple Sclerosis ............................................... 7

B.

The ’405 Patent Bars Market Entry Under
the Hatch-Waxman Act ...................................... 8

C.

Novartis Has Been Consistently Blocking
Generic Competition, Including Argentum ..... 10

D.

The Joint Venture Between Argentum and
Its Manufacturing Partner KVK to Develop
a Generic Version of Gilenya............................ 12

vii
TABLE OF CONTENTS
(continued)
Page
E.

The IPR Litigation Between Argentum and
Novartis............................................................. 15
1.

IPR Proceedings Under the AIA ............ 15

2.

The IPR Proceeding ................................ 16

3.

The Appeal .............................................. 17

4.

The Federal Circuit’s Opinions .............. 18

REASONS FOR GRANTING THE WRIT............... 19
I.

The Federal Circuit Erroneously Held That
Argentum Lacks Article III Standing
Simply Because Its Joint Venture Partner
Manufactures the Generic Drug and Will
Apply for FDA Approval ................................... 22
A. Argentum Has Suffered an Economic
Injury from Novartis’s Market
Barrier ..................................................... 25
B. The Federal Circuit’s Preclusion of
Standing for a Non-Manufacturing
Partner of a Joint Venture Is
Improper ................................................. 27
C. The Federal Circuit Improperly
Rejected Argentum’s Economic
Injury for a Lack of Accounting.............. 29
D. The Federal Circuit Erred by
Creating A Rule That Distinguishes
Standing on Appeal Between ANDA
and Non-ANDA Filers ............................ 31

viii
TABLE OF CONTENTS
(continued)
Page
II.

The Federal Circuit Improperly Rejects
Injury in Fact Based on Statutory IPR
Estoppel ............................................................ 33

CONCLUSION ......................................................... 34

ix
APPENDIX 3
Appendix A
Order of the Court of Appeals (April 23, 2020) ...... 1a
Appendix B
Order of the Court of Appeals Denying Rehearing
and Rehearing En Banc (July 9, 2020)...………9a
Appendix C
Judgment of the Court of Appeals
(April 23, 2020) ……………………………..……11a
Appendix D
Final Written Decision of the Patent Trial and
Appeal Board (July 11, 2018) ………..……..…12a
Appendix E
Decision Instituting Inter Partes Review and
Granting Motion for Joinder of the Patent Trial
and Appeal Board (August 9, 2017)………..…76a
Appendix F
Decision Instituting Inter Partes Review of the
Patent Trial and Appeal Board (July 18,
2017)………………………………………….……84a

In addition to the Appendix, this Petition also cites to
submissions in appeals before the Federal Circuit by referring to
the corresponding appeal numbers and ECF numbers.
Submissions in the lead appeal are cited under “Appeal No. 182209,” and submissions in Argentum’s en banc proceeding are
cited under “Appeal No. 18-2273.” The appendix of record before
the Federal Circuit is available in the lead appeal under
ECF No. 105. All citations to the Federal Circuit’s appendix are
in the form “CAFC-Appx.”

3

x
TABLE OF CONTENTS
(continued)
Page
Appendix G
Relevant Constitutional, Statutory and Regulatory
Provisions ………………………………….……113a

xi
TABLE OF AUTHORITIES
Page(s)
Cases
Applications in Internet Time, LLC v. RPX Corp.,
897 F.3d 1336 (Fed. Cir. 2018), cert. denied,
139 S. Ct. 1366 (2019)..........................................16
Asarco Inc. v. Kadish,
490 U.S. 605 (1989) ..............................................23
AT&T Corp. v. F.C.C.,
317 F.3d 227 (D.C. Cir. 2003) ..............................34
Carter v. HealthPort Techs., LLC,
822 F.3d 47 (2d Cir. 2016) ...................................30
Clinton v. City of New York,
524 U.S. 417 (1998) ........................................24, 30
Cottrell v. Alcon Labs.,
874 F.3d 154 (3d Cir. 2017) ...........................30, 31
Forest Labs., Inc. v. Ivax Pharms., Inc.,
501 F.3d 1263 (Fed. Cir. 2007) ................ 10, 20, 33
Franchise Tax Bd. of Cal. v. Alcan Aluminium Ltd.,
493 U.S. 331 (1990) ..............................................29
Kowalski v. Tesmer,
543 U.S. 125 (2004) ..............................................28
Lewert v. P.F. Chang’s China Bistro, Inc.,
819 F.3d 963 (7th Cir. 2016)................................31

xii
TABLE OF AUTHORITIES
(continued)
Page(s)
Liberty Mut. Ins. Co. v. Travelers Indem. Co.,
78 F.3d 639 (D.C. Cir. 1996) ................................29
Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992) ........................................22, 23
Massachusetts v. E.P.A.,
549 U.S. 497 (2007) ..........................................6, 22
Maya v. Centex Corp.,
658 F.3d 1060 (9th Cir. 2011)..............................31
Monsanto Co. v. Geertson Seed Farms,
561 U.S. 139 (2010) ........................................23, 27
Novartis AG v. Ezra Ventures, LLC,
No. 4:15-cv-00095, 2015 WL 4197692
(E.D. Ark. July 10, 2015) .....................................13
Novartis AG v. Torrent Pharms. Ltd.,
853 F.3d 1316 (Fed. Cir. 2017) ....................8, 9, 13
Samsung Elecs. Co. v. Infobridge Pte. Ltd.,
929 F.3d 1363 (Fed. Cir. 2019) ............................32
Sessions v. Morales-Santana,
137 S. Ct. 1678 (2017)....................................28, 29
Sierra Club v. Morton,
405 U.S. 727 (1972) ........................................24, 30
Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016)....................................22, 23

xiii
TABLE OF AUTHORITIES
(continued)
Page(s)
Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83 (1998) ................................................22
Teva Pharm. USA, Inc. v. Novartis Pharm. Corp.,
482 F.3d 1330 (Fed. Cir. 2007) ......................25, 26
Tyndale House Publishers, Inc. v. Sebelius,
904 F. Supp. 2d 106 (D.D.C. 2012) ......................28
United States v. Students Challenging Regulatory
Agency Procedures,
412 U.S. 669 (1973) .................................... 6, 22, 30
Vermont Agency of Nat. Res. v. U.S. ex rel. Stevens,
529 U.S. 765 (2000) ........................................24, 30
Statutes
21 U.S.C. § 355 .................................................. passim
28 U.S.C. § 1254 ..........................................................2
35 U.S.C. § 271 .................................................. passim
35 U.S.C. § 271(e)(4) .............................................4, 10
35 U.S.C. § 315 .............................................. 16, 33, 34
Regulations
21 C.F.R. § 314.53(b)(1) ..........................................3, 9
37 C.F.R. § 42.73(d) .....................................................2

xiv
TABLE OF AUTHORITIES
(continued)
Page(s)
Other Authorities
United States Constitution Article III, § 2 ...... passim
Wright & Miller, 13A Fed. Prac. & Proc.
Juris. § 3531.9.3 (3d ed.)......................................28
H.R. Rep. No. 112-98(I) .......................................15, 26
S. Rep. No. 110-259 (2008) ..................................15, 26

PETITION FOR WRIT OF CERTIORARI
_____________
Petitioner Argentum prays for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Federal Circuit (“Federal Circuit”)
dismissing Argentum’s appeal from an adverse final
decision in an inter partes review (“IPR”) proceeding
before the United States Patent and Trademark
Office’s Patent Trial and Appeal Board (“Board”).
OPINIONS BELOW
Argentum challenged the validity of U.S. Patent
No. 9,187,405 (“’405 patent”) owned by Respondent
Novartis. The Board first instituted trial on all
grounds of invalidity in IPR2017-00854 brought by
other parties, and subsequently instituted trial on all
grounds of invalidity presented by Argentum in
IPR2017-01550. The Board consolidated these IPR
proceedings. The Board’s institution decisions are
unreported and are reprinted at 76a-112a.
On July 11, 2018, the Board issued a final
written decision finding that the IPR petitioners had
not shown that the claims of the ’405 patent are
invalid in view of the asserted prior art. The Board’s
final written decision is unreported and is reprinted
at 12a-75a.
On April 23, 2020, the Federal Circuit dismissed
Argentum’s appeal from the Board’s final written
decision, holding that Argentum lacks Article III
standing. The Federal Circuit’s opinion is reported at
956 F.3d 1374, and is reprinted here as 1a-8a. On
July 9, 2020, the Federal Circuit denied Argentum’s
petition for rehearing en banc.
That order is
unreported and is reprinted at App. 9a-10a.

2
JURISDICTION
Pursuant to 28 U.S.C. § 1254(1), this Court has
jurisdiction to review the Federal Circuit’s judgment
by writ of certiorari. The Federal Circuit issued its
opinion on April 23, 2020. Argentum timely filed a
petition for rehearing en banc, which the Federal
Circuit denied on July 9, 2020. On March 19, 2020,
this Court ordered that the deadline to file any
petition for writ of certiorari is extended to 150 days
from an order denying petition for rehearing.
Argentum’s petition has been timely filed.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves standing under Article III, § 2
of the United States Constitution. This case further
involves statutory provisions regarding patent
matters under 35 U.S.C. § 271, the Hatch-Waxman
Act under 21 U.S.C. § 355, the Leahy-Smith America
Invents Act under 35 U.S.C. §§ 315(e) and 319, and
regulatory provisions under 37 C.F.R. § 42.73(d).
They are reprinted at App. 113a-163a.
STATEMENT OF THE CASE
AND FACTUAL BACKGROUND
For over four years, Argentum and its
manufacturing partner KVK have been working
together under a formal joint venture to develop and
commercialize generic drugs. One such drug is
fingolimod for the treatment of relapse-remitting
multiple sclerosis—a debilitating disease suffered by
millions around the world. Argentum has invested
significant resources in the joint venture’s efforts. Its
tireless work with KVK has culminated in an
affordable, market-ready generic drug from which
millions of patients will benefit.

3
Standing between Argentum and market entry of
its generic fingolimod is the pharmaceutical giant
Novartis. Since 2010, Novartis has maintained a firm
monopoly over fingolimod treatment of multiple
sclerosis with its blockbuster drug Gilenya. Costing
each patient an average of nearly $100,000 annually,
Gilenya generates approximately $3 billion in annual
revenues for Novartis. To date, Gilenya remains the
only 0.5 mg dosage fingolimod drug approved in the
United States for treating relapse-remitting multiple
sclerosis.
Novartis’s longstanding monopoly in this market
stems from an interplay of patent rights and the
statutory framework for FDA approval. Novartis
owns the ’405 patent at issue in this case, and has
listed it in the FDA’s so-called “Orange Book” as
covering its Gilenya blockbuster drug. In doing so,
Novartis has provided notice that any competitor
seeking FDA approval for a generic version of Gilenya
will be subject to a patent infringement suit.
21 U.S.C. § 355(b)(1); 21 C.F.R. § 314.53(b)(1).
To enter the market with a generic alternative to
Gilenya, Argentum is first required to seek FDA
approval. Under the Hatch-Waxman Act enacted by
Congress, this can be done by filing an ANDA. The
filing of an ANDA, however, statutorily constitutes an
act of patent infringement. 35 U.S.C. 271(e)(2).
Argentum will, therefore, be subject to an immediate
patent infringement suit by Novartis upon the filing
of an ANDA. Specifically, Novartis is statutorily
entitled to file a patent infringement suit against
Argentum within 45 days of receiving a required
notice. And by filing suit, Novartis obtains an
automatic stay of 30 months during which the FDA
cannot approve the ANDA.

4
This stay automatically precludes Argentum
from obtaining FDA approval during the statutory
period. See 21 U.S.C. § 355(j)(5)(B)(iii). Novartis can
also extend this stay (id.), and seek injunctive relief.
See 35 U.S.C. § 271(e)(4). This combination of an
automatic stay and injunctive relief is significant for
purposes of market exclusivity.
Novartis has, in fact, sued each and every
competitor that sought FDA approval for a generic
version of Gilenya. Over 20 lawsuits and counting,
Novartis has garnered full market exclusivity with
injunctions against each potential competitor.
Argentum is simply next in line. Tellingly, Novartis
has refused to disclaim suing Argentum and its
manufacturing partner KVK. CAFC-Appeal 18-2273,
ECF 12 at 10.
The real and immediate risk of an infringement
suit and the resulting automatic stay block Argentum
from market entry. Argentum thus stands to lose
significant investment in its joint development of a
market-ready generic fingolimod. With projected
annual revenues approaching $50 million, Argentum
loses expected profits from its joint venture with every
day that goes by.
To eliminate that barrier, Argentum directly
challenged the ’405 patent’s validity in an IPR
proceeding against Novartis—a proceeding enacted
by Congress specifically as a more cost-effective and
expedited alternative to district court litigation. The
Board’s adverse decision regarding the validity of the
’405 patent directly affects Argentum. If the decision
stands, Novartis will continue to block Argentum’s
generic fingolimod for another seven years—the
remainder of the life of the ’405 patent.

5
The Federal Circuit nonetheless denied
Argentum any redress from the Board’s decision on a
statutory appeal. Under the guise of a constitutional
limitation on standing, the Federal Circuit’s decision
turns upside down the framework Congress
established to allow unlawful patents to be challenged
and to allow generic drugs to be brought expeditiously
to market. Denying the right to appeal to an entity
that has pursued an administrative challenge to a
patent, precisely because that entity is ready and
eager to bring a competitive generic to market,
disregards the basic financial motivation and interest
that has always been held to properly ground
Article III standing.
That the case involves a joint venture partner—
a common arrangement in the pharmaceutical
industry—cannot change the outcome because it does
not diminish Argentum’s constitutional rights and
interests in the outcome of the case. There is no
dispute that the ’405 patent is a barrier to Argentum’s
market entry, nullifying its previous investment and
depriving it of the profits that entering the market
will bring. Nor is there a dispute that Argentum is
subject to suit by Novartis as soon as an ANDA is filed
for FDA approval. And, indeed, there is no doubt that
the Board’s adverse decision statutorily estops
Argentum from arguing in any other litigation that
the ’405 patent is invalid on the same grounds or
other grounds that reasonably could have been raised.
The Federal Circuit focused on the fact that KVK
will be the manufacturing entity and the entity filing
for regulatory approval, which the Federal Circuit
deemed to render Argentum’s injury not personal. Its
holding departs from the constitutional norms for
Article III standing and this Court’s precedent.

6
“At bottom, ‘the gist of the question of standing’
is whether petitioners have ‘such a personal stake in
the outcome of the controversy as to assure that
concrete adverseness which sharpens the presentation
of issues upon which the court so largely depends for
illumination.’” Massachusetts v. E.P.A., 549 U.S. 497,
517 (2007) (quoting Baker v. Carr, 369 U.S. 186, 204
(1962)) (emphasis added). As this Court explained,
“‘[i]njury in fact’ reflects the statutory requirement
that a person be ‘adversely affected’ or ‘aggrieved,’
and it serves to distinguish a person with a direct
stake in the outcome of a litigation—even though
small—from a person with a mere interest in the
problem.” United States v. Students Challenging
Regulatory Agency Procedures (SCRAP), 412 U.S.
669, 689 n.14 (1973).
At its core, the Federal Circuit’s decision departs
from this maxim and precludes Argentum from
redress on appeal simply because it is in a joint
venture. In the process, it slams the door on any
pharmaceutical joint venture partner seeking to
invalidate a patent that blocks market entry, where
that partner is not the entity manufacturing the
product or submitting the ANDA for FDA approval.
This is particularly problematic in industries where,
as here, joint ventures between non-manufacturing
and manufacturing partners are very common.
This Court’s intervention is, therefore, needed to
ensure that Article III is not improperly invoked to
eliminate an entire class of appellants with a direct
financial interest in the outcome of a case and
adversely impacted by the results of an adversarial
administrative proceeding in which they participated
as a party.

7
A. Argentum’s Generic Version of Gilenya Will
Provide Affordable Treatment to Millions
Suffering from Relapse-Remitting Multiple
Sclerosis
“Multiple sclerosis (MS) is an immune-mediated
disease of the central nervous system with chronic
inflammatory demyelination leading to progressive
decline of motor and sensory functions and
permanent disability.” App. 17a. Features of the
disease “include inflammation, demyelination and
axonal and oligodendrocyte loss.” App. 86a. In other
words, the disease eats away at the protective coating
of nerve cells leading to progressive decline in motor
functionality and even permanent disability.
See CAFC-Appeal 18-2273, ECF 20 at n.1.
According to the National MS Society, nearly
1 million individuals in the United States and
2.3 million individuals worldwide suffer from
multiple sclerosis. 4 Novartis’s brand name drug
Gilenya is an oral dosage form for the treatment of
multiple sclerosis based on a daily dosage of 0.5 mg of
fingolimod.
The use of fingolimod in the treatment of
multiple sclerosis has been long known. CAFCAppx1019-20. Publications prior to the ’405 patent
also expressly disclose the use of a 0.5 mg fingolimod
dosage. See CAFC-Appeal 18-2209, ECF 69. To date,
however, Gilenya remains the exclusive 0.5 mg
dosage fingolimod drug that is available in the United
States.

Multiple
Sclerosis:
Facts,
Statistics,
and
You,
https://www.healthline.com/health/multiple-sclerosis/factsstatistics-infographic.

4

8
According to the Healthcare Bluebook, treating
the lifelong condition of multiple sclerosis with
Gilenya costs each patient approximately $100,000 a
year. See CAFC-Appeal 18-2273, ECF 20 at 2.
Gilenya’s worldwide sales generate approximately
$3 billion in annual revenue for Novartis. Id.
It is well-known that generic drugs are more
affordable than brand name drugs, and that delta
increases as more generics are available. Prices are
lower by 39% with one generic, by 54% with two
generics, and by 79% with four generics. 5 Argentum
and its manufacturing partner KVK have been
working to commercialize an affordable, generic
version of Gilenya. CAFC-Appeal 18-2209, ECF 44-3
¶¶11, 14. This joint venture is ready to bring a
generic version to market. The only hindrance is an
imminent patent infringement suit by Novartis—
which is a virtual certainty under the Hatch-Waxman
framework. Id. ¶¶12, 15.
B. The ’405 Patent Bars Market Entry Under
the Hatch-Waxman Act
Novartis received FDA approval for Gilenya in
September 2010. Novartis AG v. Torrent Pharms.
Ltd., 853 F.3d 1316, 1320 (Fed. Cir. 2017). With its
New Drug Application (“NDA”), Novartis submitted a
list of patents that it contends cover Gilenya.
Novartis’s patents have been listed in the FDA’s socalled Orange Book. See CAFC-Appx3130-31.

Conrad, Ryan et al., Generic Competition and Drug Prices: New
Evidence Linking Greater Generic Competition and Lower
Generic Drug Prices, at 2-3, https://www.fda.gov/media/133509/
download.

5

9
By listing its patents, Novartis effectively
provided notice that any competitor seeking FDA
approval to make a generic version of Gilenya is
subject to a patent infringement suit. See 21 U.S.C. §
355(b)(1); 21 C.F.R. § 314.53(b)(1). Two of those
patents listed by Novartis recently expired. All
claims of the third patent, U.S. Patent No. 8,324,283,
have been held invalid. See Novartis, 853 F.3d at
1319. The ’405 patent was the fourth patent listed by
Novartis. CAFC-Appx3131. It is the patent at issue
in this case. Absent reversal of the Board’s decision,
the ’405 patent will provide Novartis with exclusivity
for the fingolimod treatment of multiple sclerosis
until June 25, 2027. Id.
In order to seek FDA approval for a generic
version of Gilenya, any competitor must file an
application known as an ANDA.
Such ANDA
incorporates the safety and effectiveness data
submitted by the original drug manufacturer and
requires only bioequivalence studies to demonstrate
that the drugs can be substituted for each other. This
is intended to streamline the process by which generic
companies can seek FDA market approval. 21 U.S.C.
§ 355(j).
Filing an ANDA, however, also requires
certification that the ’405 patent “is invalid or will not
be infringed by the manufacture, use, or sale of the
new drug for which the application is submitted.”
21 U.S.C. § 355(j)(2)(A)(vii)(IV). This certification is
then followed by service of a required notice on
Novartis, providing “[a] detailed statement of the
factual and legal basis of the opinion of the applicant
that the patent is invalid or will not be infringed.”
21 U.S.C. § 355(j)(2)(B)(iv)(II).

10
This process in turn triggers an opportunity for
Novartis to sue for patent infringement within
45 days so as to obtain an automatic stay of
30 months, within which the generic competitor’s
ANDA cannot be approved by the FDA. See 21 U.S.C.
§ 355(j)(5)(B)(iii). This stay can be further extended.
Id. And Novartis can, of course, also seek injunctive
relief against the generic competitor. See 35 U.S.C.
§ 271(e)(4).
These statutory ANDA requirements, automatic
stays, and potential patent infringement liability
under 35 U.S.C. § 271(e)(2) in combination present a
significant market barrier for generic competition.
Importantly, patent infringement liability is not
limited to ANDA filers. A non-filer engaged in joint
development efforts with an ANDA filer is equally
subject to liability for indirect infringement. See, e.g.,
Forest Labs., Inc. v. Ivax Pharms., Inc., 501 F.3d 1263,
1272 (Fed. Cir. 2007).
C. Novartis Has Been Consistently Blocking
Generic Competition, Including Argentum
Novartis has maintained a firm monopoly over
Gilenya by enforcing its ’405 patent. Over the past
decade, numerous competitors have sought FDA
approval to market a generic version of Gilenya. 6
Novartis has brought suit for patent infringement
against
each
and
every
one
of those
pharmaceutical companies and their subsidiaries or
affiliates—totaling over 20 patent infringement suits
to date.

FDA-Approved Drugs, https://www.accessdata.fda.gov/scripts/
cder/daf/index.cfm?event=BasicSearch.process, (searching for
“fingolimod”).

6

11
Notably, Novartis has sought and obtained
permanent injunctions against each defendant in
cases that have terminated. See, e.g., Case No. 1:18cv-01043 (D. Del.) (injunctions against Teva
Pharmaceuticals, Mylan, Dr. Reddy’s, Sun Pharma,
Actavis, Accord Healthcare, Hetero Labs, Torrent
Pharma, Glenmark Pharmaceuticals, Alkem, HEC
Pharm, Strides Pharma, Emcure Pharmaceuticals,
Heritage Pharmaceuticals, Bionpharma, Prinston
Pharmaceuticals, Ezra Ventures, Cadila Healthcare,
Zydus Pharmaceuticals, Aurobindo Pharma); Case
No. 1:19-cv-01118 (D. Del.) (injunction against
Mylan); Case No. 1:18-cv-01039 (injunctions against
Teva, Actavis). In other words, Novartis has thus far
successfully precluded all competitors from selling a
generic alternative to Gilenya.
Following its proven pattern of enjoining any
competition through serial patent litigation, Novartis
has also refused to disclaim suing Argentum and its
manufacturing partners. See CAFC-Appeal 18-2273,
ECF 12 at 10. On February 10, 2020, Argentum’s
counsel sought confirmation from Novartis that it
does not intend to enforce the ’405 patent against
Argentum and its manufacturing partners for
infringement “in connection with their manufacturing
and commercialization activities.” Id. Novartis never
responded to the letter. It is clear that Novartis
intends to enforce the ’405 patent against Argentum
and its manufacturing partner KVK as soon as an
ANDA is filed in accordance with the Hatch-Waxman
statutory framework.

12
D. The Joint Venture Between Argentum and
Its Manufacturing Partner KVK to Develop
a Generic Version of Gilenya
Argentum is a generic drug company with core
competencies in pharmaceutical operations and the
development of generic versions of branded drugs.
See, e.g., CAFC-Appeal 18-2209, ECF 44-3 at 23.
Since its inception in May 2015, Argentum has been
partnering with branded and generic pharmaceutical
companies to develop and bring to market generic
products.
Id. ¶¶3-4.
To date, Argentum has
successfully pursued generic versions of several brand
name drugs. Id. Those include, for instance, generic
versions of Vimpat®, Zytiga®, Afinitor®, Dymista®,
Jublia®, Restasis®, Cialis®, and Pazeo®. Id. ¶¶2-14.
To be sure, these types of partnerships with
manufacturing companies are very commonplace in
the pharmaceutical industry. 7 Some conventions are,
in fact, organized for the purpose of bringing these
types of partnerships to fruition. 8
These joint
ventures allow companies to combine their respective
levels of expertise, including product development,
regulatory approval, manufacturing, and marketing.
7 Research and Markets Report:
Global Joint Venture
Partnering Terms and Agreements in Pharma, Biotech and
Diagnostics 2014-2020 (Oct. 2020), https://www.researchand
markets.com/reports/2986980/global-joint-venture-partneringterms-and?utm_source=CI&utm_medium=PressRelease&utm_
code=rxr9xh&utm_campaign=1451641+-+Latest+Joint+
Venture+Agreements+Announced+in+the+Pharmaceutical%2c
+Biotechnology+and+Diagnostic%2c+2020&utm_exec=chdo54p
rd

Informa Markets, CPhi Worldwide Post Show Report 2019,
https://www.cphi.com/content/dam/Informa/cphi/europe/en/2020
/pdf-files/HLN19CPW-SP-Post%20Show%20Report.pdf

8

13
Novartis itself also routinely engages in joint
ventures and collaborations. Gilenya, for instance,
was the result of a partnership between Novartis and
Mitsubishi Tanabe Pharma Corporation.
See
Novartis, 853 F.3d at 1319-20; Novartis AG v. Ezra
Ventures, LLC, No. 4:15-cv-00095, 2015 WL 4197692,
at *1 (E.D. Ark. July 10, 2015). Notably, Argentum’s
efforts to develop and bring to market a generic
version of Pazeo® are the result of an agreement
between Argentum and Novartis company Alcon
Research. Ltd. in 2016. CAFC-Appeal 18-2209, ECF
44-3 ¶3. 9
Since January 2016, Argentum has joined forces
with its manufacturing partner KVK under a formal
agreement to develop and commercialize generic
versions of brand name drugs. Id. ¶¶4-7. KVK is a
manufacturer of pharmaceutical drug products,
employs over 50 research scientists, and has well over
30 approved ANDAs. ECF 44-2 ¶¶1-2. Partnering
with KVK allows Argentum to produce several billion
tablets and capsules annually. Id. ¶2.
Under the agreement, Argentum and KVK
combined forces as a “Joint Venture” to:
 “collaborate using their internal resources to
develop and commercialize pharmaceutical
products, including generic drug products”;
 “prepare, prosecute, and defend IPRs and
litigation under the Hatch-Waxman Act and
other patent-related strategies germane to the
availability and costs of pharmaceutical
products”
Unless indicated otherwise, all ECF citations in this section (D)
refer to CAFC-Appeal 18-2209.

9

14
 “share in external costs” by either Argentum or
KVK for all aspects of performance under the
agreement; and
 “share any financial benefits” from projects
under the Joint Venture, including equal profit
distribution between Argentum and KVK
based on revenues resulting from the activities
of the Joint Venture.
ECF 44-3 ¶7.
The activities of the Joint Venture are governed
by a formal charter and overseen by a “Joint
Development Committee” made up of members from
Argentum and KVK. Id. ¶9. In other words, the Joint
Venture’s governance, operations, activities, and
financial costs as well as benefits are borne by both
Argentum and KVK.
As part of this Joint Venture, Argentum is
equally responsible for development activities and
seeking regulatory approval. Id. ¶¶4-9. Argentum is
also the sole party responsible for representing the
Joint Venture’s interests in any patent-related
litigation arising from their joint projects. Id. ¶7.
That includes challenging patents in administrative
proceedings and defending both members of the Joint
Venture in patent infringement actions.
KVK is in turn responsible for manufacturing the
generic drug products. Id. ¶6. Since their Joint
Venture, KVK has expanded its facilities by over
200,000 square feet and “intends to use these facilities
to manufacture drugs developed through its
collaboration with Argentum.”
ECF 44-2 ¶4.
Argentum and KVK have already manufactured two
generic drug products from the expanded KVK
facilities. Id.

15
The generic version of Gilenya will also be
produced and commercialized from these facilities.
Id. ¶¶4-5; see also ECF 44-3 ¶¶9-11; ECF 88-2 ¶¶2-3.
All necessary work to commercialize the generic
version of Gilenya has been completed. Id. In other
words, Argentum’s generic version of Gilenya is
market ready subject to FDA approval.
This is the culmination of shared resources and
extensive work between Argentum and KVK. ECF
44-3 ¶¶11, 14. Both partners stand to gain and lose
equally from the Joint Venture. Id. ¶7. With its
investments and expected revenues approaching $50
million annually, Argentum has a concrete and
personal stake in bringing its fingolimod to market
free of any encumbrances by the ’405 patent and
threats of litigation by Novartis. Id. ¶¶12, 15.
E. The IPR Litigation Between Argentum and
Novartis
To remove the ’405 patent as a market barrier,
Argentum filed an IPR petition challenging its
validity. Representing both members of the Joint
Venture, Argentum identified KVK as a real party in
interest. See IPR2017-01550, Paper No. 1 at 21.
1. IPR Proceedings Under the AIA
The Leahy-Smith America Invents Act (“AIA”)
provides adversarial proceedings for challenging the
validity of a patent before the Board. Congress
created these proceedings for the purpose of
“providing quick and cost-effective alternatives to
litigation.” H.R. Rep. No. 112-98, pt. 1, at 48 (2011);
see also S. Rep. No. 110-259 at 20 (2008) (they are
“quick, inexpensive, and reliable alternative[s] to
district court litigation”). One such proceeding is
known as an IPR. See 35 U.S.C. §§ 311 et seq.

16
As an alternative to district court litigation, an
IPR proceeding is statutorily estopped “if, before the
date on which the petition for such a review is filed,
the petitioner or real party in interest filed a civil
action challenging the validity of a claim of the
patent.” 35 U.S.C. § 315(a)(1) (emphasis added).
Similarly, statutory estoppel applies to challenging
the same patent in any other litigation once a final
decision has been issued in an IPR proceeding. The
petitioner and “the real party in interest or privy of the
petitioner” are both statutorily estopped from
challenging the same patent on “any ground that the
petitioner raised or reasonably could have raised
during that inter partes review.”
35 U.S.C. §
315(e)(1)-(2) (emphasis added).
A non-party is a “real party in interest” if it “is a
clear beneficiary that has a preexisting, established
relationship with the petitioner.” Applications in
Internet Time, LLC v. RPX Corp., 897 F.3d 1336, 1351
(Fed. Cir. 2018), cert. denied, 139 S. Ct. 1366 (2019).
Here, KVK is a real party in interest and was
identified as such in Argentum’s IPR petition and on
appeal before the Federal Circuit.
2. The IPR Proceeding
The Board consolidated Argentum’s petition with
three other petitions against the ’405 patent. App.
76a-82a. Novartis opposed the petitions and filed a
preliminary response. App. 85a. After considering
the respective arguments, the Board instituted trial
on all challenged grounds. App. 76a-112a. The Board
found that petitioners have shown a reasonable
likelihood that all claims of the ’405 patent are
unpatentable. App. 111a.

17
Novartis submitted further briefing and sought
to amend several claims of the ’405 patent in an effort
to escape an invalidity finding. App. 2a. After a year
of litigation, the Board issued a final written decision
finding that petitioners have not shown the claims of
the ’405 patent are unpatentable. App. 12a-75a.
3. The Appeal
On August 16, 2018, Argentum filed a notice of
appeal from the Board’s final written decision to the
Federal Circuit—which had jurisdiction pursuant to
35 U.S.C. §§ 141(c), 319. As with the IPR proceedings,
Argentum’s appeal was consolidated with several
other appeals.
Novartis filed a motion to dismiss Argentum’s
appeal for purported lack of Article III standing.
Novartis’s argument was initially predicated on the
incorrect notion that Argentum is not at risk of an
infringement suit because it is purportedly “a nonpracticing entity.” CAFC-Appeal 18-2209, ECF 33
at 2. 10 Argentum’s opposition established that it is
not a non-practicing entity. ECF 44-1.
Novartis then shifted its theory to argue that
Argentum could not have standing because its
manufacturing partner KVK will be making the
purportedly infringing generic product and filing the
corresponding ANDA for regulatory approval.
ECF 45-1. Novartis never disputed that KVK itself
would have Article III standing, but instead sought to
differentiate KVK’s standing from its equal Joint
Venture partner Argentum.

Unless indicated otherwise, all ECF citations in this
section (E) refer to CAFC-Appeal 18-2209.
10

18
The Federal Circuit denied Novartis’s motion.
ECF 47. In its merits briefing, Novartis raised a new
argument that Argentum purportedly cannot show
standing based on infringing activities without
showing “evidence that any scientific work has been
done on the ANDA to date.” ECF 69 at 39. Argentum
proffered additional declarations showing that all
scientific work has been done and that its generic
version of Gilenya is market ready. ECF 88-2, 88-3.
The appeal proceeded through all stages. At oral
argument, the Federal Circuit’s panel asked no
questions regarding Article III standing. Argentum’s
counsel presented oral argument on behalf of
Argentum and one other remaining appellant.
4. The Federal Circuit’s Opinions
After all other appellants settled with Novartis,
the Federal Circuit dismissed Argentum’s appeal for
lack of Article III standing. App. 1a-8a. The court
provided three purported bases for its decision.
First, the court held that Argentum does not
“bear the risk of any infringement suit” because “any
ANDA to be filed ‘will be filed by KVK, Argentum’s
manufacturing and marketing partner.’” App. 4a-6a
(citations omitted).
Second, the court disagreed that Argentum “will
incur significant economic injury as its investments
in developing a generic version of Gilenya and
preparing an ANDA would be at risk with a ‘looming
infringement action by Novartis.’”
App. 6a.
Differentiating once again between the interests of
Argentum and KVK, the court held that Argentum’s
injury is “entirely speculative and not personal to
Argentum.” Id. (emphasis added).

19
Third, the court “rejected invocation of the [AIA’s
statutory] estoppel provision as a sufficient basis for
standing.” App. 8a. Argentum filed a petition for en
banc rehearing, which was denied. App. 9a-10a.
REASONS FOR GRANTING THE WRIT
The Federal Circuit’s decision erected a barrier
to appeal that demands far more than the
constitutional requirements under Article III. At its
core, the Federal Circuit’s decision constructs a
heightened standard for standing in patent cases that
involve pharmaceutical products developed by joint
ventures. The only injuries recognized by the Federal
Circuit’s decision as sufficient to ground Article III
standing are those borne by either (1) the
manufactuing partner in the joint venture, or (2) the
partner submitting an application for FDA approval.
App. 1a-8a. In other words, members of the joint
venture with material and equal financial interests
are precluded from redress simply because they
occupy a non-manufacturing role in the partnership.
This new standing construct, purportedly
grounded on the Constitution, is not only erroneous
under prevailing law, it also has enormous
ramifications for joint ventures in the pharmaceutical
industry. Stating that joint ventures are common in
the pharmaceutical industry is an understament.
Supra n.7. In recent years, joint ventures have
become the norm—and for good reason. They allow
companies to combine their respective resources and
expertise in research and development, clinical trials,
regulatory approval, manufacturing, marketing, and
defending joint interests through legal proceedings.
Each element is an important contribution that comes
with significant investment.

20
That is the case here. Argentum has been in a
joint venture with its manufacturing partner KVK for
several years.
As part of this Joint Venture,
Argentum is equally responsible for development
activities and seeking regulatory approval. CAFCAppeal 18-2209, ECF 44-3 ¶¶4-9. Argentum is also
the sole party responsible for representing the
Joint Venture’s interests in any patent-related
litigation. Id. ¶7.
Even though the joint venture is a fairly young
one, their efforts have already resulted in several
successful product launches. Supra §D. To launch a
generic alternative to Gilenya, however, Argentum
and KVK will have to seek FDA approval first. Under
the framework of the Hatch-Waxman Act, Argentum
and KVK will then be subject to a patent infringement
suit by Novartis as soon as an ANDA is filed. Supra
§B.
Novartis can and will file suit against Argentum.
Novartis has, in fact, done so against all competitors
that have filed an ANDA with the FDA for a generic
version of Gilenya. Id. To be sure, Novartis can file
suit both against the actual ANDA applicant for
direct infringement and against any non-filer
engaged in joint development efforts for indirect
infringement. See, e.g., Forest Labs., 501 F.3d at 1272
(enjoining non-manufacturing business partner
because “the plan to manufacture, import, market,
and sell the [] products described in the ANDA was
undoubtedly a cooperative venture” such that the
non-manufacturing partner “Cipla has therefore
actively induced the acts of Ivax that will constitute
direct infringement upon approval of the ANDA”).
Argentum is, therefore, subject to suit for either direct
or indirect infringement.

21
In other words, it is a virtual certainty that
Novartis will sue Argentum as soon as an ANDA is
filed with the FDA regardless of whether it is filed by
KVK or Argentum. By not suing Argentum, Novartis
would not only diverge from a long-standing track
record of blocking competition in this field, but would
also forego an automatic market exclusivity. See 21
U.S.C. § 355(j)(5)(B)(iii). Simply put, Novartis has
every incentive to bring suit.
Moreover, the ostensible constitutional bar to
appeal erected by the Federal Circuit fundamentally
undermines the careful structure established by
Congress to facilitate the introduction of generic
drugs, and allow for challenges to the validity of
patents that may be unlawfully obstructing lawful
competition. The ANDA process works hand in hand
with the IPR process, which offers the potential
manufacturer of a generic drug the opportunity to
challenge the validity of a patent that may be
standing in its way. To deprive the potential generic
manufacturer—ready, willing and able to introduce
the competitive product if the existing patent is found
invalid—of the right to appeal an adverse Board
decision fundamentally undermines the utility of this
mechanism as a means of gaining market entry.
Yet, the Federal Circuit has denied standing to
Argentum simply because it is not the manufacturing
partner in its joint venture with KVK.
This
categorical denial of standing is inconsistent with the
Constitution and this Court’s precedent. The same is
true for the Federal Circuit’s categorical denial of
standing based on statutory estoppel that arises from
an IPR proceeding. This Court should reverse the
Federal Circuit’s decision and grant Argentum the
redress to which it is entitled.

22
I.

The Federal Circuit Erroneously Held
That Argentum Lacks Article III Standing
Simply Because Its Joint Venture Partner
Manufactures the Generic Drug and Will
Apply for FDA Approval

Standing under Article III requires an appellant
to have “(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged [action], and (3) that is
likely to be redressed by a favorable judicial decision.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016).
The only element at issue here is the requirement of
an injury in fact (App. 1a-8a)—the “[f]irst and
foremost” of the three constitutional requirements for
standing. Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 103 (1998).
This Court has also consistently explained that,
“‘the gist of the question of standing’ is whether
petitioners have ‘such a personal stake in the outcome
of the controversy as to assure that concrete
adverseness which sharpens the presentation of
issues upon which the court so largely depends for
illumination.’”
Massachusetts, 549 U.S. at 517
(citations omitted) (emphasis added). In other words,
the injury-in-fact requirement is intended to
“distinguish a person with a direct stake in the
outcome of a litigation—even though small—from a
person with a mere interest in the problem.” SCRAP,
412 U.S. at 689 n.14 (emphasis added); see also Lujan
v. Defs. of Wildlife, 504 U.S. 555, 582 (1992) (Stevens,
J., concurring) (“Indeed, this Court has often held that
[small] injuries to such interests are sufficient to
confer standing, and the Court reiterates that holding
today.”) (citing SCRAP, 412 U.S. at 686-87).

23
To be sure, the injury must be “a concrete and
particularized, actual or imminent invasion of a
legally protected interest.” Lujan, 504 U.S. at 112.
“For an injury to be ‘particularized,’ it ‘must affect the
plaintiff in a personal and individual way.’” Spokeo,
136 S. Ct. at 1548. An injury is concrete when it is
“real and not abstract.” Id. (citations omitted).
“Concrete is not, however, necessarily synonymous
with ‘tangible.’” Id. at 1549.
Here, Argentum has met all elements of an injury
in fact. After years of investment into the Joint
Venture with KVK, Argentum has a personal and
concrete stake in obtaining a judgment of invalidity
against Novartis’s ’405 patent. Absent redress on
appeal, Argentum will be blocked from introducing a
generic fingolimod alternative to Novartis’s Gilenya.
As a result, Argentum will continue to lose both the
benefit of its investment as well as projected
revenues.
This is precisely the type of particularized and
concrete injury that confers Article III standing under
this Court’s precedent. See, e.g., Monsanto Co. v.
Geertson Seed Farms, 561 U.S. 139, 149-50 (2010)
(holding petitioners had standing because they were
unable to sell or license their products until receiving
agency approval); see also Asarco Inc. v. Kadish, 490
U.S. 605, 617-18 (1989) (holding petitioners had
standing because they could not exploit mineral
leases absent redress on appeal). If Argentum
prevails on appeal, the ’405 patent will no longer
constitute a barrier to Argentum’s market-ready
generic version of Gilenya. Without available redress
on appeal, however, Argentum will continue to be
harmed by being deprived from realizing the benefits
of its four-year long investment.

24
Notwithstanding Argentum’s financial and
practical stake in the outcome of the dispute over the
’405 patent, the Federal Circuit drew a sharp line
between the standing of Argentum and its
manufacturing partner KVK. There is no dispute
that KVK would have standing. Nor is there any
dispute that Argentum represents the legal interests
of the Joint Venture. Yet, the Federal Circuit held
that the Constitution itself bars Argentum’s appeal.
First, the Federal Circuit failed to recognize that
multiple parties can have an economic interest in the
success of a generic drug, crediting only the entity
actually producing the generic drug product as having
an economic injury as a result of Novartis’s monopoly.
This Court has, however, repeatedly held that
financial or economic interests are “legally protected
right[s]” for standing purposes. See, e.g., Vermont
Agency of Nat. Res. v. U.S. ex rel. Stevens, 529 U.S.
765, 772-77 (2000); Clinton v. City of New York, 524
U.S. 417, 432 (1998); Sierra Club v. Morton, 405 U.S.
727, 733-34 (1972). There can be no reasonable
dispute that Argentum has economic interests that
turn on the outcome of this case.
The Federal Circuit also mistakenly held that
Argentum does not have standing because its
manufacturing partner KVK will likely be named as
the ANDA filer for the generic drug. In other words,
despite Argentum having a clear stake of its own in
the dispute over the validity of Novartis’s patent, the
Federal Circuit arbitrarily held that only the entity
named as the ANDA filer will have a cognizable injury
in fact under Article III. This ignores the elementary
fact that Argentum is also subject to suit for indirect
infringement by inducing KVK to file an ANDA.

25
Second, the Federal Circuit incorrectly rejects
statutory estoppel as a basis for standing. Litigation
estoppel is often recognized as an injury in fact for
Article III standing. Here, the injury is particularly
extensive because Argentum, its real parties in
interest, and privies are statutorily estopped from
challenging the ’405 patent in any other litigation on
the same grounds or any grounds that reasonably
could have been raised.
A.

Argentum Has Suffered an Economic
Injury
from
Novartis’s
Market
Barrier

The Federal Circuit’s decision ignores that
Argentum is suffering a legal injury arising under the
statutory framework of the Hatch-Waxman Act.
“Ordinarily, a potential competitor in other fields is
legally free to market its product in the face of an
adversely-held patent. In contrast, under the Hatch–
Waxman Act an ANDA filer … is not legally free to
enter the market because federal statutes prohibit it.”
Teva Pharm. USA, Inc. v. Novartis Pharm. Corp., 482
F.3d 1330, 1345 (Fed. Cir. 2007).
Just as in Teva, Argentum “suffers a direct legal
injury from … Novartis’ listing of [its] patents in the
Orange Book ….” Id. Novartis’s Orange Book listing
“represents that ‘a claim of patent infringement could
reasonably be asserted if a person not licensed by the
owner engaged in the manufacture, use or sale’ of
generic [drugs] covered by the claims of its listed . . .
patents.” Id. at 1341 (citing 21 U.S.C. § 355(b)(1)).
This is “a circumstance to be considered in
determining whether a justiciable controversy exists
under the totality of the circumstances.” Id. at 134142.

26
Thus, when properly considered, Argentum is
directly injured by the continued enforceability of the
’405 patent listed in the Orange Book as covering
Gilenya. That Novartis will sue Argentum and KVK
for infringement upon filing of an ANDA is a virtual
certainty. To date, Novartis has refused to confirm
that it will not sue Argentum. And Novartis has sued
every single competitor that filed an ANDA for a
generic version of Gilenya. There is no dispute as to
these facts.
Here, Argentum opted to file an IPR petition to
preemptively challenge the ’405 patent before filing
an ANDA and being exposed to an infringement suit.
But that process, and appeal from that process,
cannot be treated differently than bringing a
declaratory judgment action seeking to invalidate the
’405 patent. The Hatch-Waxman Act, in fact, provides
authority for generic competitors to “obtain patent
certainty” by bringing an action for declaratory
judgment of invalidity. 21 U.S.C. § 355(j)(5)(C).
Congress created IPR proceedings specifically to
provide an alternative to such expensive district court
litigation. See H.R. Rep. No. 112-98(I), at 48 (IPRs
are a “quick and cost effective alternative to
litigation”); id., at 46-47 (“The Act converts inter
partes reexamination from an examinational to an
adjudicative proceeding”); see also S. Rep. No. 110259, at 20 (2008). Setting a higher standard for
Article III standing in appeals from IPR proceedings
would effectively undermine Congress’s intent to
create an alternative venue to litigate patent validity.
Just as in the ordinary Hatch-Waxman
framework, Argentum’s success on appeal and a
finding of invalidity will lift the market barrier
imposed by Novartis’s listing of the ’405 patent in the

27
Orange Book. In contrast, the Board’s decision
maintains the status quo, under which Argentum is
legally barred from entering the market. Absent
recourse on appeal, Argentum will be required to wait
another seven years before it can legally enter the
market, incurring significant losses for a generic
product that is ready to launch. This Court has
recognized standing under analogous circumstances.
See, e.g., Monsanto, 561 U.S. at 149-50.
B.

The Federal Circuit’s Preclusion of
Standing for a Non-Manufacturing
Partner of a Joint Venture Is
Improper

Focusing on the fact that KVK would be the
manufacturing arm in this joint venture, the Federal
Circuit incorrectly held that Argentum’s economic
injury is “entirely speculative and not personal to
Argentum.” App. 6a (emphasis added). The Federal
Circuit’s decision is inconsistent with constitutional
standards and the realities of the pharmaceutical
industry.
First, the Federal Circuit’s decision is contrary to
well-established principles of relationship standing.
Courts have long held that standing is appropriate
where “the interests of parties and nonparties are so
intermingled that all rights and interests should be
considered together.” Wright & Miller, 13A Fed. Prac.
& Proc. Juris. § 3531.9.3 (3d ed.); see also Tyndale
House Publishers, Inc. v. Sebelius, 904 F. Supp. 2d
106, 118 (D.D.C. 2012) (finding standing and holding
“[r]egarding the ‘close relationship’ requirement, the
plaintiff and third party have a ‘congruence of
interests’ such that the plaintiff will be a ‘motivated,
effective advocate for the [third party’s] rights.’”).

28
This Court has similarly held that such
circumstances are present when “the party asserting
the right has a ‘close’ relationship with the person
who possesses the right,” and “there is a ‘hindrance’
to the possessor’s ability to protect his own interests.”
Kowalski v. Tesmer, 543 U.S. 125, 130 (2004); see also
Sessions v. Morales-Santana, 137 S. Ct. 1678, 1683
(2017) (same). These elements of relationship or
third-party standing are readily met in this case.
Argentum and KVK are equal partners in a Joint
Venture directed to the development and
commercialization of generic drug products, including
a generic version of Novartis’s Gilenya drug. The
Joint Venture’s governance, operations, activities,
and financial costs as well as benefits are borne
equally by Argentum and KVK. That is, the economic
interests of Argentum and KVK are directly linked
and intertwined under the Joint Venture. Supra §D.
Indeed, under the terms of the agreement,
Argentum is also the sole party responsible for
representing the Joint Venture’s interests in patentrelated litigation. Id. Argentum has, therefore, the
right to bring the claims of KVK and defend the
interests of KVK with respect to any projects under
the Joint Venture. And because their agreement only
provides Argentum the rights to litigate IPR
proceedings, KVK has a significant contractual
obstacle to assert its equal share of rights in such
litigation.
In other words, Argentum properly
represents the rights and injuries of both entities
such that it has relationship or third-party standing.
See Sessions, 137 S. Ct. at 1683 (finding third-party
standing); see also Liberty Mut. Ins. Co. v. Travelers
Indem. Co., 78 F.3d 639, 642 (D.C. Cir. 1996) (finding
relationship standing).

29
By distinguishing two intricately intertwined
business partners in a Joint Venture, the Federal
Circuit’s decision is directly at odds with principles of
relationship and third-party standing. The Federal
Circuit’s artificial distinction for Article III standing
between Argentum as a non-manufacturing partner
and KVK as a manufacturing partner should be
rejected accordingly. 11
C.

The Federal Circuit Improperly
Rejected
Argentum’s
Economic
Injury for a Lack of Accounting

The Federal Circuit’s decision improperly creates
a requirement to account for investments and losses
with specific evidence to show an economic injury. In
particular, the Federal Circuit found that “Argentum
has not provided sufficient evidence to establish an
injury in fact through economic harm” in large part
because “its assertion that it will suffer at least $10–
50 million per year in lost profits once the FDA grants
provisional approval to the ANDA is both conclusory
and speculative.” App. 6a-7a. The court also found
that Argentum “failed to provide sufficient evidence
that it invested in KVK’s generic Gilenya product or
ANDA” because “it stated only in generalities that …
‘[e]xternal costs are shared by Argentum and KVK on
an opportunity-by-opportunity basis.’” App. 7a. The
court reached this conclusion despite sworn
declarations from Argentum and KVK.

This Court has also found Article III standing for subsidiaries
that represent the legal rights and injuries of a parent company
and vice versa. See, e.g., Franchise Tax Bd. of Cal. v. Alcan
Aluminium Ltd., 493 U.S. 331, 336 (1990) (holding that two
foreign parent companies of U.S. subsidiaries had Article III
standing to challenge U.S. tax laws affecting the subsidiaries).
11

30
In other words, the Federal Circuit requires a
more specific accounting, but this requirement of
specificity has no place in the Article III inquiry. This
Court has repeatedly held that financial or economic
interests are “legally protected interests” for standing
purposes. See Vermont, 529 U.S. at 772-77; Clinton,
524 U.S. at 432; Sierra Club, 405 U.S. at 733-34. A
financial loss, or likely financial loss, is sufficient, and
no specific accounting is required. The amount is, in
fact, immaterial. See SCRAP, 412 U.S. at 689 n.14
(“We have allowed important interests to be
vindicated by plaintiffs with no more at stake in the
outcome of an action than a fraction of a vote …”).
Indeed, applying this Court’s precedent, other
circuits “have explained that where a plaintiff alleges
financial harm, standing ‘is often assumed without
discussion.’” Cottrell v. Alcon Labs., 874 F.3d 154, 163
(3d Cir. 2017) (quoting Danvers Motor Co. v. Ford
Motor Co., 432 F.3d 286, 293 (3d Cir. 2005)); see
also Carter v. HealthPort Techs., LLC, 822 F.3d 47, 55
(2d Cir. 2016) (“Any monetary loss suffered by the
plaintiff satisfies [the injury-in-fact] element; ‘[e]ven
a small financial loss’ suffices.”) (citations omitted).
There is no dispute that Argentum has
challenged the validity of Novartis’s ’405 patent
precisely because it has a financial interest in
invalidating the patent in order to introduce a generic
alternative to Novartis’s blockbuster drug Gilenya.
Argentum’s financial interest in invalidating that
patent is thus reflected in the capital it has already
invested to develop the generic drug, and in the
expectation that if it can introduce that generic, it will
receive substantial revenue. Cottrell, 874 F.3d at 168
(“Plaintiffs’ claimed financial harm has already
occurred, it is not merely possible, or even probable.”);

31
see also Lewert v. P.F. Chang’s China Bistro, Inc., 819
F.3d 963, 966-67 (7th Cir. 2016); Maya v. Centex
Corp., 658 F.3d 1060, 1069 (9th Cir. 2011) (“Allegedly,
plaintiffs spent money that, absent defendants’
actions, they would not have spent. … This is a
quintessential injury-in-fact.”).
The sworn declarations provided to the Federal
Circuit are more than sufficient to show that injury.
Based on the evidence submitted, Argentum’s Joint
Venture with its manufacturing partner KVK have
expressly agreed to: (1) “collaborate using their
internal resources to develop and commercialize
pharmaceutical products, including generic drug
products”; (2) “prepare, prosecute and defend IPRs
and litigation under the Hatch-Waxman Act …”; (3)
“share in external costs”; and (4) “share in any
financial benefits.” CAFC-Appeal 18-2209, ECF 44-3
¶7. As a result of the continued enforceability of the
’405 patent, Argentum is and continues to be deprived
of expected revenues from its Joint Venture with
KVK. That must be enough for Article III standing. 12
D.

The Federal Circuit Erred by
Creating A Rule That Distinguishes
Standing on Appeal Between ANDA
and Non-ANDA Filers

The Federal Circuit erroneously held that
Argentum lacks Article III standing because “[n]o
ANDA has been filed here, and Argentum has not
The Federal Circuit’s decision also effectively creates a split in
the exclusive appellate court for patent cases. In the context of
patent pools and expected revenues from licensing
arrangements, the Federal Circuit has found Article III
standing. See, e.g., Samsung Elecs. Co. v. Infobridge Pte. Ltd.,
929 F.3d 1363, 1368 (Fed. Cir. 2019).
12

32
provided evidence showing that it would bear the risk
of any infringement suit.” App. 6a. In particular, the
Federal Circuit held that Argentum cannot have
standing here because “any ANDA to be filed ‘will be
filed by KVK, Argentum’s manufacturing partner.’”
App. 4a-5a. By distinguishing between an ANDA filer
and its joint venture partner, the Federal Circuit
ignores the threat of indirect infringement
allegations.
It is certainly true that filing an ANDA exposes
KVK to direct infringement charges under 35 U.S.C.
§ 271(e)(2)(A). The planned ANDA submission,
however, has been a culmination of a Joint Venture
between Argentum and KVK. Argentum has been
working directly with KVK to develop the fingolimod
generic, and the two entities have been working
together to file the ANDA. Supra §D. The Joint
Venture efforts, therefore, also give rise to an
imminent suit by Novartis against Argentum for
indirect infringement under 35 U.S.C. § 271(b)
predicated on KVK’s ANDA filing. See Forest Labs.,
501 F.3d at 1272 (regarding a joint venture between
Cipla and Ivax, where only one party was the ANDA
filer, finding the inducing partner also liable for
infringement and subject to the injunction, stating
“They are partners. Cipla would be contributing to the
infringement by Ivax, so the injunction should cover
both partners.”).
Given Novartis’s pattern of
enforcing the ’405 patent and seeking injunctions
against all competitors and related entities, a suit
against Argentum and KVK is inevitable. Supra §C.
Argentum’s immediate risk of suit for indirect
infringement by Novartis constitutes an injury-in-fact
sufficient for Article III standing.

33
II.

The Federal Circuit Improperly Rejects
Injury in Fact Based on Statutory IPR
Estoppel

The Federal Circuit’s rejection of statutory
estoppel as a basis for the injury-in-fact requirement
is contrary to the AIA, real-world consequences of a
final written decision in an IPR proceeding, and
precedent on other forms of estoppel forming the basis
for standing. The Federal Circuit’s rejection is
predicated on the notion that a party must show first
that it will be subject to an infringement suit such
that statutory estoppel applies. While statutory
estoppel may apply in the context of an infringement
suit, the Federal Circuit’s rationale ignores that it
also automatically applies to any further proceedings
before the Board. 35 U.S.C. § 315(e)(1). The statutory
estoppel has, therefore, already attached regardless
of whether Argentum is sued for infringement in
district court. It has, in fact, even attached to KVK
and other real parties in interest as well as privies.
Id.
Under similar circumstances, circuits have held
that litigation estoppel can indeed form the basis for
Article III standing on appeal. In AT&T, for instance,
the District of Columbia held that standing was
warranted in view of already operative collateral
estoppel effects. AT&T Corp. v. F.C.C., 317 F.3d 227,
238 (D.C. Cir. 2003). Similarly, Argentum is already
statutorily estopped from raising challenges to the
’405 patent in any future proceedings on the same
grounds or grounds that reasonably could have been
raised. Based on Novartis’s litigation, it is all but a
certainty that the parties will have future litigation
on the ’405 patent—unless, of course, the Board’s
decision is reversed and the patent is found invalid.

34
CONCLUSION
For at least the foregoing reasons, the petition
should be granted.
TERRY STANEK REA
Counsel of Record
DEBORAH YELLIN
ALI H.K. TEHRANI
CROWELL & MORING LLP
1001 Pennsylvania Ave., N.W.
Washington, DC 20004
(202) 624-2500
trea@crowell.com
dyellin@crowell.com
atehrani@crowell.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-2273
————
ARGENTUM PHARMACEUTICALS LLC,
Appellant
v.
NOVARTIS PHARMACEUTICALS CORPORATION,
Appellee
————
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal
Board in Nos. IPR2017-00854, IPR2017-01550,
IPR2017-01929, IPR2017-01946.
Decided: April 23, 2020
————
TERESA STANEK REA, Crowell & Moring, LLP,
Washington, DC, argued for appellant. Also represented by DEBORAH YELLIN.
JANE M. LOVE, Gibson, Dunn & Crutcher LLP, New
York, NY, argued for appellee. Also represented by
ROBERT TRENCHARD.
————
Before LOURIE, MOORE, and REYNA, Circuit Judges.
————

2a
MOORE, Circuit Judge.
On February 3, 2017, Apotex Inc. and Apotex Corp.
(collectively, Apotex) filed a petition for inter partes
review of Novartis Pharmaceuticals Corporation’s
U.S. Patent No. 9,187,405. The Board instituted proceedings on July 18, 2017, and granted Sun Pharmaceutical Industries, Ltd., Sun Pharmaceutical Industries, Inc., and Sun Pharma Global FZE’s (collectively,
Sun); Teva Pharmaceuticals USA, Inc. and Actavis
Elizabeth LLC’s; and Argentum Pharmaceuticals
LLC’s requests for joinder under 35 U.S.C. § 315(c).
After institution, Patent Owner, Novartis, filed a
contingent motion to amend. On July 11, 2018, the
Board concluded that Apotex, Sun, Teva, Actavis, and
Argentum (collectively, Petitioners) had not demonstrated unpatentability of the claims and denied the
motion to amend as moot. Petitioners appealed the
Board’s findings. During the appeal process, all
Petitioners other than Argentum settled their respective appeal with Novartis.1
On August 29, 2018, before opening briefs had been
filed, Novartis filed a motion to dismiss Argentum’s
appeal for lack of standing. Argentum opposed the
motion on September 10, 2018, and included declarations of Jeffrey Gardner, Argentum’s CEO, and
Anthony Tabasso, President and CEO of KVK-Tech,
Inc., Argentum’s manufacturing and marketing partner. We directed Argentum and Novartis to address
Argentum’s standing in their briefs, which they did.
Initially, Argentum argued that we need not reach the
1

Teva, Actavis, and Sun settled before argument and Appeal
Nos. 18-2260 (Teva and Actavis) and 18-2230 (Sun) were dismissed,
respectively. Apotex settled after argument and Appeal No. 182209 was dismissed.

3a
issue of its standing because only one party must have
standing for an action to proceed in an Article III
Court, and “the other seven appellants undisputedly
have standing.” Appellant’s Br. viii. Following the
settlement of all parties other than Argentum,
Novartis submitted a notice of supplemental authority
under Federal Rule of Appellate Procedure 28(j) stating that “now that Argentum is the only appellant,
Article III standing has become a threshold issue” and
that we must assess our “jurisdiction under Article III
of the Constitution before addressing the merits of the
case.” D.I. 131 at 2 (citing Phigenix, Inc. v. Immunogen, Inc., 845 F.3d 1168, 1171 (Fed. Cir. 2017)).2
Because we hold that Argentum lacks Article III
standing, we dismiss the appeal and do not reach the
merits of the Board’s ruling on the claims of the ’405
patent.
DISCUSSION
“Although we have jurisdiction to review final
decisions of the Board under 28 U.S.C. § 1295(a)(4)(A),
an appellant must meet ‘the irreducible constitutional
minimum of standing.’” Amerigen Pharm. Ltd. v. UCB
Pharma GmBH, 913 F.3d 1076, 1082 (Fed. Cir. 2019)
(quoting Lujan v. Defenders of Wildlife, 504 U.S. 555,
560 (1992)). This holds true “even if there is no such
requirement in order to appear before the administrative agency being reviewed.” Id. (citing Consumer
Watchdog v. Wis. Alumni Research Found., 753 F.3d
1258, 1261 (Fed. Cir. 2014)). To prove standing, Argentum bears the burden of showing that it has “(1)
suffered an injury in fact, (2) that is fairly traceable to

2

All citations to the court’s docket are to Apotex Inc. v. Novartis Pharmaceuticals Corp., Appeal No. 2018-2209.

4a
the challenged conduct of the defendant, and (3) that
is likely to be redressed by a favorable judicial
decision.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016). Argentum must “‘supply the requisite proof of
an injury in fact when it seeks review of an agency’s
final action in a federal court,’ by creating a necessary
record in this court, if the record before the Board does
not establish standing.” JTEKT Corp. v. GKN Automotive LTD., 898 F.3d 1217, 1220 (Fed Cir. 2018)
(quoting Phigenix, Inc., 845 F.3d at 1171–72). “To
establish injury in fact, a[n appellant] must show that
he or she suffered ‘an invasion of a legally protected
interest’ that is ‘concrete and particularized’ and
‘actual or imminent, not conjectural or hypothetical.’”
Spokeo, 136 S. Ct. at 1548 (quoting Lujan, 504 U.S. at
560). An injury is particularized if it “affect[s] the
[appellant] in a personal and individual way.” Lujan,
504 U.S. at 560 n.1.
Argentum argues that it demonstrated at least
three concrete injuries in fact. First, Argentum argues
that without an opportunity to seek this Court’s
redress, it faces a real and imminent threat of litigation as it jointly pursues, along with its partner KVKTech, Inc., a generic version of Novartis’ Gilenya®
product for which they are in the process of filing an
ANDA. It argues that given that Novartis already
sued multiple generic companies to protect Gilenya®,
“it is virtually certain that Novartis will sue Argentum
and KVK,” which is “far from conjectural” and
“constitutes an imminent injury for purposes of
standing.” Appellant’s Reply Br. 28.
Novartis argues that any ANDA to be filed for a
generic version of Gilenya® “will be filed by KVK,
Argentum’s manufacturing and marketing partner”
(see D.I. 44-3 (Gardner Dec.) ¶ 11), and thus KVK, not

5a
Argentum is at risk of being sued. And even if the
litigation were personal to Argentum, it would not
confer standing because it is merely conjectural.
Appellee’s Br. 39 (citing AVX Corp. v. Presidio
Components, Inc., 923 F.3d 1357, 1367 (Fed. Cir. 2019)
(concluding that appellant did not “sufficiently allege[]
current or nonspeculative activities of its own that
arguably fall within the scope of the upheld claims” to
amount to harm to it)). It argues that there is no
evidence of “concrete plans for future activity that
creates a substantial risk of future infringement or
[will] likely cause the patentee to assert a claim of
infringement.” Appellee’s Br. 39 (quoting JTEKT
Corp., 898 F.3d at 1221).
Citing our decision in Altaire Pharmaceuticals, Inc.
v. Paragon Bioteck, Inc., Argentum responds that
“showing a concrete injury-in-fact does not necessitate
an already-filed ANDA.” Appellant’s Reply Br. 27
(citing 889 F.3d 1274, 1282–83 (Fed. Cir. 2018),
remand order modified by stipulation, 738 F. App’x
1017 (Fed. Cir. 2018)). Argentum’s contentions are
unavailing. In Altaire, Altaire was the company which
intended to file an ANDA and would be at imminent
risk of being sued. We held that Altaire had standing
because the threat of litigation was “real” and “imminent” and Altaire was affected “in a personal and
individual way.” See Altaire, 889 F.3d at 1282–83; see
also General Electric Co. v. United Techs. Corp., 928
F.3d 1349, 1353–54 (Fed. Cir. 2019) (determining
there was no “concrete and imminent injury to GE,”
and that GE asserted “only speculative harm”). Unlike
in Altaire, according to Mr. Gardner, any ANDA to be
filed “will be filed by KVK, Argentum’s manufacturing
and marketing partner.” D.I. 44-3 (Gardner Dec.) ¶ 11.
And Mr. Gardner stated that “Novartis will inevitably
sue Argentum’s manufacturing and marketing

6a
partner KVK for patent infringement upon KVK’s filing an ANDA for a generic version of GILENYA® . . . .”
Id. ¶ 14; see also id. ¶ 15. No ANDA has been filed
here, and Argentum has not provided evidence showing that it would bear the risk of any infringement suit
or anything related to its involvement in the ANDA
process beyond generic statements. See, e.g., id. ¶ 11.
Second, Argentum argues that it will incur significant economic injury as its investments in developing
a generic version of Gilenya® and preparing an ANDA
would be at risk with a “looming infringement action
by Novartis.” Appellant’s Br. 49. Specifically, it asserts
that it will suffer at least $10–50 million per year in
lost profits once the FDA grants provisional approval
to the ANDA. Appellant’s Reply Br. 28–29 (citing D.I.
44–3 (Gardner Dec.) ¶ 12). Novartis argues that
Argentum’s alleged “economic injury,” which is
entirely speculative and not personal to Argentum,
does not suffice to establish injury in fact because it is
not concrete or particularized.
Argentum has not provided sufficient evidence to
establish an injury in fact through economic harm.
General Electric, 928 F.3d at 1354–55 (rejecting GE’s
economic loss allegation of increased research and
development costs where GE failed to provide details
such as “an accounting for the additional research and
development costs expended” or “evidence that GE
actually designed a [product covered by the upheld
claims]”). Argentum’s or KVK’s purported investments
include KVK’s renovation of manufacturing facilities
that “KVK intends to use . . . to manufacture drugs
developed through its joint collaboration with
Argentum.” D.I. 44–2 (Tabasso Dec) ¶ 4. However, Mr.
Tabasso specifically states that “[t]he generic version
of PAZEO®,” a drug unrelated to the patent at issue,

7a
“will be produced in KVK’s new manufacturing space
which will come online in the next year.” Id. And Mr.
Gardner declared that “Argentum has partnered with
KVK . . . to develop generic versions of multiple generic
drug products” without providing evidence specific to
a generic Gilenya® product. See D.I. 44-3 (Gardner
Dec.) ¶ 4; see also id. ¶ 6.
Argentum likewise has failed to provide sufficient
evidence that it invested in KVK’s generic Gilenya®
product or ANDA. It stated only in generalities that
both “KVK and Argentum have been diligent in
working toward FDA submission of the ANDA” and
that “Argentum has invested significant man-power
and resources to the endeavor.” D.I. 44-3 (Gardner
Dec.) ¶ 11; see also id. ¶ 8 (stating that “[e]xternal costs
are shared by Argentum and KVK on an opportunityby-opportunity basis”); id. ¶ 9 (generally stating that
“[a] number of products are currently being jointly
developed by Argentum and KVK” but listing an
unrelated generic product). And its assertion that it
will suffer at least $10–50 million per year in lost
profits once the FDA grants provisional approval to
the ANDA is both conclusory and speculative. See
Appellant’s Reply Br. 28 (citing D.I. 44-3 (Gardner
Dec.) ¶ 12). This cannot suffice to establish an injury
in fact that is “‘concrete and particularized’ and ‘actual
or imminent, not conjectural or hypothetical.’” Spokeo,
136 S. Ct. at 1548 (quoting Lujan, 504 U.S. at 560).
Third, Argentum argues that absent relief from this
court, Argentum would be estopped under 35 U.S.C.
§ 315(e) from raising the patentability and validity
issues in a future infringement action. Novartis
argues that Argentum has not shown that it will be
harmed by estoppel where it has not established there
is risk of an infringement suit. Appellee’s Br. 42–43

8a
(citing JTEKT Corp., 898 F.3d at 1221). As the court
stated in AVX, “we have already rejected invocation of
the estoppel provision as a sufficient basis for standing.” 923 F.3d at 1362–63 (citing Phigenix, 845 F.3d at
1175–76 (“§ 315(e) do[es] not constitute an injury in
fact when, as here, the appellant is not engaged in any
activity that would give rise to a possible infringement
suit.”) (alteration in original) (internal quotations
omitted)); see also JTEKT, 898 F.3d at 1221; General
Electric, 928 F.3d at 1355. Accordingly, we hold that
Argentum has failed to prove that it has suffered an
injury in fact necessary to establish standing.
CONCLUSION
We have considered the parties’ remaining arguments and do not find them persuasive. Because
Argentum failed to establish an injury sufficient to
confer Article III standing, we dismiss the appeal.
DISMISSED
COSTS
Costs to Novartis.

9a
APPENDIX B
NOTE: This order is nonprecedential
————
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-2273
————
ARGENTUM PHARMACEUTICALS LLC,
Appellant
v.
NOVARTIS PHARMACEUTICALS CORPORATION,
Appellee
————
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2017-00854, IPR2017-01550, IPR201701929, IPR2017-01946.
————
ON PETITION FOR REHEARING EN BANC
————
Before PROST, Chief Judge,
NEWMAN, LOURIE, DYK, MOORE, O’MALLEY,
REYNA, WALLACH, TARANTO, CHEN, HUGHES,
and STOLL, Circuit Judges
PER CURIAM.
————
ORDER
————

10a
Appellant Argentum Pharmaceuticals LLC filed a
petition for rehearing en banc. The petition was first
referred as a petition for rehearing to the panel that
heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 16, 2020.
FOR THE COURT
July 9, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

11a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
2018-2273
————
ARGENTUM PHARMACEUTICALS LLC,
Appellant
v.
NOVARTIS PHARMACEUTICALS CORPORATION,
Appellee
————
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board
in Nos. IPR2017-00854, IPR2017-01550,
IPR2017-01946, IPR2017-01929.
————
JUDGMENT
————
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
DISMISSED
ENTERED BY ORDER OF THE COURT
April 23, 2020

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

12a
APPENDIX D
Trials@uspto.gov
Tel: 571-272-7822

Paper: 109
Entered: July 11, 2018

UNITED STATES PATENT AND
TRADEMARK OFFICE
————
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
————
Case IPR2017-008541
Patent US 9,187,405 B2
————
APOTEX INC. and APOTEX CORP.,
ARGENTUM PHARMACEUTICALS LLC,
ACTAVIS ELIZABETH LLC, TEVA PHARMACEUTICALS
USA, INC., SUN PHARMACEUTICAL INDUSTRIES, LTD.,
SUN PHARMACEUTICAL INDUSTRIES, INC., and
SUN PHARMA GLOBAL FZE,
Petitioners,
v.
NOVARTIS AG,
Patent Owner.
————
Before CHRISTOPHER M. KAISER, ROBERT A. POLLOCK,
and KRISTI L. R. SAWERT,2
Administrative Patent Judges.
POLLOCK, Administrative Patent Judge.
1

Cases IPR2017-01550, IPR2017-01946, and IPR2017-01929
have been joined with this proceeding.
2

Replacing Judge Lora M. Green, who has left the Board.

13a
FINAL WRITTEN DECISION
Claims 1–6 Not Shown to Be Unpatentable
35 U.S.C. § 318(a); 37 C.F.R. § 42.73
————
I. INTRODUCTION
This is a Final Written Decision in an inter partes
review challenging the patentability of claims 1–6 of
U.S. Patent No. US 9,187,405 B2 (Ex. 1001, “the ’405
patent”). We have jurisdiction under 35 U.S.C. § 6.
For the reasons that follow, we determine that
Petitioners have failed to show, by a preponderance of
the evidence, that claims 1–6 of the ’405 patent are
unpatentable.
A. Procedural History
Apotex Inc. and Apotex Corp. (“Apotex”) filed a
Petition requesting an inter partes review of claims 1–
6 the ’405 patent. Paper 2 (“Pet.”). Novartis AG3
(“Novartis”), filed a Preliminary Response to the
Petition. Paper 8 (“Prelim. Resp.”). We instituted inter
partes review of each of the challenged claims. Paper
11, 27 (“Dec.”).
Three parties filed Petitions substantially the same
as Apotex’s Petition along with requests for joinder: 1)
Argentum Pharmaceuticals LLC (“Argentum”) (IPR
2017-01550, Papers 1 and 3); 2) Actavis Elizabeth LLC
and Teva Pharmaceuticals USA, Inc. (collectively,
“Teva”) (IPR2017-01946, Papers 2 and 3); and 3) Sun
3

According to Patent Owner, “Novartis AG has assigned its
rights in U.S. Patent 9,187,405 to Novartis Pharmaceuticals
Corporation (see Assignment at Reel 043314/Frame 0800). The
real party in interest is Novartis Pharmaceuticals Corporation.
Novartis AG and other Novartis subsidiaries may also have an
interest.” Paper 22.

14a
Pharmaceutical Industries, Ltd., Sun Pharmaceutical
Industries, Inc., and Sun Pharma Global FZE (collectively, “Sun”) (IPR2017-01929, Papers 2 and 3). We
granted each Petition and associated requests for
joinder to IPR2017-00854. See IPR2017-01550, Paper
10; IPR2017-01946, Paper 9; IPR2017-01929, Paper 7,
respectively. Because our grants of joinder were conditioned on Apotex taking the lead role in the joined
proceeding, we refer to Apotex, Argentum, Teva, and
Sun, collectively, as “Petitioners.”
After institution of trial and our grants of joinder,
Patent Owner filed a Patent Owner Response (Paper
26, “PO Resp.”); Petitioners filed a responsive Reply
(Paper 49, “Pet. Reply”); and Patent Owner filed an
authorized Sur-Reply (Paper 63, “PO Sur-Reply”).
Patent Owner also filed a Corrected Contingent
Motion to Amend. Paper 61. Petitioners opposed (Paper
51), and Patent Owner responded with a Reply in support of its motion (Paper 64).
Petitioners rely on the declaration of Dr. Barbara S.
Giesser (Ex. 1002), first submitted with Apotex’s Petition, and on the later-submitted Reply Declaration of
Leslie Z. Benet, Ph.D. (Ex. 1047).
Patent Owner relies on the declarations of Fred D.
Lublin, M.D. (Exs. 2003, 2025, 2107, 2097), William J.
Jusko, Ph.D. (Exs. 2005, 2024, 2095), Lawrence
Steinman, M.D. (Exs. 2022, 2096), and Jerold Chun,
M.D., Ph.D, (Ex. 2098). Patent Owner further relies on
the declaration of named inventor Christian Schnell.
Ex. 2026.
Petitioners filed motions for observations on depositions of Drs. Lublin, Jusko, Steinman, and Chun
(Papers 77, 79, 76, and 78, respectively); Patent Owner

15a
filed responses to each of those motions (Papers 90, 93,
91, 92, respectively).
We heard oral argument on May 11, 2018. A transcript of that proceeding is entered as Paper 108
(“Tr.”).
The parties filed the following motions. Petitioners
filed a motion to exclude evidence (Paper 82); Patent
Owner opposed (Paper 89); and Petitioners submitted
a reply in support of its first motion to exclude (Paper
98). Patent Owner filed a first motion to exclude
evidence (Paper 80); Petitioners opposed (Paper 94);
and Patent Owner submitted a reply in support of its
first motion to exclude (Paper 97). Patent Owner filed
a supplemental motion to exclude evidence (Paper
102); Petitioners opposed (Paper 101); and Patent
Owner submitted a reply in support of its supplemental motion to exclude (Paper 103). The parties
have also filed six motions to seal. (Papers 36, 50, 83,
99 (by Petitioners); Papers 29, 37 (by Patent Owner)).
B. Related Proceedings
According to Patent Owner, there are no other
judicial or administrative matters that would affect, or
be affected by, a decision in this proceeding. Paper 4,
2. Petitioners note that in IPR2014-00784, the Board
issued a Final Written Decision relating to U.S. Patent
No. 8,324,283 B2, and that “[a]lthough not from the
same patent family as the ’405 patent, the ’283 patent
included claims to pharmaceutical compositions of
fingolimod, or a pharmaceutically acceptable salt
thereof, that is suitable for oral administration, as well
as claims directed to the treatment of multiple
sclerosis using S1P receptor agonists.” Pet. 20; see id.
at 13–14; Paper 49, 7. We are not persuaded, however,

16a
that the Board’s prior decision with respect to the ’283
patent is probative of the instant proceeding.
C. The ’405 Patent and Relevant Background
The ’405 patent, titled “S1P Receptor Modulators for
Treating Relapsing-Remitting Multiple Sclerosis,”
issued to Peter C. Hiestand and Christian Schnell
from U.S. Application No. 14/257,342 (“the ’342 application”), filed April 21, 2014. Ex. 1001, at [21], [60],
[71], [72]. The ’342 application is a divisional of Application No. 13/149,468 (“the ’468 application”) (now
U.S. Pat. No. 8,741,963). Id. at [60]. The ’468 application, in turn, is a continuation of Application No.
12/303,765 (“the ’765 application.”), which is the U.S.
entry of PCT/EP2007/005597, filed June 25, 2007. Id.;
Ex. 1009, 21, 40. PCT/EP2007/005597 claims priority
to foreign application GB0612721.1 (Ex. 1012), filed on
June 27, 2006. Ex. 1001, at [30]; see Ex. 1009, 57–58.
The instant “invention relates to the use of an S1P4
receptor modulator in the treatment or prevention of
neo-angiogenesis associated with a demyelinating
disease, e.g. multiple sclerosis.” Ex. 1001, 1:5-8.
“Characteristic pathological features of demyelinating
diseases include inflammation, demyelination and
axonal and oligodendrocyte loss. In addition[,] lesions
can also have a significant vascular component. A firm
link has recently been established between chronic
inflammation and angiogenesis and neovascularization seems to have a significant role in the progression
of disease.” Id. at 9:6–12. According to the inventors,
“[i]t has now been found that S1P receptor modulators
have an inhibitory effect on neo-angiogenesis associ-

4

S1P refers to sphingosine-1 phosphate, a natural serum
lipid. Ex. 1001, 1:13–14.

17a
ated with demyelinating diseases, e.g. MS.” Id. at
9:13–15.
“Multiple sclerosis (MS) is an immune-mediated
disease of the central nervous system with chronic
inflammatory demyelination leading to progressive
decline of motor and sensory functions and permanent
disability.” Ex. 1001, 8:61–64. The inventors state that
S1P receptor agonists or modulators may be useful in
the treatment of MS, including the RelapsingRemitting form (RR-MS), which accounts for 85% of
patients’ initial experience with the disease and is
the precursor to the more debilitating SecondaryProgressive form (SPMS). Id. at 9:64–10:21; see also
id. at 10:3–5 (noting that within 10 years of onset
about half of RR-MS patients will develop SPMS); Ex.
1005,5 159–60, Fig. 1 (discussing the pathophysiology,
classification, and clinical course of MS).
“S1P receptor agonists or modulators are known
as having immunosuppressive properties or antiangiogenic properties in the treatment of tumors . . . .”
Ex. 1001, 8:56–60. Preferred compounds stimulate
lymphocyte homing, thereby “elicit[ing] a lymphopenia resulting from a redistribution, preferably reversible, of lymphocytes from circulation to secondary
lymphatic tissue, without evoking a generalized immunosuppression.” Id. at 2:17–23. “A particularly preferred S1P receptor agonist . . . is FTY720, i.e., 2amino-2-[2-(4-octyphenyl)ethyl] propane-1, 3-diol . . . .”
Id. at 8:17–30. This compound, also known as fingolimod, is the active ingredient in Novartis’s Gilenya

5

Thomson, “FTY720 in Multiple Sclerosis: The Emerging
Evidence of its Therapeutic Value,” 1(3) CORE EVIDENCE 157-167
(2006). Ex. 1005.

18a
product (fingolimod hydrochloride) approved for the
treatment of RR-MS. See Ex. 2040, 11; Ex. 2024 ¶ 38.
D. The Challenged Claims
Illustrative claim 3 recites (paragraphing added):
3. A method for treating Relapsing-Remitting
multiple sclerosis in a subject in need thereof, comprising
orally administering to said subject 2-amino-2[2-(4-octylphenyl)ethyl]propane-1, 3-diol, in
free form or in a pharmaceutically acceptable salt form,
at a daily dosage of 0.5 mg,
absent an immediately preceding loading
dose regimen.
The remaining independent claims differ only in the
language of the preamble, such that the “treating”
language of claim 3 is replaced with “reducing or preventing or alleviating relapses” (claim 1) or “slowing
progression” of RR-MS (claim 5).
Depending from claims 1, 3, and 5, respectively,
claims 2, 4, and 6 specify that the 2-amino-2-[2-(4octylphenyl)ethyl]propane-1, 3-diol is the hydrochloride salt form—i.e., fingolimod hydrochloride.
E. Grounds of Unpatentability
We instituted trial to review the patentability of the
challenged claims on each of the three grounds
asserted in the Petition:

19a
Ground Claims References

Basis

1

1–6

Kovarik6 and Thomson7

2

1–6

Chiba,8 Kappos 2005,9 and § 103
Budde10

3

1–6

Kappos 201011

§ 103

§ 102

Paper 11, 27.
II. ANALYSIS
A. Legal Principles
To anticipate a claim under 35 U.S.C. § 102,12 “a
single prior art reference must expressly or inherently

6

Kovarik and Appel-Dingemanse, WO 2006/058316, published June 1, 2006. Ex. 1004. (“Kovarik”).
7

Thomson, “FTY720 in Multiple Sclerosis: The Emerging
Evidence of its Therapeutic Value,” 1(3) Core Evidence 157-167
(2006). Ex. 1005. (“Thomson”).
8

Chiba et al., US 6,004,565, issued Dec. 21, 1999. Ex. 1006.
(“Chiba”).
9

Kappos et al., “FTY720 in Relapsing MS: Results of a DoubleBlind Placebo-Controlled Trial with a Novel Oral Immunomodulator,” 252 (Suppl 2) J. Neurology Abstract O141 (2005). Ex.
1007. (“Kappos 2005”).
10

Budde, et al., “First Human Trial of FTY720, a Novel
Immunomodulator, in Stable Renal Transplant Patients,” 13 J.
Am. Soc. Nephrology 1073-1083 (2002). Ex. 1008. (“Budde”).
11

Kappos et al., “A Placebo-Controlled Trial of Oral Fingolimod in Relapsing Multiple Sclerosis,” 362(5) N. Engl. J. Med.
387–401 (2010). Ex. 1038. (“Kappos 2010”).
12

The Leahy-Smith America Invents Act, Pub. L. No. 112-29,
125 Stat. 284 (2011) (“AIA”), amended 35 U.S.C. §§ 102 and 103.
Because the challenged claims of the ’405 patent have an effective
filing date before the effective date of the applicable AIA

20a
disclose each claim limitation.” Finisar Corp. v.
DirecTV Group, Inc., 523 F.3d 1323, 1334 (Fed. Cir.
2008). That “single reference must describe the
claimed invention with sufficient precision and detail
to establish that the subject matter existed in the prior
art.” Verve, LLC v. Crane Cams, Inc., 311 F.3d 1116,
1120 (Fed. Cir. 2002).
A claim is unpatentable under 35 U.S.C. § 103(a) if
the differences between the subject matter sought to
be patented and the prior art are such that the subject
matter as a whole would have been obvious at the time
the invention was made to a person having ordinary
skill in the art to which that subject matter pertains.
KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007).
The question of obviousness is resolved on the basis of
underlying factual determinations including: (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of ordinary skill in the art; and (4)
objective evidence of non-obviousness. Graham v.
John Deere Co., 383 U.S. 1, 17–18 (1966).
A precise teaching directed to the specific subject
matter of a challenged claim is not necessary to
establish obviousness. KSR, 550 U.S. at 418. Rather,
“any need or problem known in the field of endeavor at
the time of invention and addressed by the patent can
provide a reason for combining the elements in the
manner claimed.” Id. at 420. Accordingly, a party that
petitions the Board for a determination of unpatentability based on obviousness must show that “a skilled
artisan would have been motivated to combine the
teachings of the prior art references to achieve the
amendments, throughout this Final Written Decision we refer to
the pre-AIA versions of 35 U.S.C. §§ 102 and 103.

21a
claimed invention, and that the skilled artisan would
have had a reasonable expectation of success in
doing so.” In re Magnum Oil Tools Int’l, Ltd., 829 F.3d
1364, 1381 (Fed. Cir. 2016) (internal quotations and
citations omitted); see also Belden Inc. v. Berk–Tek
LLC, 805 F.3d 1064, 1073 (Fed. Cir. 2015) (“[O]bviousness concerns whether a skilled artisan not only could
have made but would have been motivated to make the
combinations or modifications of prior art to arrive at
the claimed invention.”).
B. Person of Ordinary Skill in the Art
Petitioners propose that a person of ordinary skill in
the art as of the date of the invention
would typically include a person with a
medical degree (M.D.) and several years
of experience treating multiple sclerosis
patients. . . . would be familiar with administering therapeutic agents for the treatment
of multiple sclerosis, including RR-MS, and
dosing regimens of the various therapeutic
agents available for treating RR-MS. . . . [and]
would be knowledgeable about the multiple
sclerosis medical literature available at the
relevant time.
Pet. 18–19 (citing Ex. 1002 ¶¶ 39–40). Petitioners’
proposal is consistent with the definition offered
during prosecution that, “[t]he relative skill of those in
the art is high, generally that of an M.D. or Ph.D. with
expertise in the area of neurology.” Ex. 1009, 13. We
further note, in focusing on the MS disease state and
the conduct of a prophetic clinical trial of fingolimod
(“Compound A”) in treating RR-MS, the Specification
suggests that one of ordinary skill in the art would
possess a medical or related doctoral degree and have

22a
experience in the field of MS treatment and clinical
research. See, e.g., Ex. 1001, 8:61–9:12, 9:64–10:16,
11:4–12:13.
In the Preliminary Response, Patent Owner argues
that Apotex’s proposed definition “is plainly incorrect”
because “a person of skill in other dosing patent cases
almost always includes a pharmacologist,” the ’405
Patent and relevant references include pharmacologists as “essential contributing authors,” and “[p]harmacologists would have to interpret that data before
reaching any conclusions about the obviousness of a
0.5 mg daily dose.” Prelim. Resp. 39–43.
In our Decision instituting trial, we agreed with
Patent Owner that in the context of this proceeding,
expertise in pharmacology would be useful in determining obviousness. Dec. 8. We further noted that it
was not necessary to decide between the hypothetical
medical doctor proposed by Petitioners and the
pharmacologist proposed by Patent Owner, as courts
and tribunals have frequently identified the hypothetical person of ordinary skill as a composite or team of
individuals with complementary backgrounds and
skills. Dec. 8–9 (citing AstraZeneca Pharm. LP v.
Anchen Pharm., Inc., No. 10-CV-1835 JAP TJB, 2012
WL 1065458, at *19, *22 (D.N.J. Mar. 29, 2012), aff’d,
498 F. App’x 999 (Fed. Cir. 2013) (collecting cases);
Helsinn Healthcare S.A. v. Dr. Reddy’s Labs. Ltd., No.
CV 11-3962 (MLC), 2016 WL 832089, at *72 (D.N.J.
Mar. 3, 2016) (reversed on other grounds by Helsinn
Healthcare S.A. v. Teva Pharm. USA, Inc., 855 F.3d
1356 (Fed. Cir. 2017), cert. granted, — S. Ct. —, 2018
WL 1142984 (June 25, 2018)); Merial, Inc. v.
Fidopharm Inc., IPR2016-01182, Paper 11 at 9 (PTAB
Nov. 7, 2016)).

23a
Accordingly, we determined that one of ordinary
skill in the art could be part of a multi-disciplinary
research team including 1) a Ph.D. with expertise in
the area of neurology and/or an M.D. having several
years of clinical experience treating multiple sclerosis
patients, and who would be knowledgeable about the
multiple sclerosis medical literature, and 2) a
pharmacologist with experience in drug development.
Id. at 9.
Neither party argues that this determination is
incorrect. Nor, upon consideration of the complete
record, do we find reason to modify our prior determination.
C. Claim Construction
In an inter partes review, claim terms in an unexpired patent are interpreted according to their broadest reasonable construction in light of the specification
of the patent in which they appear. 37 C.F.R.
§ 42.100(b); Cuozzo Speed Techs., LLC v. Lee, 136 S.
Ct. 2131, 2144–46 (2016) (upholding the use of the
broadest reasonable interpretation standard). “Under
a broadest reasonable interpretation, words of the
claim must be given their plain meaning, unless such
meaning is inconsistent with the specification and
prosecution history.” Trivascular, Inc. v. Samuels, 812
F.3d 1056, 1062 (Fed. Cir. 2016). Any special definition for a claim term must be set forth in the specification with reasonable clarity, deliberateness, and precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir.
1994).
i. Whether the Preambles are Limiting
The preambles of the independent claims recite
methods for “reducing or preventing or alleviating
relapses in” (claim 1), “treating” (claim 3), and

24a
“slowing progression of” (claim 5) RR-MS “in a subject
in need thereof.” This “subject in need thereof” is then
reflected in the body of each claim as it recites the step
of orally administering fingolimod “to said subject.”
Petitioners argue that the preambles of the independent claims should be accorded no patentable
weight as they “at most merely describe[] the intended
purpose of the method and that the subject receiving
fingolimod is a subject with RR-MS.” Pet. 24–25; Ex.
1002 ¶¶ 43–45. As we understand the argument,
Petitioners propose that “said subject” is any subject
with RR-MS, as such persons inherently are, or will
be, “in need of a treatment that reduces, prevents or
alleviates relapses and slows the progression of RRMS.” Id. at 22–23; Ex. 1002 ¶¶ 43–45. Thus, Petitioners argue, the preambles “are not required to breathe
life into the claim[s].” Id. at 24.
Petitioners’ argument, however, conflates the etiology and progression of multiple sclerosis with the
plain language of the claims. Thus, for example,
Petitioners may be correct that because patients
accrue neurologic disability with each relapse episode,
“an RR-MS patient is in need of a treatment that
reduces, prevents or alleviates relapses and slows the
progression of RR-MS,” depending on that patient’s
disease state. See Pet. 23. But “[i]n the absence of any
evidence to the contrary, we must presume that the
use of these different terms in the claims connotes
different meanings.” CAE Screen Plates, Inc. v.
Heinrich Fiedler GMBH & Co. KG, 224 F.3d 1308,
1317 (Fed. Cir. 2000). In the present case, Petitioners
do not direct us to sufficient evidence that “reduc[ing],
prevent[ing] or alleviat[ing] relapses,” as set forth
in claim 1, is necessarily the same as the arguably
broader language, “treating,” recited in claim 3.

25a
In contrast to Petitioners’ position, Patent Owner
contends that the preambles of independent claims 1,
3, and 5, limit the scope of the challenged claims, and
are necessary to provide understanding to what the
inventors actually invented. Prelim Resp. 29–35.
Relying on the testimony of its expert, Dr. Lublin,
Patent Owner presents evidence that “a person of skill
would not understand reducing relapses, treating the
disease, and slowing its progression to mean the same
thing.” Id. at. 32–33 (citing Ex. 2003 ¶¶ 5–7, 43–55).
As noted above, we do not ascertain where, on this
record, Petitioners or Petitioners’ experts argue or present evidence that these three terms are synonymous.
Patent Owner also points out that failing to accord
meaning to the differences in the preambles “would
eliminate any differences among claims 1–2, 3–4, and
5–6.” Id. at 30–31. On balance, we agree with Patent
Owner that the presumption against claim redundancy weighs against Petitioners’ proposed construction.
We also find persuasive Patent Owner’s argument
that the words in the preambles inform the scope of
“said subject” in the body of each claim. Prelim. Resp.
29–35. In particular, the preambles of claims 1, 3 and
5:
provide[] an antecedent basis for terms used
in the body of each claim, specifying the needs
of the “subject” alluded to later. This is a
classic example of the preamble defining a
term—the “subject in need” of certain
effects—which then is subsequently used in
the body of the claim—“to said subject.”
Id. at 34.

26a
Because the three preamble terms, “reducing or
preventing or alleviating relapses in” (claim 1), “treating” (claim 3), and “slowing progression of” (claim 5)
RR-MS have different meanings, and each informs the
scope of the “subject” in the body of the claims, we
concluded that the preambles give life and meaning to
the balance of the claim. See Pitney Bowes Inc. v.
Hewlett-Packard Co., 182 F.3d 1298, 1305 (Fed. Cir.
1999). Accordingly, we construed the preambles of
claims 1, 3, and 5 as limiting, and accord the ordinary
and customary meaning to the claim language “reducing or preventing or alleviating relapses in,”
“treating,” and “slowing progression of” RR-MS “in a
subject in need thereof.” Dec. 12. We further construed
the terms “reducing or preventing or alleviating
relapses” and “slowing progression” as subsumed
within the genus of “treating” RR-MS.13 Id. Upon
consideration of the complete record, we find no reason
to modify our construction.
ii. Whether the Preambles Invoke an Efficacy Element
The parties do not appear to argue that our construction of the preambles is incorrect, but disagree as
to whether they invoke an efficacy element. According
to Patent Owner, we should construe the claims to
require that administering 0.5 mg fingolimod daily
provides the effects recited in the preambles or, in the
alternative, require that the drug “be given for the
‘intentional purpose for which the method must be
performed.’” PO Reply 9; Sur-Reply 3–4 (quoting
Janssen v. Rexall Sundown, Inc., 342 F. 3d 1329, 1333
(Fed. Cir. 2003)); Ex. 2095 ¶¶ 9–17. Petitioners, by
13

Unless specifically indicated otherwise, we refer herein to
the more generic “treating” as a matter of convenience.

27a
contrast, contend that the preambles do not create an
efficacy requirement but merely inform the scope of
“said subject” in the body of the claims, or “describe
the intended purpose of the method.” Pet. 24–25; Pet.
Reply 7–8 (citing In re Montgomery, 677 F.3d, 1375,
1380 (Fed. Cir. 2012)); Opp. 5–6.
Consistent with our determination in section
II(C)(i), above, administration of fingolimod to “said
subject” in the claim body clearly refers to “a subject
in need” of treatment of RR-MS in the preambles.
Accordingly, at a minimum, we agree with Patent
Owner that the claims require that the 0.5 mg daily
dosage of fingolimod is given for the purpose of treating RR-MS. Although an understanding that the
claims refer to the administration of fingolimod for the
purpose of treating RR-MS provides context for understanding Grounds 1–3, counsel for Patent Owner
points out that whether the preambles further
demand that the orally administered dosage is
efficacious is “more important for the motion to
amend.” Tr. 45:5–10. We agree with Patent Owner.
And, as we do not reach the substance of Patent
Owner’s motion to amend (see section II(A), below), we
need not further construe the preambles. See
Wellman, Inc. v. Eastman Chem. Co., 642 F.3d 1355,
1361 (Fed. Cir. 2011) (“[C]laim terms need only be
construed ‘to the extent necessary to resolve the
controversy.’” (quoting Vivid Techs., Inc. v. Am. Sci. &
Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999))).
iii. Daily Dosage
Illustrative claim 3 recites a method for treating RRMS in a subject comprising “orally administering to
said subject [fingolimod] . . . at a daily dosage of 0.5
mg.” The parties disagree as to whether “daily dosage”

28a
requires administration over a course of treatment for
more than one day.
Relying on the testimony of Dr. Benet, Petitioners
argue that “the broadest reasonable construction of a
‘daily dosage of 0.5 mg’ includes a total dose of 0.5 mg
in 24 hours regardless of what unit doses are used or
whether the same dose is repeated on consecutive
days.” Pet. Reply 8–9 (citing Ex. 1047 ¶¶ 107–116).
According to Patent Owner, considered in context,
“‘daily’ does not mean ‘once.’ It means 0.5 mg per day
for more than one day . . . . [because] therapies like
fingolimod require continuous administration to be
effective. Giving the drug only once would be meaningless.” PO Sur-Reply 3–4. As Dr. Steinman explains,
“[a] person of skill with any familiarity with RRMS or
disease-modifying therapies like fingolimod would
understand that these [disease modifying therapies]
are never proposed as a single-dose cure, but are
always envisioned to be taken on a regular basis over
an extended period.” Ex. 2089 ¶ 22; see Ex. 2024 ¶ 114.
Thus, “[a] skilled person would understand ‘daily
dosage’ to refer to once a day for a number of days.”
Ex. 2096 ¶ 21; see also id. (further noting that “[a]
single, one-time dose can be referred to by the phrase
‘a dosage’ and the word ‘daily’ is not needed.”).
Consistent with Dr. Steinman’s testimony, the
Specification states that “[d]aily dosages required in
practicing the method of the present invention . . . will
vary depending upon, for example, the compound
used, the host, the mode of administration and the
severity of the condition treated . . . . [and] may alternatively be administered intermittently, e.g., at a dose
of 0.5 to 30 mg every other day or once a week.” Ex.
1001, 11:20–38; see Ex. 2089 ¶ 23. Accordingly, the
Specification presents intermittent dosing (i.e., not

29a
every day) as an alternative to daily dosing and, in so
doing, indicates that either regimen entails administration for more than one day.
As an initial matter, we credit Dr. Benet’s testimony
that a daily dosage need not be administered as a
single unit dose and, thus, refers to the total dose
administered in 24 hours. See Ex. 1047 ¶¶ 110–111;
Ex. 1001, 11:24–25 (“daily dosage” includes “as a
single dose or in divided doses”). On balance, however,
we find that Patent Owner has the better position with
respect to the length of treatment implicit in the claim
term. The ’405 Patent is directed to the treatment of a
chronic and progressively debilitating disease. See Ex.
1001, 8:61–9:5, 9:64-10:5; Ex. 1005, 159; see generally
Ex. 1023, 193–202.14 As Dr. Steinman indicates, such
patients are in need of treatment “on a regular basis
over an extended period of time.” Ex. 2089 ¶ 22. This
is consistent with our reading of the Specification as
disclosing daily or intermittent treatment for more
than one day. See Ex. 1001, 11:20– 38; see Ex. 2089 ¶
23.
Moreover, with respect to Petitioners’ argument in
their Reply brief that the claim language is broad
enough to encompass both single administration and
administration on consecutive days (see Pet. Reply 8–
9), we conclude that, in the context of the ’405 patent,
Petitioners’ proposed definition renders the word
“daily” superfluous. Accordingly, we construe “daily
dosage of 0.5 mg” as referring to the amount of

14

MCALPINE’S MULTIPLE SCLEROSIS, 4th Ed., Compston, ed.
(Elsevier, Inc., December 2005).

30a
fingolimod administered per day over the course of a
multi-day treatment.15
D. Ground I: Obviousness in view of Kovarik
and Thomson
Petitioners challenge claims 1–6 under 35 U.S.C. §
103 as obvious in view of Kovarik and Thomson. Pet.
21, 32–48. Patent Owner opposes. We begin with an
overview of the asserted references.
i. Overview of Kovarik
Kovarik relates to an improved loading dosage
regimen of S1P receptor modulators or agonists for the
treatment of transplant patients suffering from
autoimmune diseases or disorders, including multiple
sclerosis. Ex. 1004, 1, 14. Preferred S1P receptor
modulators or agonists “elicit a lymphopenia resulting
from a re-distribution, preferably reversible, of
lymphocytes from circulation to secondary lymphatic
tissue, without evoking a generalized immunosuppression.” Id. at 2. In a particularly preferred embodiment, the S1P receptor agonist is FTY720 (i.e.,
fingolimod). Id. at 13.
Kovarik teaches that S1P receptor modulators or
agonists are used in combination with cyclosporine A
and everolimus in transplantation experiments and
“[d]ue to their immune-modulating potency . . . are
also useful for the treatment of inflammatory and
autoimmune diseases.” Id. at 1. According to Kovarik,
“[i]t has now surprisingly been found that a specific
dosage regimen, e.g. a loading dose, will provide
15

Although our construction of “daily dosage” is helpful to
understanding the claims as a whole, our determination with
respect to Petitioners’ obviousness grounds would be the same
under either construction.

31a
further unexpected benefits.” Id. In particular, an
“S1P receptor modulator or agonist . . . is administered
in such a way that during the initial 3 to 6 days . . . of
treatment the dosage of said S1P receptor modulator
or agonist is raised so that in total the R-fold (R being
the accumulation factor) standard daily dosage of said
S1P receptor modulator or agonist is administered
and thereafter the treatment is continued with the
standard or a lower daily dosage . . . .” Id. at 13–14.
“[T]he standard daily dosage (also called maintenance
dose) refers to the dosage of an S1P receptor modulator
or agonist necessary for a steady-state trough blood
level of the medication or its active metabolite(s)
providing effective treatment.” Id. at 14.
According to Kovarik:
A particularly preferred dosage of . . . the
preferred S1P receptor modulator FTY720, is
e.g. 2-5, 5-10, 10-15 and 15-20 mg, e.g. a
regimen of 2.5mg/5mg/7.5mg/10mg or 5mg/
10mg/15mg/20mg, respectively, during the
initial period of 4 days. Thereafter the treatment is continued with the maintenance
therapy, e.g. a daily dosage of 2.5 mg or 5 mg,
or at a lower daily dosage, e.g. 0.1 to 0, 5 [sic]
mg.
In a further embodiment of the invention, a
preferred loading regimen of . . . the preferred
S1P receptor modulator FTY720, may also be
e.g. 0.5mg/1 mg/1.5mg/2mg during the initial
period of 4 days. Thereafter the treatment is
continued with the maintenance therapy, e.g.
a daily dosage of 0,5 [sic] mg.

32a
Id. at 15. Kovarik further discloses: “A method for
treating an autoimmune disease in a subject in need
thereof, comprising administering to the subject, after
a loading regimen, a daily dosage of FTY720 of about
0.1 to 0.5mg.” Id. at 17.
16

ii. Overview of Thomson
Thomson teaches that “[fingolimod] elicits lymphocyte sequestration by facilitating a reversible redistribution of lymphocytes from the circulation to secondary lymphoid tissues. This is a unique immunomodulation mechanism whereby T lymphocytes are
effectively directed away from inflammatory sites
toward the lymphatic system.” Ex. 1005, 162; see also
id. at Abstract (“There is good evidence that FTY720
achieves immunomodulation as shown by a reversible
redistribution of peripheral blood lymphocytes after
oral administration.”). According to Thomson:
FTY720 has shown promising results in preclinical models of EAE, which in part has led
to its clinical evaluation in multiple sclerosis.
There is moderate evidence from two meeting
abstracts of a phase II study that FTY720
(administered orally once daily for up to 12
months) improved the patient-oriented outcomes of relapse rate and the likelihood of

16

In our Decision instituting inter partes review, we interpreted these passages in Kovarik as teaching the administration
of a nominal loading dose of 0.5 mg of fingolimod followed by
“maintenance therapy” at the same daily dose. Dec. 18 (citing Ex.
1004, 15). For the reasons set forth on pages 50–51 of the Patent
Owner Response, we are persuaded that Patent Owner sufficiently establishes that Kovarik does not teach the administration of a nominal loading dose of 0.5 mg of fingolimod followed by
“maintenance therapy” at the same daily dose.

33a
remaining relapse-free. In addition, there is
moderate evidence that disease-oriented outcomes were also improved by FTY720 in that
inflammatory disease activity (both new and
existing) was reduced as determined by MRI.
Id. at 166–167.
In reviewing the emerging clinical evidence for
fingolimod as a treatment for multiple sclerosis,
Thomson reports that “[t]wo meeting abstracts have
been published showing results obtained with FTY720
in a 12-month phase II clinical trial in patients with
active relapsing multiple sclerosis.” Ex. 1005,
Abstract. These publications disclosed the benefits of
fingolimod as compared to placebo at doses of 1.25 and
5 mg per day.17 See id. at 164–65, Table 4.
Thomson also reviews a number of shorter-term
clinical trials relating to pharmacodynamic and pharmacokinetic outcomes of fingolimod administration.
Id. at 162–164, Table 3. With respect to one multi-dose
study, Thomson notes that “[p]eripheral blood lymphocyte counts decreased from baseline to nadir (range 3–
7 d after first dose) by 80 and 88% in subjects receiving
FTY720 1.25 and 5 mg, respectively.” Id. at Table 3.
With respect to another study involving single doses
of 0.25, 0.5, 0.75, 1, 2, or 3.5 milligrams of FTY720,
Thomson states: “All FTY720 groups showed a temporal pattern of relative lymphocyte sequestration,
seen at the latest 6 h postdose. No clear dose response,
but the highest doses showed a more pronounced
reduction in lymphocyte numbers.” Id. (referencing, in
part, Budde 2002 (Ex. 1008)); see also id. at 163
17

We note that one of the referenced studies is Kappos 2005
(Ex. 1007).

34a
(“Although the higher doses of FTY720 produced a
more rapid and sustained lymphocyte sequestration,
the actual degree of this property was similar across
the range of doses used in the study and no clear dose–
response relationship was detected.”).
With respect to yet another study involving renal
transplant patients co-administered cyclosporine and
0.25, 0.5, 1, or 2.5 mg doses of fingolimod for twelve
weeks, Thomson reports that “lymphocyte sequestration was seen as early as w 1, nadir was reached at w
4 and was fully reversed 4-8 w after cessation of
treatment. The pharmacodynamics were not doselinear over the 10-fold dose range.” Id. at Table 3; see
id. at 164.
iii. Analysis of Ground 1
In short, Petitioners argue that the challenged
claims would have been obvious over Kovarik and
Thomson, because Kovarik teaches a 0.5 mg daily dose
of fingolimod for the treatment of multiple sclerosis,
whereas Thomson
teaches a range of doses, including 0.5 mg, which
result in the lymphocyte homing effect then thought to
underlie fingolimod’s efficacy in treating RR-MS. In
particular, Petitioners contend that “Kovarik discloses
that the oral administration of a 0.5 mg daily dose of
FTY720 provides effective treatment of multiple
sclerosis . . . .” Pet. 36; see Ex. 1002 ¶¶ 119, 126; 1047
¶¶ 25–30. According to Petitioners:
A person of skill in that art would have read
Kovarik’s teachings as readily applicable to a
patient with the RR-MS form of the disease
because RR-MS is by far the most common
form of the disease at onset and accounts for
approximately 85% of cases. Also, a skilled

35a
artisan would have known that inflammation
is the driver of relapses in RR-MS and that
fingolimod hydrochloride was taught to treat
MS by reducing inflammation through the
accelerated lymphocyte homing mechanism
taught by Kovarik.
Pet. 41–42 (internal citations omitted).
Petitioners argue that, “Thomson provides additional motivation to administer 0.5 mg FTY720 to a
patient with RR-MS . . . [by] present[ing] an array of
evidence supporting the efficacy of FTY720 in treating
RR-MS by reducing relapse rates and slowing progression of RR-MS associated with inflammation.” Pet. 42
(citing Ex. 1002, ¶ 109). According to Petitioners,
[t]he skilled artisan would have had a reasonable expectation that the daily oral dose of 0.5
mg FTY720 taught by Kovarik would be
therapeutically effective for patients suffering from RR-MS because Thomson describes
clinical trials of FTY720 that tested doses in
the range of 0.25 mg to 3.5 mg, in which it was
found that “the actual degree of this property
[lymphopenia] was similar across the range of
doses used.”
Pet. 43 (citing Ex. 1005, 162–63; Ex. 1002 ¶¶ 112–13).
In response, Patent Owner argues that Kovarik does
not sufficiently link the treatment of RR-MS to the
administration 0.5 mg daily dosages of fingolimod, but
instead is directed to loading dose rates and ratios—
elements expressly excluded by the challenged claims.
PO Resp. 4, 36–37; Sur-Reply 13–14. We find that
Patent Owner has the better position.

36a
Kovarik generally discloses the use of S1P receptor
modulators or agonists, such as fingolimod, at daily
dosages ranging from 5 mg to 0.1 mg after a loading
dose regimen, for a host of conditions, including
prolonging allograft survival rates in transplant
patients and treating patients suffering from autoimmune diseases, exemplified by “multiple sclerosis,
lupus nephritis, rheumatoid arthritis, inflammatory
bowel diseases or psoriasis.” Ex. 1004, 14. On page 15
of the reference, Kovarik discloses administration of a
loading dose regimen followed by maintenance
therapy at a daily dosage of, e.g., 0.5 mg of fingolimod
per day, without specifying the disease or condition
treated. At best, we find that Kovarik teaches that,
after a loading dose regimen, an unspecified autoimmune disease may be treated with a daily dosage of
“about 0.1 to 0.5mg” of fingolimod.” See id. at 17 (“A
method for treating an autoimmune disease in a
subject in need thereof, comprising administering to
the subject, after a loading regimen, a daily dosage of
FTY720 of about 0.1 to 0.5mg.” (emphasis added)).
Kovarik is directed to the use of loading doses,
which, as Dr. Giesser testified and supports with evidence, “are not today, and were not in June 2006, part
of the accepted MS or RR-MS treatment protocols. Ex.
1002 ¶ 67; PO Resp. 4, 36–37, 63–64. Ex. 2022 ¶ 8; see
also Ex. 1047 ¶ 36 (“loading doses are merely to
increase the rate at which steady state is achieved”);
Ex. 1002 ¶¶ 67, 72, 119, 121–22; Ex. 2024 ¶ 130–133.
Considering the testimony of the parties’ experts, we
credit Patent Owner’s argument that Kovarik merely
illustrates how a loading dose might be used for an
unspecified autoimmune disease, but would have had
little relevance to the treatment of RR-MS, and
provides no guidance as to dosing for RR-MS with, or
without, a loading dose. See PO Resp. 36 (“The

37a
example did not cover ‘any’ or ‘all’ autoimmune
disease(s), only one unspecified condition. RRMS is
just one of dozens if not over 100 autoimmune diseases.”) (citing Ex. 2022 ¶¶ 145–146); PO Reply 13–14
(citing Ex. 2096 ¶¶ 56–69); Ex. 2024 ¶¶ 141–151.
Petitioners have not shown sufficiently how Kovarik
links the treatment of RR-MS to the administration of
0.5 mg daily dosages of fingolimod with, or without, a
loading dose. Accordingly, Petitioners have not demonstrated that one of ordinary skill in the art would have
been motivated to administer 0.5 mg daily dosages of
fingolimod to persons in need of treatment for RR-MS.
Petitioners further rely on Thomson as evidence
that one of ordinary skill in the art would have
recognized that a 0.5 mg daily oral dose of fingolimod
would be effective in the treatment of RR-MS. See Pet.
42–46. We do not find Petitioners’ arguments persuasive. Thomson discloses that fingolimod was effective
for the treatment of RR-MS at 1.25 and 5 mg per day—
substantially higher than the 0.5 mg daily dosage set
forth in the challenged claims. See Ex. 1005, 164–165.
Although Thomson also references a 0.5 mg dose, this
is only in connection with single-dose safety data
in renal transplant patients. Id. at 163 (discussing
Budde, Ex. 1008 (see section II(E)(iii), below)). On this
record, we agree with Drs. Steinman and Jusko that
Thomson, like Kovarik, fails to teach or suggest the
administration of 0.5 mg daily dosages of fingolimod to
persons in need of treatment for RR-MS. See Ex. 2022
¶¶ 161–162; Ex. 2024 ¶¶ 152–156.
For at least these reasons, we conclude that
Petitioners have not demonstrated by a preponderance of evidence claims 1–6 would have been obvious
under 35 U.S.C. § 103(a) in view of Kovarik and
Thomson.

38a
In section II(E), below, we discuss Patent Owner’s
arguments and evidence with respect to teaching
away. Although not necessary to our determination
with respect to Ground 1, our determination that the
prior art teaches away from the claimed invention
supports our conclusion that Petitioners have not
demonstrated by a preponderance of evidence claims
1– 6 would have been obvious under 35 U.S.C. § 103(a)
in view of Kovarik and Thomson.
E. Ground 2: Obviousness in view of Chiba,
Kappos 2005, and Budde
Petitioners assert that claims 1 and 5 would have
been obvious under 35 U.S.C. § 103(a) over the
combination of Chiba, Kappos 2005, and Budde. Pet.
48–57. Patent Owner opposes. We begin with an
overview of the asserted references.
i. Overview of Chiba
Chiba discloses that fingolimod hydrochloride and
related compounds are capable of suppressing the
immune response of mammals through accelerated
lymphocyte homing (“ALH-immunosuppression”). Ex.
1006, Abstract, 2:35–44, 4:63–5:7. “For example, the
compound FTY720 specifically directs lymphocytes to
the peripheral lymph nodes, mesenteric lymph nodes,
and Peyer’s patches. By reversibly sequestering lymphocytes in these tissues, the compounds can
inhibit an immune response in a mammal.” Id. at
Abstract; see id. at 2:38–40, 17:38–40. Such ALHimmunosuppressive compounds “are useful in for the
prevention or treatment of resistance to transplantation or transplantation rejection . . . [and] autoimmune
diseases such as . . . multiple sclerosis” (id. at 6:26–49)
and may be administered “to an adult daily by 0.01-10

39a
mg (potency) in a single dose or in several divided
doses.” (id. at 8:28–34).
ii. Overview of Kappos 2005
According to Kappos 2005, “FTY720 is an oral
immunomodulator (sphingosine-1 phosphate receptor
(S1P) modulator) that reversibly sequesters tissue
damaging T and B cells away from blood and the
central nervous system to peripheral lymph nodes.
FTY720 has demonstrated both preventive and therapeutic efficacy in several animal models of MS.” Ex.
1007, O141. Kappos discloses the clinical and MRI
results of a double-blind, placebo-controlled study to
evaluate efficacy, safety and tolerability of 1.25 mg
and 5.0 mg daily doses of FTY720 in the treatment of
RR-MS. Id. According to Kappos 2005, the study
“demonstrated efficacy of FTY720 on MRI and relapserelated endpoints” and “strongly suggest[s] that
FTY720 has the potential to be an efficacious disease
modifying treatment for relapsing forms of MS with
the additional benefit of once daily oral administration.” Id.
iii. Overview of Budde
Budde discloses a randomized, double-blind,
placebo-controlled clinical trial designed to measure
safety, single-dose pharmacokinetics, and pharmacodynamics of single oral doses of fingolimod in stable
renal transplant patients. Ex. 1008, Abstract. Budde
shows that single oral doses of 0.25 mg, 0.5 mg, 0.75
mg, 1 mg, 2 mg, and 3.5 mg of the drug induced
decreased lymphocyte counts as compared to placebo
with a nadir of 4.7–8 hours after administration. Id. at
1078; see id. at 1079 (“All FTY-randomized groups
manifested a temporal pattern of relative lymphopenia, detected at the latest by 6 h postdose.”); id. at 1082

40a
(“Single oral doses of FTY in doses ranging from 0.5
mg to 3.5 mg caused a dose-dependent, reversible
lymphopenia.”). According to Budde:
At FTY doses ranging from 0.5 mg to 3.5 mg,
no clear dose response relationship was
detected, but the two highest dose groups
exhibited a more pronounced decline in lymphocyte numbers. FTY doses of >2.0 mg were
associated with a more rapid onset of
lymphopenia (31 to 43% decrease after 2 h).
The three subjects treated with 3.5 mg FTY
manifested the most prolonged and intensive
lymphopenia.
Id.
With respect to safety, “single oral doses of FTY
were well tolerated with transient asymptomatic
bradycardia as the most common adverse event.” Id.
at 1082. “Higher doses of FTY were more frequently
associated with bradycardia: 9 out of 12 subjects
randomized to >0.75 mg of FTY developed bradycardia; however, only 1 of 12 subjects receiving 0.25 to 0.5
mg of FTY.” Id. at 1075.
iv. Analysis of Ground 2
Petitioners argue that claims 1–6 would have been
obvious “[b]ecause Chiba teaches oral administration
of fingolimod hydrochloride for the treatment of
multiple sclerosis, with Kappos 2005 confirming its
utility in RRMS patients and Budde confirming the
efficacy of a 0.5 mg daily dose of FTY720.” Pet. 54. In
particular, Petitioners state:
In view of Kappos 2005 and Budde, the skilled
artisan would have a reasonable expectation
that the 0.5 mg daily dose, a dose within the

41a
range taught by Chiba and specifically used
by Budde, would induce the desired pharmacological effect (lymphopenia) in RR-MS
patients. EX1002, ¶¶58, 60-61, 64, 84, 139,
citing EX1022 at 309, EX1018 at 237-39,
EX1019 at 684, EX1031 at 1081, EX1028 at
440, and identifying lymphopenia as being
“often used as a clinical end-point in dose
response studies” and “relevant for relating
dosage to lymphopenia for MS.” Thus, a
skilled artisan would have had reason to use
the 0.5 mg dose identified in these clinical
trials because there was no substantial pharmacological detriment to using the lower 0.5
mg dose and because Budde teaches that the
0.5 mg dose was associated with a decreased
risk of adverse effects such as bradycardia
when compared to higher doses. EX1008 at
1075-76; EX1002, ¶139.
Id. at 53–54.
In opposing Petitioners’ arguments, Patent Owner
contends, inter alia, that one of ordinary skill in the
art would not have been motivated to combine the
cited references to arrive at the claimed invention
because the art as a whole taught away from administering daily dosages as small as 0.5 mg for the
treatment of RR-MS.18 See PO Resp. 33–39; PO Reply
5–8. A reference teaches away “when a person of
ordinary skill, upon reading the reference, would be
18

Patent Owner further provides evidence of unexpected
results and skepticism by those of ordinary skill in the relevant
field. See id. at 39–41. Because our conclusions with respect to
teaching away are sufficient to our determination with respect to
Petitioners’ obviousness grounds, we need not consider this
additional evidence.

42a
discouraged from following the path set out in the
reference, or would be led in a direction divergent from
the path that was taken” in the claim. Galderma
Labs., L.P. v. Tolmar, Inc., 737 F.3d 731, 738 (Fed. Cir.
2013). Whether the prior art teaches away from a
reference may be dispositive of a challenge set forth in
an inter partes review. See generally, Meiresonne v.
Google, Inc., 849 F.3d 1379, 1382 (Fed. Cir. 2017).
Patent Owner’s teaching away argument relies
primarily on the combination of Webb, Kahan 2003,19
and the Park references, Park 200320 and Park 2005,21
which we discuss below.
1. Webb, Kahan 2003, and the Park
References
Webb, a prior art article published by researchers at
Merck in the respected, peer-reviewed Journal of
Neuroimmunology, provides the lynchpin of Patent
Owner’s teaching away argument. See Ex. 2014;22 Ex.
2096 ¶ 26. Webb studied the effects of fingolimod and

19

Kahan, et al., Pharmacodynamics, Pharmacokinetics, and
Safety of Multiple Doses of FTY720 in Stable Renal Transplant
Patients: A Multicenter, Randomized, Placebo-Controlled, Phase
I Study, Transplantation, 76(7): 1079-1084 (2003). Ex. 1031.
20

Park et al. “Peripheral Blood FTY720 Pharmacokinetic/
Pharmacodynamic (PK/PD) Modeling in Renal Transplanted
Recipients,” Abstract #707, Kidney: Pharmacogenetics, Kinetics
and New Drug, p. 333-334 (2003). Ex. 2048.
21

Park, et al., Pharmacokinetic/Pharmacodynamic Relationships of FTY720 in Kidney Transplant Patients, Brazilian J.
Med. Biol. Res., 38: 683-694 (2005). Ex. 1019.
22

Webb et al., Sphingosine 1-phosphate receptor agonists
attenuate relapsing-remitting experimental autoimmune encephalitis in SJL mice, 153 J. Neuroimmunology 108–21 (2004). Ex.
2014.

43a
its phosphorylated active metabolite, FTY-P, in a
mouse model of RR-MS, experimental autoimmune
encephalitis, or EAE. Ex. 2014, Abstract, 118. Webb
initiated EAE by immunizing SLJ mice with a peptide
based on the mouse proteolipid protein, PLP. Id. at
109, 110. The mice were then exposed to fingolimod,
FTY-P, or control preparations. Id. at 110. Noting that
“the effects of [fingolimod] are a result of the generation of the metabolite FTY-P,” Webb focused on FTYP “to examine the dose response for clinical efficacy
and peripheral lymphopenia, and the relationship
between these two phenomena.” Id. at 114.
In Figure 5B, Webb shows the cumulative clinical
scores of mice immunized with the PLP peptide alone,
or with increasing amounts of FTP-Y. Id. at 115; see
Ex. 2024 ¶ 73. Although the scores for each of the FTPY pools is numerically lower than that of the PLP
control, Webb indicates that only the results for the 1
mg/kg and 0.3 mg/kg treatments were statistically
significant. Id. In Figure 6B, Webb shows that increasing amounts of FTP-Y cause increasing amounts of
lymphocyte suppression (lymphopenia), which was
considered a marker for therapeutic efficacy. Id.; see
Ex. 2022 ¶ 41; Ex. 2024 ¶ 74. Figure 6C plots the
cumulative clinical scores versus percent lymphopenia
for the various pools. Id.; see Ex. 2024 ¶ 74.
In discussing
observed

these

experiments,

Webb

a dose-dependent and reversible lymphopenia
on treatment with FTY720 or FTY-P. This
reached a maximum of about 70–80% depletion at the highest doses used. . . . Because
EAE is known to be a T cell-dependent
disease, such sequestration, by preventing
the entry of T cells with specificity for myelin

44a
components into the CNS, would account for
the therapeutic efficacy.
* * *
In dose response experiments, we found that
a threshold of about 70% depletion of peripheral lymphocytes was required to see any
efficacy, and thereafter, the dose response
relationship between clinical benefit and
lymphopenia was very steep.
Id. at 118.
According to Patent Owner, “EAE studies like those
in Webb are an important ‘predictive index for clinical
therapeutic application’ for MS treatment and thus
useful in establishing dosing.” PO Resp. 34 (citing Ex.
2022 ¶¶ 68, 72). Patent Owner further argues that,
absent evidence to the contrary, one of ordinary skill
in the art would have understood Webb’s threshold of
about “about 70% depletion of peripheral lymphocytes” to apply across species. Id. (citing Ex. 2024 ¶ 75)
(further noting that more than 80% lymphocyte
suppression was known to be required to achieve a
clinical effect in human transplant patients).
Patent Owner further points to Kahan 2003 and the
Park references as evidence of the degree of lymphocyte depletion seen in humans dosed with 0.5 mg of
fingolimod. See PO Resp. 9–14 (citations omitted).
Kahan 2003 monitored 65 stable renal transplant
patients receiving once-daily doses of 0.125, 0.25, 0.5,
1.0, 2.5, or 5.0 mg fingolimod, or placebo for 28 days.
Ex. 1031, Abstract. Kahan 2003 reported that fingolimod “doses greater than or equal to 1.0 mg/day
produced a significant reduction in peripheral blood
lymphocyte count by up to 85%,” with no “major
increase in adverse events or a change in renal

45a
function” as compared to placebo. Id. Doses less than
1.0 mg/day produced materially lower reductions in
peripheral lymphocyte blood counts. Id. at 1081-82;
Ex. 2022 ¶ 56. As shown in Figure 1 of the reference,
at the end of the administration period, the 1.0 mg
daily dose resulted in about 70% lymphocyte
suppression, whereas the 0.5 mg daily dose resulted in
about 50% lymphocyte suppression. Id. at 1081; see
Ex. 2022 ¶ 57.
Park 2003 monitored peripheral blood lymphopenia
in 23 kidney transplant patients receiving 0.25, 0.5,
1.0 or 2.5 mg daily doses of fingolimod over the course
of 12 weeks. Ex. 2048. Park reports that “EC50 was
achieved at FTY720 doses of 0.5 mg and blood
concentrations of 0.6 ng/mL. Since FTY720 PK are
dose-linear and effective doses of FTY720 are 2.5 and
5 mg/day, the immunosuppressive effect of FTY720
may depend upon induction of high degree of
lymphopenia (~80%).” Id. According to Dr. Steinmann,
this indicates that for fingolimod, “0.5 mg was the
‘EC50,’ i.e., the ‘effective concentration’ that reduced
lymphocyte counts by half fingolimod’s maximum level
of about 88%. . . . In other words, 0.5 mg daily
suppressed lymphocytes by about 44%.” Ex. 2022 ¶ 59.
Dr. Steinmann further points to Park 2005, a followon to Park 2003. Id. at ¶¶ 61–66, 140–141 (citing Ex.
1019). Figure 7A of Park 2005 plots levels of lymphocyte suppression among patients administered daily
doses of fingolimod over the course of 12 weeks. Ex.
1019, 690. Dr. Steinmann testifies that: “Patients in
the 0.5 mg group range from less than 20% to less than
60% suppression; the 1.0 mg group range from 40%
and 70%; and the 2.5 mg group between 70% and 80%.
Thus, dose drove not only the average amount of
suppression but also the degree of variation among

46a
patients. Lower doses had far more variation than
higher doses.” Ex. 2022 ¶ 62. Further interpreting
Figure 7, Dr. Steinmann calculates that “the EC50
level—the level that achieves half the maximum
effect, or about 44% suppression—is 0.48 mg daily, +/0.08 mg.” Id. ¶ 63; see also id. at ¶ 64 (interpreting
Park Table 3 as showing that 0.5 mg daily doses result
in about 42% lymphocyte suppression with substantially more week-to-week variation than higher dose
regimens).
Contrasting Webb’s 70% threshold with Kahan
2003’s and Park’s teachings that 0.5 mg daily doses of
fingolimod resulted in 50% or less depletion of lymphocytes, and greater variability than higher doses,
Patent Owner argues that the prior art teaches away
from administering 0.5 mg daily dosages of fingolimod
for the treatment of RR-MS. PO Resp. 33–39; see Ex.
2024 ¶¶ 124–127; Ex. 2022 ¶¶ 78, 115, 124–142; Ex.
2003 ¶ 39; Ex. Tr. 35:3–36:21.
Dr. Steinman explains that
RRMS is a life-long condition. Relapses occur
roughly 1.5 times per year. With each relapse
(or even without), the disease progresses.
More lesions develop on the CNS. Often, baseline function worsens with a relapse; that is,
the effects of an attack can linger after the
relapse is done. Disability thus accumulates
over time. As a result, MS doctors focus on
sustained, consistent relapse prevention and
slowing progression of the disease. Even with
some side-effects, the benefits of such sustained prevention are likely to outweigh the
costs.

47a
Ex. 2096 ¶ 43 (citing Ex. 2022 ¶¶ 29–30, 118).
Accordingly, Dr. Steinmann testifies, “[s]ubstantial
inter-patient variability would be unacceptable in a
MS Drug.” Ex. 2022 ¶ 144. Moreover, prior art studies
showed that fingolimod was generally well tolerated
such that any serious “side effects would have been
manageable in comparison to the risks associated with
submaximal therapeutic efficacy.” Id. at ¶ 141. Thus,
a 0.5 mg daily dosage regimen of fingolimod would
have held promise as a treatment for RR-MS only if it
could provide consistent, sustained benefits to
patients. See Ex. 2096 ¶ 43.
With this background, we understand Patent Owner
to argue that one of ordinary skill in the art would
have been dissuaded from treating patients with doses
of fingolimod that were likely to provide ineffective,
sub-optimal, or variable clinical efficacy. Whereas
Webb teaches that at least about 70% lymphocyte
depletion provides a surrogate or marker for optimal
efficacy, Kahan 2003 and the Park references show
that 0.5 mg daily doses will not provide that level of
lymphocyte depletion and, moreover, result in greater
variability in this indicia of clinical efficacy.
Responding to Patent Owner’s teaching away argument, Petitioners first address Webb’s statement that
“a threshold of about 70% depletion of peripheral
lymphocytes was required to see any efficacy.” Pet.
Reply 12– 14. Focusing on Webb’s 0.3 mg/kg dose—the
lowest dose shown to have statistically significant
clinical efficacy—Petitioners argue that the underlying data show that 0.3 mg/kg dose did not achieve at
least 70% lymphopenia but “only about 60%, the same
level of lymphopenia that 0.5 mg achieved in humans
in Kahan 2003 and Park after 4 weeks,” thus
“suggest[ing] that the 0.5 mg daily dose would be

48a
clinically effective.” Id. at 12 (citations omitted).
Petitioners also contend that one of ordinary skill in
the art “would not have been dissuaded from the 0.5
mg dose for RR-MS because of week-to-week or
interpatient variability in lymphopenia or because
higher lymphopenia (80%) was correlated with ‘best
efficacy’ for preventing transplant rejection.” Id.
(citing Ex. 1047 ¶¶ 56–62).
We do not find Petitioners’ arguments persuasive.
First, we credit Dr. Steinman’s testimony that one of
ordinary skill in the art would have read Webb to
mean what it says: “In dose response experiments, we
found that a threshold of about 70% depletion of
peripheral lymphocytes was required to see any
efficacy.” See Ex. 2096 ¶¶ 26–40; see also Ex. 2095
¶ 10 n.2; Ex. 2024 ¶¶ 65–80. We note for example,
Dr. Steinman’s testimony that, as compared to the
summary data presented in the article, the Webb
authors would have had access to more detailed
information about their experiments from which to
draw their conclusions, and that those conclusions
were the result of the authors’ collective judgment that
had withstood rigorous peer review. See id. at ¶¶ 33–
40.
Dr. Steinman’s testimony is underscored by that of
Dr. Chun, a co-author of Webb, which we likewise find
persuasive. Ex. 2098 ¶¶ 2–9, 17– 35. Dr. Chun testifies
that:
Our conclusion that 70% suppression was
needed for “any efficacy” was the product of
our collective judgment based on a totality of
data presented in our paper. The average
effect of one dose in one group of mice was just
one piece of data. We also assessed the effects
of different doses in individual mice; the

49a
ability of a dose to produce sustained clinical
improvement; and other facts to reach our
conclusions. As those with experience running EAE experiments know, the model has a
subjective aspect that requires judgmentcalls when interpreting results.
Id. at ¶ 7; see also Ex. 1063, 186:2–25, 275:11–18
(explaining that “any” efficacy in Webb could have
been written as “most consistent,” “predominant,” or
“reproducible”). According to Dr. Chun:
Some mice would respond to lower doses with
higher suppression, and vice versa. These
differences in how individual mice responded
to FTY-P were thus obscured by statistical
use of standard error of the mean.
***
However, those individual observations did
inform our overall conclusion that “a threshold of about 70% depletion of peripheral lymphocytes was required to see any efficacy[.]”
(Id. at 118.) It is common in academic papers
to report conclusions like this in the Discussion. Practical constraints imposed by journals prevent the publication of all the
underlying data, such as data from each
individual mouse. We thus highlighted the
basic conclusion of “about 70%” in the Discussion to inform the readers.
Id. at ¶¶ 33–34.
Pointing to the testimony of Dr. Steinmann, Patent
Owner also contends that Petitioners’ expert incorrectly relied on maximum suppression data in Kahan
2003 and Park 2005 to conclude that 0.5 mg daily

50a
doses of fingolimod would have resulted in levels of
lymphopenia likely to be effective against RR-MS. PO
Sur-Reply 6–7 (citing Ex. 2096 ¶¶ 41–54). According
to Dr. Steinmann, Dr. Benet is also “mistaken in
arguing that the inter-patient and week-by-week
variability for 0.5 mg in Park 2005 would not be of
independent concern to a person of skill designing a
fingolimod dose.” Ex. 2096 ¶¶ 50–52. Having considered the opposing arguments and the respective
backgrounds of Drs. Bennet and Steinmann, we credit
the testimony of Dr. Steinmann.23
2. Kataoka
Patent Owner further contends that Kataoka
supports its position that lower doses of fingolimod
would have been expected to provide sub-optimal
clinical benefits. See PO Resp. 15, 19; PO Sur Reply 7–
8, 12. Kataoka teaches that:
Prophylactic administration of FTY720 at 0.1
to 1 mg/kg almost completely prevented the
development of EAE, and therapeutic treatment with FTY720 significantly inhibited the
progression of EAE and EAE-associated
histological change in the spinal cords of LEW
rats induced by immunization with myelin
basic protein. Consistent with rat EAE, the
development of proteolipid protein-induced
EAE in SJL/J mice was almost completely
prevented and infiltration of CD4+ T cells

23

Although Dr. Benet presents impressive credentials in drug
development and the pharmaceutical sciences generally (see, e.g.,
Ex. 1047 ¶¶ 1–11; Ex. 1048), Dr. Steinmann’s background in
researching MS and other autoimmune diseases (see, e.g., Ex.
2022 ¶¶ 1, 12–21) is more pertinent to the issues before us.

51a
into spinal cord was decreased by prophylactic treatment with FTY720.
Ex. 1029, Abstract. Referencing the rat data in
Kataoka Figure 1, Patent Owner argues that “[d]oses
of 0.1 and 0.3 mg/kg reduced clinical scores and
lymphocyte infiltration, although to a lesser extent
than 1.0 mg/kg did. So, like the studies before it,
Kataoka pointed to doses of 0.1 mg/kg or higher.” PO
Resp. 19 (citing Ex. 1029 ¶ 441; Ex. 2022 ¶¶ 86-89;
Ex. 2024 ¶¶ 81-82). According to Dr. Steinmann,
“Kataoka’s lowest dose was more than three times
higher than Webb’s lowest dose,” such that Kataoka
“did not explore the boundary between effective and
ineffective doses.” Ex. 2022 ¶ 89.
We do not find Patent Owner’s initial argument
persuasive as it relies on rat data without adequately
explaining how the dosages of fingolimod in rats
correlates to the results reported by Webb using a
mouse model.
Petitioners argue that mouse data in Kataoka confirms the efficacy of 0.5 mg fingolimod, thereby
negating Patent Owner’s teaching away argument.
See Pet. Reply. 15; Ex. 1047 ¶¶ 64–78. According to Dr.
Benet, Kataoka demonstrates that 0.1 mg/kg doses of
fingolimod alleviated EAE symptoms in the mouse
model. Ex. 1047 ¶¶ 64–65. Then, applying a conversion from the July 2005 FDA Guidance for Industry:
Estimating the Maximum Safe Starting Dose in Initial
Clinical Trials for Therapeutics in Adult Healthy
Volunteers (Ex. 1049), Dr. Benet calculates that a
mouse dose of 0.1 mg/kg translates to approximately
0.5 mg in humans, and would have had substantially
the same efficacy as a 1.25 mg dose or 5 mg dose. Id.
at ¶¶ 67–74; see also id. at ¶ 77 (applying conversion
factor from FDA Guidelines to Kataoka’s rat data).

52a
The FDA Guidance provides “a process (algorithm)
for deriving the maximum recommended starting dose
(MRSD) for first-in-human clinical trials of new
molecular entities in adult healthy volunteers . . . . The
purpose of this process is to ensure the safety of the
human volunteers.” Ex. 1049, 1 (italics in original).
Fingolimod, however, had already been examined in
healthy adult volunteers and, moreover, was used to
treat human transplant patients and those suffering
from MS. These existing studies provided substantial
evidence of fingolimod’s safety and side effects profile
in humans. See e.g., Ex. 1005, 157 (stating that
fingolimod is “[w]ell tolerated. No serious adverse
events noted. Most common adverse event is asymptomatic, mild, and transient reduction in heart rate”);
Ex. 1006, 317 (“FTY720 is well tolerated and not
associated with the side effects commonly observed
with immunosuppressant therapy.); Ex. 1007 (“Treatment was generally well tolerated . . . with the most
frequently reported (> 15 % patients) being mild
headaches and nasopharyngitis.”); Ex. 1008, 1075 (“No
serious adverse events were reported during or after
the administration of FTY. . . . The most common of
the 28 reported adverse events were bradycardia
(n = 10) and headache.”); Ex. 1018, 241 (“Transient,
asymptomatic bradycardia was observed after
fingolimod administration, but overall the drug was
well tolerated with no serious adverse events.”).
Accordingly, and notwithstanding Dr. Benet’s statement that it was “standard practice for pharmacologists to use the multipliers provided in FDA Guidance
to translate animal doses from preclinical studies into
doses for use in human clinical studies” (Ex. 1047
¶ 68), the FDA Guidance on its face, indicates that it
is not intended to apply to the dosing of wellestablished compounds such as fingolimod. Consistent

53a
with the teachings of the FDA Guidance, Patent
Owner argues that one of ordinary skill in the art
would not have used the FDA Guidance to extrapolate
the mouse and rat data in Kataoka to a human dose.
PO Sur-Reply 7–8 (citing Ex. 2095).
Consistent with our independent reading of the FDA
Guidance, we find Patent Owner’s argument persuasive for the reasons set forth in paragraphs 3–18 of Dr.
Jusko’s Declaration, Exhibit 2095. Summarizing this
testimony, Dr. Jusko explains that,
a person of skill in June 2006 would not have
considered extrapolating from animal to
human doses because extensive PK/PD data
already existed in humans. The FDA Guidance is expressly designed only to identify a
safe first-in-human dose before such data
exists. But once human PK/PD data exists,
that data would provide far more relevant
information for estimating a dose’s effects
than an estimate based on simple animal dose
data. Accordingly, a person of skill would not
have used the FDA Guidance to extrapolate a
human dose from Kataoka’s lowest effective
mouse dose.
Ex. 2095 ¶ 4.
Extending his analysis, Dr. Jusko argues that
applying clearance data gathered from human and
animal studies, a pharmacologist would calculate that
Kataoka’s 0.1 mg/kg effective dose in rats corresponds
to about 1.4 mg in a 75 kg human. Ex. 2095 ¶¶ 19–
28.24

24

Petitioners vigorously challenged the bases for Dr. Jusko’s
calculations at deposition. Petitioners, for example, challenged

54a
In view of the above, Petitioners have not demonstrated that Kataoka detracts from Patent Owner’s
evidence of teaching away. To the contrary, Dr.
Jusko’s substantially unrebutted calculations using
human and animal clearance data provide some
support for Patent Owner’s teaching away argument.
Considering all the evidence before us, Patent
Owner has established that one of ordinary skill in the
art would have been dissuaded from administering 0.5
mg daily dosages of fingolimod for the treatment of
RR-MS, and that one of ordinary skill in the art would
have had no reason to combine the teachings of Chiba,
Kappos 2005 and Budde to arrive at the claimed
invention. Accordingly, Petitioners have not demonstrated by a preponderance of evidence that claims 1–
6 would have been obvious under 35 U.S.C. § 103(a) as
asserted in Ground 2.
F. Ground 3: Obviousness in view of Kappos
2010
Petitioners challenge claims 1–6 under 35 U.S.C.
§ 102 as anticipated by Kappos 2010. Pet. 21, 57–61;
see Ex. 1002 ¶¶ 144–146. Petitioners’ challenge is
predicated on the assertion that Kappos 2010 qualifies
as prior art because claims 1–6 are not entitled to a
Dr. Jusko’s decision to use 75 kg as a standard patient weight in
his calculation rather than other standard or average patient
population weights as low as 60 kg. See, e.g., Paper 74 ¶¶ 13–21;
Paper 80, 14. Considering the formula Dr. Jusko used in calculating an equivalent human dose (“0.1 mg/kg from Kataoka x 75 kg
human weight x 0.19 Conversion Factor = 1.43 mg”), simple
arithmetic indicates that the substitution of 60 kg patient for the
75 kg standard used by Dr. Jusko also results in a dose
substantially greater than 0.5 mg, i.e., 0.1 mg/kg from Kataoka x
60 kg human weight x 0.19 Conversion Factor = 1.14 mg. See Ex.
2095 ¶ 25.

55a
filing date earlier than the April 21, 2014 filing date of
the ’342 application. Pet. 17–18, 57. In particular,
Petitioners argue that the claim limitation requiring
fingolimod administration “absent an immediately
preceding loading dose regimen” first appeared in a
preliminary amendment to the ’342 application,
whereas the originally filed ’342 application and all
prior applications are “silent regarding loading dose
regimens.” Id. at 57–58 (citations omitted).
Patent Owner does not dispute that Kappos 2010
discloses each element of claims 1–6, but argues: first,
that Kappos 2010 is not prior art; and second, that
in contravention of 35 U.S.C. § 311(b), Petitioners’
“anticipation theory is a ruse to unlawfully smuggle a
112 written description argument into an IPR.”
Prelim. Resp. 5, 45–49. We find no merit in the latter
argument.
i. Jurisdiction to address Ground 3
Although § 311(b) permits inter partes review “only
on a ground that could be raised under section 102 or
103,” Petitioners have not challenged the instant
claims on any ground other than those that could be
raised under sections 102 and 103. See Pet. 5–8
(overview of Grounds 1–3). Consistent with the
grounds set forth in the Petition, we do not address
invalidity on any basis other than under sections 102
and 103. Ascertaining whether an asserted reference
qualifies as prior art under these sections, however, is
integral to our analysis. See, e.g., Graham v. John
Deere Co., 383 U.S. 1, 17 (1966) (obviousness analysis
requires consideration of “the scope and content of the
prior art”). Not surprisingly, various panels of the
Board have already addressed underlying §112 issues
in the context of anticipation and obviousness grounds
in inter partes reviews. See, e.g., Bioactive Labs. v.

56a
BTG Int’l Inc., Case IPR2015-01305 (PTAB Dec. 15,
2015) (Paper 19, 8– 12) (finding that Petitioner failed
to demonstrate that parent application having same
specification as challenged patent lacked written
descriptive support and enablement for the challenged
claims); Dr. Reddy’s Labs. Ltd. et al. v. Galderma Labs.
Inc., Case IPR2015-01778, (PTAB Feb. 16, 2016)
(Paper 11, 7-8); Coalition For Affordable Drugs VIII,
LLC v. Trustees of University of Pennsylvania, Case
IPR2015-01835 (PTAB Mar. 7, 2016) (Paper 7, 8-11)
(finding that provisional application lacked sufficient
written description to support claim of priority).
Consistent with these prior Board decisions, Patent
Owner cites no authority precluding us from conducting analyses where, as in the present case, the prior
art status of a reference turns on whether one or more
applications in the chain of priority of the challenged
patent satisfy the written description requirement.
Patent Owner, nevertheless, argues that:
“[C]haracterising this issue as a question of”
anticipation or obviousness cannot give the
Board authority where it has none. The Board
“simply cannot evade Congress’s limitation
upon its jurisdiction by” using Sections 102
and 103 as a back door to a Section 112
challenge.
PO Resp. 59 (citing Mayfield v. Nicholson, 499 F.3d
1317, 1320 (Fed. Cir. 2007); Widdoss v. Sec’y of Dep’t
of Health & Human Servs., 989 F.2d 1170 (Fed. Cir.
1993)).
Patent Owner’s citation to Mayfield is inapposite. In
Mayfield, Appellant attempted to challenge a lower
court’s finding of fact by characterizing it as a matter
of statutory interpretation—a question of law.

57a
Mayfield, 449 F.3d at 1322–23. With respect to Ground
3, however, we address anticipation (resolved on the
bases of underlying facts), by ascertaining a factual
issue (the scope and content of the prior art) with
reference to second factual issue (whether the claims
are entitled to a priority date of the ’342 application),
which necessitates a decision on a third factual issue
(whether the ’342 application recites sufficient written
description to support the claims). See Martek
Biosciences Corp. v. Nutrinova, Inc., 579 F.3d 1363,
1369 (Fed. Cir. 2009) (treating as a question of fact
whether parent application provided sufficient § 112
support for the challenged claims such that applicants
were entitled to an earlier priority date); see also
Microsoft Corp. v. Biscotti, Inc., 878 F.3d 1052, 1068
(Fed. Cir. 2017) (reiterating that anticipation is a
question of fact). Nowhere does our analysis invoke the
question of law Patent Owner seeks to inject (i.e.,
whether we have the authority to address a ground of
invalidity under § 112). Patent Owner’s citation to
Widdoss v. Sec’y of Dep’t of Health & Human Servs.,
989 F.2d 1170 (Fed. Cir. 1993), is also inapplicable
insofar as it refers to whether a court may waive a
jurisdictional statutory time period and has no bearing
on the present case.
In sum, we conclude that the panel is not jurisdictionally barred from addressing the merits of
Petitioners’ anticipation challenge, including the underlying question of whether Kappos 2010 qualifies as
prior art with respect to the ’405 patent.
ii. Whether Kappos 2010 qualifies as prior art
Patent Owner relies on the testimony of Drs.
Steinman and Jusko in addressing the substance of
Petitioners’ contention that Kappos 2010 qualifies as
prior art because the claim limitation requiring

58a
fingolimod administration “absent an immediately
preceding loading dose regimen” is not supported in
the text of the ’405 patent or any of the substantially
identical applications in its chain of priority. PO Resp.
62 (citing Ex. 2022 ¶¶ 10, 182–185; Ex. 2024 ¶¶ 19–
21, 171–176). As set forth in the cited testimony,
Patent Owner’s experts explain why a person of
ordinary skill in the art would understand that the
specification of the ’405 patent and its priority documents show possession of the full scope of the
invention claimed. For example, pointing to Clinical
Trial section in column 11 of the Specification, Dr.
Jusko states:
An ordinarily skilled person in this art would
know that the dosing instructions “daily
dosage” in this context are complete and that
no loading dose is to be included. Further, a
person of skill would know it would be illadvised to alter the dosing regimen set forth
in the instructions because changes in safety
and efficacy could result. A person of skill in
the art would know not to add in a loading
due to the risk of the adverse effect of firstdose bradycardia. Also, MS is a chronic
disease and as such would likely not require
a loading dose to reach an effective dose
quickly in a patient, as was shown in Kappos
2005 using daily doses of 1.25 mg or 5.0 mg.
Given these considerations, the recitation in
the patent of a daily dosage of 0.5, 1.25, or 2.5
mg p.o. would be understood as clear and
complete by a person of ordinary skill in the
art, and that the absence of an immediately
preceding loading dose would be understood.
Ex. 2024 ¶ 174.

59a
Dr. Jusko further explains that, because the
Specification describes intermittent dosing without
mentioning a loading dose, “[a] person of skill would
understand the daily or intermittent doses to be the
full and complete dosing regimen, and thus would
understand the patent to mean that there should be
no immediately preceding loading dose in the dosing
regimen.” Id. ¶ 175.
Dr. Steinmann sets forth similar opinions (see Ex.
2022 ¶¶ 10, 182– 185) emphasizing, for example, that
because initial doses of fingolimod were associated
with bradycardia, one of ordinary skill in the art would
interpret the Specification’s silence with respect to
loading doses as indicating the administration of only
a daily dose. See Ex. 2022 ¶¶ 186–187.
Considering their respective backgrounds and
experience, Drs. Jusko and Steinman are both wellqualified to testify as to the understanding of one of
ordinary skill in the relevant art. See e.g., Ex. 2005 ¶¶
1, 7–13; Ex. 2006 (Jusko); Ex. 2022 ¶¶ 1, 12–21; Ex.
2023 (Steinman). We find their testimony on this
matter credible and substantially unrebutted by
Petitioner or Petitioners’ experts. See, e.g., Pet. Reply
24–25; Ex. 1002 ¶ 144 (Dr. Giesser stating that she
“understood” the Specification lacked support for a
loading dose, but evincing no independent analysis
from the view point of one of ordinary skill in the art).
Their testimony is also consistent with the
Specification and comports with our construction of
“daily dosage.”
“[A] patentee bears the burden of establishing that
its claimed invention is entitled to an earlier priority
date than an asserted prior art reference.” In re
Magnum Oil Tools Int’l, Ltd., 829 F.3d 1364, 1376
(Fed. Cir. 2016). Considering the record as a whole,

60a
Patent Owner has demonstrated that the claims of the
’405 patent are supported by the ’342 application and
the substantially similar disclosures of its predecessor
applications, such that Kappos 2010 does not qualify
as prior art.
Accordingly, we conclude that Petitioners have not
demonstrated by a preponderance of evidence that
Kappos 2010 anticipates claims 1–6 under 35 U.S.C.
§ 102(a).
III. MOTIONS
A. Motion to Amend
In its Corrected Contingent Motion to Amend,
Patent Owner requests that we consider certain substitute claims if any one of the original claims of the
’405 patent are found unpatentable. Paper 61, 1. As
Petitioners have not shown by a preponderance of the
evidence that any claim of the ’405 patent is
unpatentable, we deny Patent Owner’s motion as
moot.
B. Petitioners’ Motion to Exclude
Petitioners filed a motion to exclude evidence (Paper
82); Patent Owner opposed (Paper 89); and Petitioners
submitted a reply in support of its first motion to
exclude (Paper 98).
i. Exhibits 2057 and 2070
Petitioner seeks to exclude Exhibits 2057 and 2070,
and expert testimony relying on Exhibit 2057 under
F.R.E. 602, 801-803, 805, and 901. Paper 82, 1–5;
Paper 98, 1-2. Considering the parties’ arguments and
evidence, we agree with Patent Owner that Exhibit
2057, together with the signature pages relating
to that document (Ex. 2070) comprise a report by

61a
inventors of the ’405 patent describing work underlying the claimed invention, and intended to support
Patent Owner’s unexpected results arguments. See
Paper 89, 1–5. Nevertheless, because we do not rely on
the disputed portions of the record in our Decision, we
deny this portion of Petitioners’ motion as moot.
ii. Exhibits 2063–2066
Petitioner also seeks to exclude Exhibits 2063–2066
and expert testimony relying thereon under F.R.E.
106, 602, 801-803, 805, and 901. Paper 82, 5–11; Paper
98, 2–4. Patent Owner opposes. Paper 89, 6–11. The
disputed exhibits relate to Patent Owner’s arguments
regarding skepticism in the field. Because, as with
Exhibits 2057 and 2070, we have not reached the
merits of Patent Owner’s evidence of secondary considerations of nonobviousness, we dismiss Petitioners’
Motion to exclude regarding those exhibits as moot.
iii. Exhibits 2098 and 2096
Petitioner further seeks to exclude under F.R.E. 702
and 703, Exhibit 2098 and Exhibit 2096, paragraphs
28, 31–34. Paper 82, 11–15; Paper 98, 5. Exhibit 2098
comprises Dr. Chun’s testimony regarding the facts
and circumstances surrounding the publication of
Webb, including that the authors’ conclusions reflect
detailed, underlying and unpublished experimental
data. For example, Dr. Chun states: “We did not report
the results from individual mice, nor would the
Journal have provided the space needed to do so.” Ex.
2098 ¶ 26. “However, those individual observations
did inform our overall conclusion that ‘a threshold
of about 70% depletion of peripheral lymphocytes
was required to see any efficacy[.]’” Id. at ¶ 34.
Summarizing his testimony, Dr. Chun states that,
“our conclusion that about 70% reduction in peripheral

62a
blood lymphocyte levels was required for any efficacy
was not a mistake; it was the result of collective
judgment based on multiple data sources and an
appreciation of the subjective nature of determining
clinical scores in this model.” Id. at ¶ 8.
In the disputed portions of Exhibit 2096, Dr.
Steinman testifies that in interpreting Webb, he took
into account, for example, that “a person of skill would
have understood that the authors had access to data
from individual mice too, and that data would have
informed their judgment as well.” Ex. 2096 ¶ 31; id. at
¶ 33 (“Practical constraints on article length would
normally preclude the publication of data like this.
Instead, I would expect scientists who observe an
important trend in disaggregated data to note their
observation in summary form in the discussion
section, just as the authors did here.”).
Petitioner argues that Dr. Chun’s testimony is
“speculative and unsubstantiated” and his “memory
cannot be relied upon.” Paper 82, 13–14. Petitioner
further contends that Patent Owner’s failure to
produce “the data underlying the Webb reference and
any descriptions or summaries of the data Dr. Chun
relied upon . . . renders the testimony cited above both
unreliable and entitled to no weight, justifying
exclusion of the testimony from consideration.” Id. at
12.
As an initial matter, Petitioner does not persuasively argue that Dr. Steinmann relies on either Dr.
Chun’s testimony, or to Webb’s unpublished data. See
id. at 11–12. Nor do we understand Petitioners’
complaint that it is not in possession of the underlying
unpublished data as having any bearing on Dr.
Steinmann’s testimony as to how one of ordinary skill
in the art would understand Webb. In addition, we

63a
take at face value Patent Owner’s explanation that
neither it, nor Dr. Chun, is in possession of that data.
Paper 89, 13. Rather, “[t]he data belong to Merck,
where Dr. Chun was employed while preparing the
Webb paper.” Id. (citing Ex. 2098 ¶ 2). With respect to
Dr. Chun’s memory and the underlying basis for his
testimony, this goes to the weight of his testimony.
Assessing the weight of fact and expert testimony is
well within the purview of this panel.
Accordingly, and for the reasons set forth at pages
11–15 of Patent Owner’s Opposition (Paper 89), which
we find persuasive, we deny Petitioners’ motion to
exclude Exhibit 2098 and paragraphs 28, 31–34 of
Exhibit 2096.
C. Patent Owner’s First Motion to Exclude
Patent Owner filed a first motion to exclude
evidence (Paper 80); Petitioners opposed (Paper 94);
and Patent Owner submitted a reply in support of its
first motion to exclude (Paper 97).
i. The Testimony of Dr. Giesser
Patent Owner moves to exclude “all or at least the
pharmacology opinions” of Dr. Giesser (Ex. 1002), as
well as her CV (Ex. 1003). Paper 94, 1. According to
Patent Owner, “Dr. Giesser perform[ed] an improper,
hindsight-driven analysis” and “strayed far outside
her area of expertise.” Paper 80 at 1–6. For the reasons
set forth in Petitioners’ opposition, we do not agree
that Dr. Geisser’s analysis was improper. See Paper 94
at 1–7. Although we recognize the limitations of Dr.
Giesser’s expertise in pharmacology, Patent Owner’s
arguments go to the weight we should accord her
testimony, not its admissibility. See e.g., Dec. 9–10;
Paper 80, 6; Paper 97, 3. Accordingly, Patent Owner’s

64a
motion to exclude Ex. 1003 and all or part of Ex. 1002
is denied.
ii. Exhibits relating to IPR2017-01550 and
Clinical Trial Protocol
Patent Owner moves to exclude documents relating
to IPR2017-01550 (Exs. 1032, 1035, 1037, 1041), and
a confidential Novartis clinical trial document
obtained during discovery (Ex. 1051). Paper 80, 7–10;
Paper 98, 3–4. Petitioners oppose. Paper 94, 7–8.
Because we do not rely on Exhibits 1032, 1035, 1037,
1041, or 1051 in our Decision, we deny this portion of
Patent Owner’s motion as moot.
iii. Dr. Chun’s Deposition and Related Exhibits
Patent Owner moves to exclude Exhibits 1055 and
1056, introduced at Dr. Chun’s deposition, as well as
certain of his responses to questions of fact and opinion
Petitioners posed at his deposition. Paper 80, 10–13;
Paper 97, 4–5. Petitioners oppose. Ex. 94, 9–13.
According to Patent Owner, Exhibits 1055 and 1056
relate to Phase II clinical trials in transplant patients
and are thus beyond the scope of Dr. Chun’s
declaration, which “was limited to reciting facts about
his Webb paper.” Paper 80, 11. Patent Owner further
argues, inter alia, that the introduction of Exhibits
1055 and 1056 was untimely, and that Dr. Chun, by
his own admission, lacked the expertise to interpret
clinical trial data. Id. at 12–13. Although Patent
Owner’s arguments may have some merit, we do not
rely on Exhibits 1055 and 1056 in our Decision.
Accordingly, we deny this portion of Patent Owner’s
motion as moot.

65a
iv. Dr. Jusko’s Deposition and Related Exhibits
Patent Owner moves to strike Exhibits 1057–1060,
introduced at Dr. Jusko’s Deposition, as well as his
responses to questions regarding them as “improper
impeachment and irrelevant.” Paper 80, 13–15;
Paper 97, 4–5. As Petitioners’ explain, the challenged
exhibits were introduced to test Dr. Jusko’s opinion
that a 75 kg patient would have been used to calculate
equivalent human dosages from animal data. Paper
94, 13–15. We agree with Petitioners that this is
sufficient reason to introduce Exhibits 1057–1060.
Accordingly, we deny Patent Owner’s motion with
respect to Exhibits 1057–1060 and related testimony,
and have considered this information in our analysis.
D. Patent Owner’s Supplemental Motion to
Exclude
Patent Owner filed a supplemental motion to
exclude evidence (Paper 102); Petitioners opposed
(Paper 101); and Patent Owner submitted a reply in
support of its supplemental motion to exclude (Paper
103). Patent Owner’s motion relates to Exhibits 1065–
1069, submitted in support of Petitioners’ sur-reply to
Patent Owner’s motion to amend. See Paper 102, 1.
Because we do not reach the parties’ arguments with
respect to Patent Owner’s motion to amend, or otherwise rely on Exhibits 1065–1069, we deny Patent
Owner’s motion to exclude these exhibits as moot.
E. Stipulated Protective Order and Motions to
Seal
i. Paper 29
In Paper 29, Patent Owner moves for entry of a
Stipulated Protective Order (Exhibit 2074), which
“differs from the Default Protective Order by addition

66a
of a category of confidential material to be marked
“OUTSIDE ATTORNEY’S EYES ONLY – PROTECTIVE ORDER MATERIAL,” and that “[a]ccess to such
material is restricted to outside counsel, experts, one
in-house counsel of a party, and support personnel.”
Paper 29, 2; see also Ex. 2074 (redlined version of the
Default Protective Order showing changes). Patent
Owner avers that lead Petitioner Apotex agrees to the
entry of the stipulated protective order and that “[a]n
identical protective order was entered by a similarly
constituted panel of the Board in Torrent Pharms. Ltd.
et al v. Novartis AG et al, IPR2014-00784, Paper 41
(May 7, 2015).” Id. at 2–3. The record does not indicate
that any other Petitioner objects to the entry of the
proposed Stipulated Protective Order. To the contrary,
Petitioners collectively submit motions to seal under
the Stipulated Protective Order and, thus, acquiesce
to its entry. See Papers 36, 37, 50, 83, and 99.
Upon review of the motion, we determine that
Patent Owner has identified sufficiently how the
proposed Stipulated Protective Order departs from the
Board’s default protective order set forth in the Office
Patent Trial Practice Guide, 77 Fed. Reg. 48756,
48769–71 (Aug. 14, 2012). We further find that good
cause exists for the proposed modifications from the
Board’s default protective order and that the proposed
Stipulated Protective Order is warranted. Accordingly, we grant Patent Owner’s unopposed motion for
entry of a Stipulated Protective Order (Exhibit 2074).
We also address the parties’ motions to seal. Papers
29, 37 (by Patent Owner); Papers 36, 50, 83, 99 (by
Petitioner). Relevant to these motions, the Office
Patent Trial Practice Guide states:
3. A party intending a document or thing to
be sealed may file a motion to seal concurrent

67a
with the filing of the document or thing. §
42.14. The document or thing will be
provisionally sealed on receipt of the motion
and remain so pending the outcome of the
decision on motion.
4. Protective Orders: A party may file a
motion to seal where the motion contains a
proposed protective order, such as the default
protective order in Appendix B. § 42.54.
Specifically, protective orders may be issued
for good cause by the Board to protect a party
from disclosing confidential information.
§ 42.54. Guidelines on proposing a protective
order in a motion to seal, including a
Standing Protective Order, are provided in
Appendix B. The document or thing will be
protected on receipt of the motion and remain
so, pending the outcome of the decision on
motion.
Office Patent Trial Practice Guide, 77 Fed. Reg.
48,756, 48,760 (Aug. 14, 2012).
“There is a strong public policy for making all
information filed in a quasi-judicial administrative
proceeding open to the public, especially in an inter
partes review which determines the patentability of
claims in an issued patent and therefore affects the
rights of the public.” Garmin Int’l v. Cuozzo Speed
Techs., LLC, IPR2012–00001, slip op. at 1–2 (PTAB
Mar. 14, 2013) (Paper 34). For this reason, except as
otherwise ordered, the record of an inter partes review
trial shall be made available to the public. See 35
U.S.C. § 316(a)(1); 37 C.F.R. § 42.14. Motions to seal
may be granted for good cause; until the motion is
decided, documents filed with the motion shall be
sealed provisionally. See 37 C.F.R. §§ 42.14, 42.54(a).

68a
The moving party bears the burden of showing that
there is good cause to seal the record. See 37 C.F.R.
§ 42.20(c).
As set forth in the Board’s Trial Practice Guide,
confidential information that is sealed subject to a
protective order ordinarily will become public 45 days
after final judgment in a trial. Office Patent Trial
Practice Guide, 77 Fed. Reg. 48,756, 48,761 (Aug. 14,
2012). A party seeking to maintain confidentiality of
information may file a motion to expunge the
information before it becomes public; however, if the
existence of the information is identified in a final
written decision following trial, there is an expectation
that the information will be made public. Id. This rule
“balances the needs of the parties to submit
confidential information with the public interest in
maintaining a complete and understandable file
history for public notice purposes.” Id.
Under the Board’s procedures, there is an
expectation that all exhibits, including those filed
under seal here, will be made part of the public record.
Furthermore, the public’s interest in understanding
the basis for our decision on patentability means that
any good cause alleged in a motion to seal must
overcome this heightened public interest. Confidential
information that is subject to a protective order
ordinarily becomes public 45 days after final judgment
in a trial. A party seeking to maintain the confidentiality of the information may file a motion to expunge the
information from the record prior to the information
becoming public. 37 C.F.R. § 42.56.
In Paper 29, Patent Owner moves to seal Exhibits
2057 and 2063– 2066. According to Patent Owner,

69a
Exhibits 2063-66 represent confidential communications with the FDA and/or disclose
proprietary information regarding the design
and execution of Novartis clinical trials.
Novartis holds the information contained in
these exhibits as confidential and takes precaution to prevent their distribution. Additionally, at least Exhibit 2057 contains
redactions of specific personal information
that is subject to Swiss Privacy Law and may
not be distributed outside of Novartis. As a
result, public disclosure of these documents
could cause competitive business harm and
good cause exists to seal them.
Paper 29, 3. We find that Patent Owner has satisfied
the good cause requirement with respect to Exhibits
2057 and 2063–2066. Because we do not rely on these
exhibits in our Decision, Patent Owner’s desire to keep
these documents confidential is not outweighed by the
public interest in maintaining a complete and understandable record of these proceedings. Accordingly, we
grant Patent Owner’s motion with respect to Exhibits
2057 and 2063–2066.
Patent Owner further seeks to seal “portions of the
Patent Owner’s Response [Paper 26] and accompanying declarations of Lawrence Steinman (Ex. 2022),
William Jusko (Ex. 2024), Fred Lublin (Ex. 2025), and
Christian Schnell (Ex. 2026) containing substantive
reference to the above exhibits.” Paper 29, 4. Patent
Owner does not otherwise identify the portions of
those documents subject to its motion. We note,
however, that Patent Owner has filed redacted versions of these documents. Accordingly, we grant Patent
Owner’s request on condition that, within 10 business
days of this Decision, Patent Owner certify that the

70a
redacted versions of the documents on file, or in the
alternative, replacement copies thereof, comport with
the grant or denial of any motion to seal in this
proceeding.
ii. Paper 37
In Paper 37, Patent Owner moves to seal Paper 38,
the unredacted version of its Brief in Opposition to
Additional Discovery and unredacted versions of
Exhibits 1042 and 1043, submitted by Petitioners.
Considering the nature of these documents, and that
we do not rely on this information in our Decision,
Patent Owner has sufficiently shown good cause for
granting this request.
iii. Paper 36
As we understand Paper 36, Petitioners move to seal
the unredacted versions of Exhibits 1042 and 1043 and
the entirety of Exhibits 1044 and 1045 because Patent
Owner has designated each of these documents confidential subject to the Stipulated Protective Order. We
do not discern that Patent Owner joins the motion.
As set forth above, we grant Patent Owner’s motion
to seal with respect to Exhibits 1042 and 1043,
rendering Petitioners’ request moot with respect to
these Exhibits. With respect to Exhibits 1044 and
1045, because the subject information may be confidential to Patent Owner rather than Petitioner, we
deny the request. To the extent any of this information
is not substantively relied on in the final written
decision, Patent Owner may file its own motion to seal
within 10 business days of this Decision.

71a
iv. Paper 50
As we understand Paper 50, Petitioners move to seal
their Reply to Patent Owner’s Response (Paper 49),
the unredacted version of Exhibits 1047, and the
entirety of Exhibits 1050 and 1051 because Patent
Owner has designated such information confidential
subject to the Stipulated Protective Order. We do not
discern that Patent Owner joins the motion. Because
the subject information may be confidential to Patent
Owner rather than Petitioner, we deny the request. To
the extent any of this information is not substantively
relied on in the final written decision, Patent Owner
may file its own motion to seal within 10 business days
of this Decision.
v. Paper 83
As we understand Paper 83, Petitioners move to seal
their Motion to Exclude (Paper 82) because Patent
Owner has designated such information confidential
subject to the Stipulated Protective Order. We do not
discern that Patent Owner joins the motion. Because
the subject information may be confidential to Patent
Owner rather than Petitioner, we deny the request. To
the extent any of this information is not substantively
relied on in the final written decision, Patent Owner
may file its own motion to seal within 10 business days
of this Decision.
vi. Paper 99
As we understand Paper 83, Petitioners move to seal
their Reply in Support of Motion to Exclude (Paper 98)
because Patent Owner has designated such information confidential subject to the Stipulated Protective Order. We do not discern that Patent Owner joins
the motion. Because the subject information may be

72a
confidential to Patent Owner rather than Petitioner,
we deny the request. To the extent any of this
information is not substantively relied on in the final
written decision, Patent Owner may file its own
motion to seal within 10 business days of this Decision.
IV. CONCLUSION
Having weighed Petitioners’ arguments and evidence as to the challenged claims against Patent
Owner’s countervailing arguments and evidence, we
determine that Petitioners have not established by a
preponderance of the evidence the unpatentability of
claims 1–6 of the ’405 Patent.
V. ORDER
For the above reasons, it is
ORDERED that claims 1–6 of the ’405 Patent have
not been shown to be unpatentable as obvious under
35 U.S.C. § 103 over Kovarik and Thomson;
FURTHER ORDERED that claims 1–6 of the ’405
Patent have not been shown to be unpatentable as
obvious under 35 U.S.C. § 103 over Chiba, Kappos
2005, and Budde;
FURTHER ORDERED that claims 1–6 of the ’405
Patent have not been shown to be unpatentable as
anticipated under 35 U.S.C. § 102 over Kappos 2010;
FURTHER ORDERED that Patent Owner’s Corrected Contingent Motion to Amend (Paper 61) is
denied as moot;
FURTHER ORDERED that Petitioners’ motion to
exclude Exhibits 2057 and 2070, and expert testimony
relying on Exhibit 2057 (Paper 82) is denied as moot;

73a
FURTHER—ORDERED that Petitioners’ motion to
exclude Exhibits 2063–2066 and expert testimony
relying thereon (Paper 82) is denied as moot;
FURTHER ORDERED that Petitioners’ motion to
exclude Exhibit 2098 and paragraphs 28, 31–34 of
Exhibit 2096 (Paper 82) is denied;
FURTHER ORDERED that Patent Owner’s motion
to exclude Exhibit 1003 and all or part of Exhibit 1002
(Paper 80) is denied;
FURTHER ORDERED that Patent Owner’s motion
to exclude Exhibits 1032, 1035, 1037, 1041, 1051
(Paper 80) is denied as moot;
FURTHER ORDERED that Patent Owner’s motion
to exclude Exhibits 1055, 1056, and portions of Exhibit
1063 (Paper 80) is denied as moot;
FURTHER ORDERED that Patent Owner’s motion
to exclude Exhibits 1057–1060 and portions of Exhibit
2095 (Paper 80) is denied;
FURTHER ORDERED that Patent Owner’s motion
to exclude Exhibits 1065–1069 (Paper 102) is denied
as moot;
FURTHER ORDERED that Patent Owner’s motion
for entry of a Stipulated Protective Order (Paper 29) is
granted;
FURTHER ORDERED that the Stipulated
Protective Order (Exhibit 2074) is hereby entered and
shall govern the conduct of this proceeding unless
otherwise modified by the Board;
FURTHER ORDERED that Patent Owner’s motion
to seal Exhibits 2057 and 2063–2066 (Paper 29) is
granted. Patent Owner’s further request to seal
related portions of Paper 26 and Exhibits 2022, 2025
and 2026 is provisionally granted on condition that,

74a
within 10 business days of this Decision, Patent
Owner certify that the redacted versions of the
documents on file, or in the alternative, replacement
copies thereof, comport with the grant or denial of any
motion to seal in this proceeding;
FURTHER ORDERED that Patent Owner’s motion
to seal Paper 38, the unredacted version of its Brief in
Opposition to Additional Discovery and unredacted
versions of Exhibits 1042 and 1043 (Paper 37) is
granted;
FURTHER ORDERED that Petitioners’ motion to
seal the unredacted versions of Exhibits 1042, 1043,
and the entirety of Exhibits 1044 and 1045 (Paper 36)
is denied. To the extent any of this information is not
substantively relied on in the final written decision,
Patent Owner may file its own motion to seal within
10 business days of this Decision.
FURTHER ORDERED that Petitioners’ motion to
seal their Motion to Exclude (Paper 82) is denied. To
the extent any of this information is not substantively
relied on in the final written decision, Patent Owner
may file its own motion to seal within 10 business days
of this Decision.
FURTHER ORDERED that, because this is a final
written decision, parties to this proceeding seeking
judicial review of our Decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.
PETITIONER APOTEX INC. and APOTEX CORP:
Steven Parmelee
sparmelee@wsgr.com
Michael Rosato
mrosato@wsgr.com
Jad Mills
jmills@wsgr.com

75a
PETITIONER ARGENTUM PHARMACEUTICALS
LLC:
Teresa Rea
trea@crowell.com
Deborah Yellin
dyellin@crowell.com
Shannon Lentz
slentz@crowell.com
Tyler Liu
tliu@agpharm.com
PETITIONER TEVA PHARMACEUTICALS USA,
INC. and ACTAVIS ELIZABETH LLC:
Amanda Hollis
Amanda.hollis@kirkland.com
Eugene Goryunov
egoryunov@kirkland.com
Gregory Springsted
greg.springsted@kirkland.com
PETITIONER SUN PHARMACEUTICAL
INDUSTRIES, LTD., SUN PHARMACEUTICAL
INDUSTRIES, INC., and SUN PHARMA GLOBAL
FZE:
Samuel Park
spark@winston.com
Charles B. Klein
CKlein@winston.com
PATENT OWNER:
Jane Love
jlove@gibsondunn.com
Robert W. Trenchard
rtrenchard@gibsondunn.com

76a
APPENDIX E
Trials@uspto.gov
571-272-7822

Paper 10
Entered: August 9, 2017

UNITED STATES PATENT AND
TRADEMARK OFFICE
————
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
————
Case IPR2017-01550
Patent 9,187,405 B2
————
ARGENTUM PHARMACEUTICALS LLC.,
Petitioner,

v.
NOVARTIS AG,

Patent Owner.
————
Before LORA M. GREEN, CHRISTOPHER M. KAISER, and
ROBERT A. POLLOCK, Administrative Patent Judges.
POLLOCK, Administrative Patent Judge.
————
DECISION
Instituting Inter Partes Review and
Granting Motion for Joinder
37 C.F.R. § 42.108; 37 C.F.R. § 42.122(b)
————

77a
I. INTRODUCTION
Argentum Pharmaceuticals LLC (“Argentum”) filed
a Petition requesting an inter partes review of claims
1–6 of U.S. Patent No. 9,187,405 B2 (“the ’405
patent”). Paper 1 (“Pet.”). Along with the Petition,
Argentum filed a Motion for Joinder to join this
proceeding with IPR2017-00854. Paper 3 (“Mot.”).
Argentum filed the Petition and Motion for Joinder in
the present proceeding on June 9, 2017, within one
month after we instituted trial in IPR2017-00854.
Novartis AG, (“Novartis”) has not filed a Preliminary
Response to the Petition, and any such response would
have been due September 16, 2017.
As explained further below, we institute trial on the
same grounds as instituted in IPR2017-00854 and
grant Argentum’s Motion for Joinder.
II. DISCUSSION
In IPR2017-00854, Apotex, Inc. and Apotex Corp.
(“Apotex”) challenged claims 1–6 of the ’405 Patent on
the following grounds:

78a
Ground Claims References

Basis

1

1–6

Kovarik1 and Thomson

§ 103

2

1–6

Chiba,2 Kappos 2005,3 and
Budde4

§ 103

3

1–6

Kappos 20105

§ 102

After considering the Petition and Patent Owner’s
Preliminary Response, we instituted trial in IPR201700854 on each of the three asserted grounds. IPR201700854, Paper 11, 27.
Argentum’s Petition in the instant matter is substantively identical to Apotex’s Petition, challenging
the same claims based on the same art and the same
grounds. Compare IPR2017-01550, Paper 1, with
IPR2017-00854, Paper 2. For the reasons stated in our
Decision on Institution in IPR2017-00854, we institute
trial in this proceeding on the same three grounds.
Having determined that institution is appropriate,
we now turn to Argentum’s Motion for Joinder. 35
U.S.C. § 315(c). Section 315(c) provides, in relevant
1

Kovarik and Appel-Dingemanse, WO 2006/058316, published June 1, 2006.
2

Chiba et al., US 6,004,565, issued Dec. 21, 1999. Ex. 1006.

3

Kappos et al., “FTY720 in Relapsing MS: Results of a DoubleBlind Placebo-Controlled Trial with a Novel Oral Immunomodulator,” 252 (Suppl 2) J. NEUROLOGY Abstract O141 (2005).
4

Budde, et al., “First Human Trial of FTY720, a Novel
Immunomodulator, in Stable Renal Transplant Patients,” 13 J.
AM. SOC. NEPHROLOGY 1073-1083 (2002).
5

Kappos et al., “A Placebo-Controlled Trial of Oral Fingolimod
in Relapsing Multiple Sclerosis,” 362(5) N. Engl. J. Med. 387–401.

79a
part, that “[i]f the Director institutes an inter partes
review, the Director, in his or her discretion, may join
as a party to that inter partes review any person who
properly files a petition under section 311.” Id. When
determining whether to grant a motion for joinder we
consider factors such as timing and impact of joinder
on the trial schedule, cost, discovery, and potential
simplification of briefing. Kyocera Corp. v. SoftView,
LLC, Case IPR2013-00004, slip op. at 4 (PTAB Apr.
24, 2013) (Paper 15).
Under the circumstances of this case, we determine
that joinder is appropriate. Argentum raises no new
grounds of unpatentability from IPR2017-00854 and
contends that there will be no impact on the trial
schedule previously set in that case. Mot. 5–6; see
IPR2017-00854, Paper 12. As Argentum notes, the
Petition in IPR2017-00854 is substantively identical
to the grounds, analysis, exhibits,6 and expert declarations relied on in the instant proceeding. Mot. 2, 4, 5.
Argentum agrees “to coordinate with Apotex regarding
questioning at depositions and at the oral hearing,
which will not exceed the time allotted by the rules for
one party, or as otherwise agreed between Apotex and
Patent Owner or as ordered by the Board,” and invites
the Board to adopt procedures similar to those used in
other joinder cases, such as requiring Petitioners to
make consolidated filings, for which Apotex is responsible. Id. at 6–7.
Argentum represents that Apotex does not opposed
Argentum’s Motion for Joinder. Id. at 3. By email to
6

Argentum notes that it has “added one additional exhibit
(EX1041) which is a copy of the Federal Circuit Decision of April
12, 2017 affirming the Final Written Decision in IPR2014-00784,
an IPR related to the present proceeding.” Mot., 2–3.

80a
the Board dated August 4, 2017, counsel for Novartis
represents that, 1) Novartis does not object to the
Motion for Joinder; 2) Argentum has agreed not to
pursue any arguments or make any filings separate
from those made by Apotex; and 3) that Novartis will
not submit a Preliminary Response in IPR2017-01550,
and “instead will proceed with a Patent Owner
Response to the Petitions in both IPRs simultaneously.” Ex. 3001.
In view of the foregoing, we find that joinder based
upon the conditions stated in Argentum’s Motion for
Joinder and Novartis’ August 4 email will have little
or no impact on the timing, cost, or presentation of the
trial on the instituted grounds. Moreover, discovery
and briefing will be simplified if the proceedings are
joined. Thus, without opposition to the Motion for
Joinder from any of the parties, the Motion is granted.
III. ORDER
Accordingly, it is
ORDERED that inter partes review is instituted in
IPR2017-01550 on the following grounds:
Claims 1–6 under 35 U.S.C. § 103 as unpatentable over the combination of Kovarik and
Thomson;
Claims 1–6 under 35 U.S.C. § 103 as unpatentable over the combination of Chiba, Kappos
2005, and Budde;
Claims 1–6 under 35 U.S.C. § 102 as anticipated by Kappos 2010.
FURTHER ORDERED that Argentum’s Motion for
Joinder with IPR2017-00854 is granted;

81a
FURTHER ORDERED that IPR2017-01550 is terminated and joined to IPR2015-00854, pursuant to 37
C.F.R. §§ 42.72, 42.122, based on the conditions
discussed above;
FURTHER ORDERED that the Scheduling Order in
place for IPR2017-00854 (Paper 12) shall govern the
joined proceedings;
FURTHER ORDERED that all future filings in the
joined proceeding shall be made only in IPR201700854;
FURTHER ORDERED that the case caption in
IPR2017-00854 for all further submissions shall be
changed to add Argentum as a named Petitioner after
Apotex, and to indicate by footnote the joinder of
IPR2017-01550 to that proceeding, as indicated in the
attached sample case caption;
FURTHER ORDERED that a copy of this Decision
shall be entered into the record of IPR2017-00854.
FOR PETITIONER ARGENTUM:
Teresa Stanek Rea
Deborah H. Yellin
Shannon M. Lentz
CROWELL & MORING LLP
TRea@Crowell.com
DYellin@crowell.com
SLentz@Crowell.com
Tyler C. Liu
ARGENTUM PHARMACEUTICALS, LLC
TLiu@agpharm.com

82a
FOR PATENT OWNER:
Jane M. Love
GIBSON, DUNN & CRUTCHER LLP
jlove@gibsondunn.com
FOR PETITIONER APOTEX (IPR2017-00854):
Steven W. Parmelee
Michael T. Rosato
Jad A. Mills
WILSON SONSINI GOODRICH & ROSATI
sparmelee@wsgr.com
mrosato@wsgr.com
jmills@wsgr.com

83a
IPR2017-01550
Patent 9,187,405 B2
Sample Case Caption
UNITED STATES PATENT AND TRADEMARK
OFFICE BEFORE THE PATENT TRIAL AND
APPEAL BOARD
————
APOTEX INC., APOTEX CORP., and
ARGENTUM PHARMACEUTICALS LLC,
Petitioners,
v.
NOVARTIS AG.,
Patent Owner.
————
Case IPR2017-008547
Patent 9,187,405 B2
————

7

Case IPR2017-01550 has been joined with this proceeding.

84a
APPENDIX F
Trials@uspto.gov
571-272-7822

Paper 11
Entered: July 18, 2017

UNITED STATES PATENT AND
TRADEMARK OFFICE
————
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
————
Case IPR2017-00854
Patent US 9,187,405 B2
————
APOTEX INC. and APOTEX CORP.,
Petitioner,
v.
NOVARTIS AG,
Patent Owner.
————
Before LORA M. GREEN, CHRISTOPHER M. KAISER, and
ROBERT A. POLLOCK, Administrative Patent Judges.
POLLOCK, Administrative Patent Judge.
————
DECISION
Instituting Inter Partes Review 37 C.F.R. § 42.108
————

85a
I. INTRODUCTION
Apotex Inc. and Apotex Corp. (“Apotex” or “Petitioner”) filed a Petition requesting an inter partes
review of claims 1–6 of U.S. Patent No. US 9,187,405
B2 (Ex. 1001, “the ’405 patent”). Paper 2 (“Pet.”).
Novartis AG, (“Novartis” or “Patent Owner”) filed a
Preliminary Response to the Petition. Paper 8 (“Prelim. Resp.”).
Institution of an inter partes review is authorized by
statute when “the information presented in the
petition . . . and any response . . . shows that there is a
reasonable likelihood that the petitioner would prevail
with respect to at least 1 of the claims challenged in
the petition.” 35 U.S.C. § 314; see 37 C.F.R. §§ 42.4,
42.108. Upon considering the Petition, we determine
that Petitioner has shown a reasonable likelihood that
it would prevail in showing the unpatentability of at
least one challenged claim. Accordingly, we institute
an inter partes review of claims 1–6 of the ’405 patent.
A. Related Proceedings
According to Patent Owner, there are no other
judicial or administrative matters that would affect, or
be affected by, a decision in this proceeding. Paper 4,
2. Petitioner, however, notes that in IPR2014-00784,
the Board issued a Final Written Decision relating to
U.S. Patent No. 8,324,283 B2, and that “[a]lthough not
from the same patent family as the ’405 patent, the
’283 patent included claims to pharmaceutical compositions of fingolimod, or a pharmaceutically acceptable
salt thereof, that is suitable for oral administration, as
well as claims directed to the treatment of multiple
sclerosis using S1P receptor agonists.” Pet. 20.

86a
B. The ‘405 Patent and Relevant Background
The ’405 Patent, entitled “S1P Receptor Modulators
for Treating Relapsing-Remitting Multiple Sclerosis,”
issued to Peter C. Hiestand and Christian Schnell
from U.S. Application No. 14/257,342 (“the ’342
application”), filed April 21, 2014. Ex. 1001, at [21],
[60], [71], [72]. The ’342 application is a divisional of
Application No. 13/149,468 (“the ’468 application”)
(now U.S. Pat. No. 8,741,963). Id. at [60]. The ’468
application, in turn, is a continuation of Application
No. 12/303,765 (“the ’765 application.”), which is the
U.S. entry of PCT/EP2007/005597, filed June 25, 2007.
Id.; Ex. 1009, 21, 40. PCT/EP2007/005597 claims priority to foreign application GB0612721.1 (Ex. 1012),
filed on June 27, 2006. Ex. 1001, at [30]; see Ex. 1009,
57–58.
The instant “invention relates to the use of an S1P1
receptor modulator in the treatment or prevention of
neo-angiogenesis associated with a demyelinating
disease, e.g. multiple sclerosis.” Ex. 1001, 1:5-8.
“Characteristic pathological features of demyelinating
diseases include inflammation, demyelination and
axonal and oligodendrocyte loss. In addition[,] lesions
can also have a significant vascular component. A firm
link has recently been established between chronic
inflammation and angiogenesis and neovascularization seems to have a significant role in the progression
of disease.” Id. at 9:6–12. According to the inventors,
“[i]t has now been found that S1P receptor modulators
have an inhibitory effect on neo-angiogenesis associated with demyelinating diseases, e.g. [multiple sclerosis].” Id. at 9:13–15.
1

S1P refers to sphingosine-1 phosphate, a natural serum
lipid. Ex. 1001, 1:13–14.

87a
“Multiple sclerosis (MS) is an immune-mediated
disease of the central nervous system with chronic
inflammatory demyelination leading to progressive
decline of motor and sensory functions and permanent
disability.” Ex. 1001, 8:61–64. The inventors state that
S1P receptor agonists or modulators may be useful in
the treatment of MS, including the Relapsing-Remitting
MS (RR-MS) form, which accounts for 85% of patients’
initial experience with the disease and is the precursor
to the more debilitating Secondary-Progressive form
(SPMS). Id. at 9:64–10:21; see also id. at 10:3–5
(noting that within 10 years of onset about half of RRMS patients will develop SPMS); Ex. 1005,2 159–60,
Fig. 1 (discussing the pathophysiology, classification,
and clinical course of MS).
“S1P receptor agonists or modulators are known
as having immunosuppressive properties or antiangiogenic properties in the treatment of tumors. . . .”
Ex. 1001, 8:56–60. Preferred compounds stimulate
lymphocyte homing, thereby “elicit[ing] a lymphopenia
resulting from a re-distribution, preferably reversible,
of lymphocytes from circulation to secondary lymphatic tissue, without evoking a generalized immunosuppression.” Id. at 2:17–23. “A particularly preferred
S1P receptor agonist . . . is FTY720, i.e., 2-amino-2-[2(4-octyphenyl)ethyl] propane-1,3-diol. . . .” Id. at 8:17–
30. This compound, also known as fingolimod, is the
active ingredient in Novartis’s Gilenya product
(fingolimod hydrochloride) approved for the treatment
of RR-MS. See id. at 9:64– 10:16; Pet. 62; Prelim. Resp.
1.

2

Thomson, “FTY720 in Multiple Sclerosis: The Emerging
Evidence of its Therapeutic Value,” 1(3) CORE EVIDENCE 157-167
(2006). Ex. 1005.

C.

88a
Challenged Claims

Illustrative claim 3 recites (paragraphing added):
3. A method for treating Relapsing-Remitting
multiple sclerosis in a subject in need thereof,
comprising
orally administering to said subject 2-amino-2[2-(4- octylphenyl)ethyl]propane-1,3-diol, in
free form or in a pharmaceutically acceptable salt form,
at a daily dosage of 0.5 mg,
absent an immediately preceding loading
dose regimen.
The remaining independent claims differ only in the
language of the preamble, such that the “treating”
language of claim 3 is replaced with “reducing or
preventing or alleviating relapses” (claim 1) or
“slowing progression” of RR-MS (claim 5).
Depending from claims 1, 3, and 5, respectively,
claims 2, 4, and 6 specify that the 2-amino-2-[2-(4octylphenyl)ethyl]propane-1,3-diol is the hydrochloride salt form—i.e., fingolimod hydrochloride.

89a
C. The Asserted Prior art and Grounds of
Unpatentability
Petitioner asserts the
unpatentability (Pet. 21):

following

grounds

Ground Claims References

of

Basis

1

1–6

Kovarik3 and Thomson

§ 103

2

1–6

Chiba,4 Kappos 2005,5 and
Budde6

§ 103

3

1–6

Kappos 20107

§ 103

Petitioner further relies on the testimony of Barbara
S. Giesser, M.D. (Ex. 1002). Patent Owner relies on the
testimony of Fred D. Lublin, M.D. (Ex. 2003) and
William J. Jusko, Ph.D. (Ex. 2005).
II. ANALYSIS
To anticipate a claim under 35 U.S.C. § 102, “a
single prior art reference must expressly or inherently
disclose each claim limitation.” Finisar Corp. v.
DirecTV Group, Inc., 523 F.3d 1323, 1334 (Fed. Cir.
3

Kovarik and Appel-Dingemanse, WO 2006/058316, published June 1, 2006. Ex. 1004.
4

Chiba et al., US 6,004,565, issued Dec. 21, 1999. Ex. 1006.

5

Kappos et al., “FTY720 in Relapsing MS: Results of a DoubleBlind Placebo-Controlled Trial with a Novel Oral Immunomodulator,” 252 (Suppl 2) J. NEUROLOGY Abstract O141 (2005).
Ex. 1007.
6

Budde, et al., “First Human Trial of FTY720, a Novel
Immunomodulator, in Stable Renal Transplant Patients,” 13 J.
AM. SOC. NEPHROLOGY 1073-1083 (2002). Ex. 1008.
7

Kappos et al., “A Placebo-Controlled Trial of Oral Fingolimod in Relapsing Multiple Sclerosis,” 362(5) N. Engl. J. Med.
387–401.

90a
2008). That “single reference must describe the
claimed invention with sufficient precision and detail
to establish that the subject matter existed in the prior
art.” Verve, LLC v. Crane Cams, Inc., 311 F.3d 1116,
1120 (Fed. Cir. 2002).
A claim is unpatentable under 35 U.S.C. § 103(a) if
the differences between the subject matter sought to
be patented and the prior art are such that the subject
matter as a whole would have been obvious at the time
the invention was made to a person having ordinary
skill in the art to which that subject matter pertains.
KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007).
In analyzing the obviousness of a combination of prior
art elements, it can be important to identify a reason
that would have prompted one of skill in the art to
combine the elements in the way the claimed invention does. Id.
A precise teaching directed to the specific subject
matter of a challenged claim is not necessary to
establish obviousness. Id. Rather, “any need or problem known in the field of endeavor at the time of
invention and addressed by the patent can provide a
reason for combining the elements in the manner
claimed.” Id. at 420. Accordingly, a party that petitions
the Board for a determination of unpatentability based
on obviousness must show that “a skilled artisan
would have been motivated to combine the teachings
of the prior art references to achieve the claimed
invention, and that the skilled artisan would have had
a reasonable expectation of success in doing so.”
Warsaw Orthopedic, Inc., 832 F.3d 1327, 1333 (Fed.
Cir. 2016) (“As part of the obviousness inquiry, we
consider ‘whether a [PHOSITA] would have been
motivated to combine the prior art to achieve the
claimed invention and whether there would have been

91a
a reasonable expectation of success in doing so.’”
(quoting DyStar Textilfarben GmbH & Co. Deutschland
KG v. C.H. Patrick Co., 464 F.3d 1356, 1360 (Fed. Cir.
2006)).
A. Person of Ordinary Skill in the Art.
Petitioner contends that a person of ordinary skill in
the art as of the date of the invention
would typically include a person with a medical degree (M.D.) and several years of experience treating multiple sclerosis patients. . . .
would be familiar with administering therapeutic agents for the treatment of multiple
sclerosis, including RR-MS, and dosing regimens of the various therapeutic agents
available for treating RR-MS. . . . [and] would
be knowledgeable about the multiple sclerosis
medical literature available at the relevant
time.
Pet. 18–19 (citations to Ex. 1002 ¶¶ 39–40 omitted).
This is consistent with the definition offered during
prosecution that, “[t]he relative skill of those in the art
is high, generally that of an M.D. or Ph.D. with
expertise in the area of neurology.” Ex. 1009, 13.
Further, in focusing on the MS disease state and the
conduct of a prophetic clinical trial of fingolimod
(“Compound A”) in treating RR-MS, the Specification
suggests that one of ordinary skill in the art would
possess a medical or related doctoral degree and have
experience in the field of MS treatment and clinical
research. See, e.g., Ex. 1001, 8:61–9:12, 9:64–10:16,
11:4–12:13.
In the Preliminary Response, however, Patent
Owner contends that Apotex’s proposed definition “is
plainly incorrect” because “a person of skill in other

92a
dosing patent cases almost always includes a pharmacologist,” the ’405 Patent and relevant references
include pharmacologists as “essential contributing
authors,” and “[p]harmacologists would have to interpret that data before reaching any conclusions about
the obviousness of a 0.5 mg daily dose.” Prelim. Resp.
39–43.
In the context of the ’405 patent and prior art, we
agree with Patent Owner that expertise in pharmacology may be useful in determining obviousness, particularly in light of the prior art proffered in the
Preliminarily Response. See id. at 41–43; see also
Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir.
2001) (the level of ordinary skill in the art may be
evident from the prior art). This is not to say that a
person of ordinary skill in the art would lack an M.D.
degree, other related doctoral degree, or expertise in
the treatment of multiple sclerosis. Accordingly, we do
not consider this a binary choice. To the contrary,
courts and tribunals have frequently identified the
hypothetical person of ordinary skill as a composite or
team of individuals with complementary backgrounds
and skills. See, e.g., AstraZeneca Pharm. LP v. Anchen
Pharm., Inc., No. 10 CV-1835 JAP TJB, 2012 WL
1065458, at *19, *22 (D.N.J. Mar. 29, 2012), aff'd, 498
F. App’x 999 (Fed. Cir. 2013) (collecting cases); Merial,
Inc. v. Fidopharm Inc., IPR2016-01182, Paper 11 at 9
(PTAB Nov. 7, 2016). Indeed, Patent Owner relies on
one such case in which “a person of skill would be a
‘multi-member drug development team’ including in
the ‘pertinent art[s]’ of ‘pharmaceutical science,’ ‘clinical medicine,’ and formulation pharmaceuticals.’”
Prelim. Resp. 51 (citing Helsinn Healthcare S.A. v. Dr.
Reddy’s Labs. Ltd., No. CV 11-3962 (MLC), 2016 WL
832089, at *72 (D.N.J. Mar. 3, 2016) (reversed on other
grounds by Helsinn Healthcare S.A. v. Teva Pharm.

93a
USA, Inc., No. 2016-1284, 2017 WL 1541518 (Fed. Cir.
May 1, 2017)).
On the record before us, we find that one of ordinary
skill in the art may be part of a multi-disciplinary
research team including 1) a Ph.D. with expertise in
the area of neurology and/or an M.D. having several
years of clinical experience treating multiple sclerosis
patients, and who would be knowledgeable about the
multiple sclerosis medical literature, and 2) a
pharmacologist with experience in drug development.
Patent Owner addresses the definition of one of
ordinary skill in the art, at least in part, by asserting
that Petitioner’s expert, Dr. Giesser, is “a physician
without the necessary expertise to opine on what a
person of skill would have inferred from the prior art
as fingolimod’s dosing.” Prelim. Resp. 36. Although Dr.
Giesser appears to lack a formal degree in pharmacology, she does have extensive experience in the field of
medicine, particularly with respect to MS treatment
and clinical research. See generally Ex. 1002 ¶¶ 1–4;
Ex. 1003. In light of Dr. Giesser’s background and
experience in these areas, which would necessitate at
least some familiarity with pharmacological principles, we decline to dismiss her opinions on the ’405
Patent and relevant literature. See SEB S.A. v.
Montgomery Ward & Co., 594 F.3d 1360, 1373 (Fed.
Cir. 2010), aff’d sub nom. Glob.-Tech Appliances, Inc.
v. SEB S.A., 563 U.S. 754 (2011) (expert testimony
admissible where testimony established an “adequate
relationship” between witness’s experience and the
claimed invention). In determining the evidentiary
weight to be accorded to Dr. Giesser’s testimony, we
are cognizant of the fact that she lacks a formal degree
in pharmacology.

94a
B. Claim Construction
In an inter partes review, claim terms in an unexpired patent are interpreted according to their broadest reasonable construction in light of the specification
of the patent in which they appear. 37 C.F.R.
§ 42.100(b); Cuozzo Speed Techs., LLC v. Lee, 136 S.
Ct. 2131, 2144–46 (2016) (upholding the use of the
broadest reasonable interpretation standard). Under
that standard, we presume that a claim term carries
its “ordinary and customary meaning,” which “is the
meaning the term would have to a person of ordinary
skill in the art in question” at the time of the
invention. In re Translogic Tech., Inc., 504 F.3d 1249,
1257 (Fed. Cir. 2007).
The preambles of the independent claims recite
methods for “reducing or preventing or alleviating
relapses in” (claim 1), “treating” (claim 3), and “slowing progression of” (claim 5) RR-MS “in a subject in
need thereof.” This “subject in need thereof” is then
reflected in the body of each claim as it recites the step
of orally administering fingolimod “to said subject.”
Petitioner argues that the preambles of the independent claims should be accorded no patentable
weight as they “at most merely describe[] the intended
purpose of the method and that the subject receiving
fingolimod is a subject with RR-MS.” Pet. 24–25; Ex.
1002 ¶¶ 43–45. As we understand the argument,
Petitioner proposes that “said subject” is any subject
with RR-MS, as such persons inherently are, or will
be, “in need of a treatment that reduces, prevents or
alleviates relapses and slows the progression of RRMS.” Id. at 22–23; Ex. 1002 ¶¶ 43–45. Petitioner’s
argument, however, conflates the etiology and progression of multiple sclerosis with the plain language
of the claims. Thus, for example, Petitioner may be

95a
correct that because patients accrue neurologic disability with each relapse episode “an RR-MS patient is
in need of a treatment that reduces, prevents or
alleviates relapses and slows the progression of RRMS.” See Pet. 23. But Petitioner does not present
evidence that “reduc[ing], prevent[ing] or alleviat[ing]
relapses,” as set forth in claim 1, is necessarily the
same as the arguably broader language, “treating,”
recited in claim 3. See CAE Screen Plates, Inc. v.
Heinrich Fiedler GMBH & Co. KG, 224 F.3d 1308,
1317 (Fed. Cir. 2000) (“In the absence of any evidence
to the contrary, we must presume that the use of these
different terms in the claims connotes different
meanings.”).
In contrast to Petitioner’s position, Patent Owner
contends that the preambles of independent claims 1,
3, and 5, limit the scope the challenged claims. Prelim
Resp. 29–35. Relying on the testimony of its expert,
Dr. Lublin, Patent Owner presents evidence that “a
person of skill would not understand reducing
relapses, treating the disease, and slowing its progression to mean the same thing.” Id. at. 32–33 (relying on
Ex. 2003 ¶¶ 5–7, 43–55). As noted above, we do not
ascertain where Petitioner or Petitioner’s expert, Dr.
Giesser, argues that these terms are synonymous.
Patent Owner also points out that failing to accord
meaning to the differences in the preambles “would
eliminate any differences among claims 1–2, 3–4, and
5–6.” Id. at 30–31. On balance, we agree with Patent
Owner that the presumption against claim redundancy weighs against Petitioner’s proposed construction.
We also find persuasive Patent Owner’s argument
that the words in the preambles inform the scope of
“said subject” in the body of each claim. Prelim. Resp.

96a
29–35. In particular, the preambles of claims 1, 3 and
5:
provide[] an antecedent basis for terms used
in the body of each claim, specifying the needs
of the “subject” alluded to later. This is a classic example of the preamble defining a term—
the “subject in need” of certain effects—which
then is subsequently used in the body of the
claim—“to said subject.”
Id. at 34.
In accord with the above, at least for the purpose of
deciding whether to institute review, we find the
preambles of claims 1, 3, and 5 limiting, and accord the
ordinary and customary meaning to the claim language “reducing or preventing or alleviating relapses
in,” “treating,” and “slowing progression of” RR-MS “in
a subject in need thereof.” We further construe the
terms “reducing or preventing or alleviating relapses”
and “slowing progression” as subsumed within the
genus of “treating” RR-MS. No other claim term
requires express construction for purposes of this
Decision. Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc.,
200 F.3d 795, 803 (Fed. Cir. 1999).
C. Ground I: Obviousness of Claims 1–6 Over
Kovarik and Thomson
1. 35 U.S.C. § 325(d)
Petitioner challenges claims 1–6 under 35 U.S.C.
§ 103 as obvious in view of Kovarik and Thomson. Pet.
21, 32–48. Patent Owner opposes on the merits and
further requests that we reject this challenge under
§ 325(d). Prelim. Resp. 2–3, 21–36. With respect to the
latter, Patent Owner argues that the Board should not
“rehash” prosecution in this IPR because Applicants

97a
overcame a rejection based on Kovarik and Virley (a
reference allegedly interchangeable with Thomson).
See id. at 21–23.
Anticipating the § 325(d) argument, Petitioner
admits that Kovarik was substantively discussed
during prosecution but argues that, “Ground 1 provides new evidence and argument regarding the
obviousness of the challenged claims,” including Dr.
Giesser’s testimony that “several assertions made by
Applicants’ attorneys during prosecution to overcome
the rejection are incorrect.” Pet. 5–6; see Ex. 1002 ¶¶
27–30. Dr. Giesser testifies, for example, that
applicants state that the maintenance dose is
“dependent on the immediately preceding
loading dose.” EX1011 at 0034. However, this
is incorrect. As discussed more fully below in
Section VIII.E, maintenance doses are not
dependent on loading dose regimens. Rather
maintenance doses are dependent on the
desired steady state plasma concentration
and the clearance rate of the drug.
Ex. 1002 ¶ 28 (citations omitted).
Patent Owner attempts to provide context to those
statements, stating, for example, that Applicant’s
attorney, Dr. Holmes, “summarized Kovarik as teaching ‘that the daily dosage administered after the initial
period can vary substantially relative to the standard
daily dosage and is dependent on the immediately
preceding loading dose administered during the initial
phase.’” See, e.g., Prelim Resp. 25–26 (quoting Ex.
1001 ¶ 33). Nevertheless, on the present record, we
find Petitioner’s argument persuasive. Accordingly,
we decline to exercise our discretion to deny institution under § 325(d).

98a
2. Overview of Kovarik
Kovarik relates to an improved dosage regimen of
S1P receptor modulators or agonists for the treatment
of transplant patients suffering from autoimmune
diseases or disorders, including multiple sclerosis. Ex.
1004, 1, 14. Preferred S1P receptor modulators or agonists “elicit a lymphopenia resulting from a redistribution, preferably reversible, of lymphocytes
from circulation to secondary lymphatic tissue, without evoking a generalized immunosuppression.” Id. at
2. In a particularly preferred embodiment, the S1P
receptor agonist is FTY720 (i.e., fingolimod). Id. at 13.
Kovarik teaches that S1P receptor modulators or
agonists are used in combination with cyclosporine A
and everolimus in transplantation experiments and
“[d]ue to their immune-modulating potency . . . are
also useful for the treatment of inflammatory and
autoimmune diseases.” Id. at 1. According to Kovarik,
“[i]t has now surprisingly been found that a specific
dosage regimen, e.g. a loading dose, will provide
further unexpected benefits.” Id. In particular, an
“S1P receptor modulator or agonist . . . is administered
in such a way that during the initial 3 to 6 days . . . of
treatment the dosage of said S1P receptor modulator
or agonist is raised so that in total the R-fold (R being
the accumulation factor) standard daily dosage of said
S1P receptor modulator or agonist is administered and
thereafter the treatment is continued with the standard or a lower daily dosage. . . .” Id. at 13–14. “[T]he
standard daily dosage (also called maintenance dose)
refers to the dosage of an S1P receptor modulator or
agonist necessary for a steady-state trough blood level
of the medication or its active metabolite(s) providing
effective treatment.” Id. at 14.

99a
In one embodiment of the invention, a loading dose
of, e.g., 0.5 mg, 1 mg, 1.5 mg, or 2 mg fingolimod per
day is administered “during the initial period of four
days. Thereafter the treatment is continued with the
maintenance therapy, e.g. a daily dosage of 0[.]5 mg.”
Id. at 15.
3. Overview of Thomson
Thomson teaches that “[fingolimod] elicits lymphocyte sequestration by facilitating a reversible redistribution of lymphocytes from the circulation to
secondary lymphoid tissues. This is a unique immunomodulation mechanism whereby T lymphocytes are
effectively directed away from inflammatory sites
toward the lymphatic system.” Ex. 1005, 162; see also
id. at Abstract (“There is good evidence that FTY720
achieves immunomodulation as shown by a reversible
redistribution of peripheral blood lymphocytes after
oral administration.”). According to Thomson:
FTY720 has shown promising results in
preclinical models of EAE, which in part has
led to its clinical evaluation in multiple
sclerosis. There is moderate evidence from
two meeting abstracts of a phase II study that
FTY720 (administered orally once daily for
up to 12 months) improved the patientoriented outcomes of relapse rate and the
likelihood of remaining relapse-free. In addition, there is moderate evidence that diseaseoriented outcomes were also improved by
FTY720 in that inflammatory disease activity
(both new and existing) was reduced as
determined by MRI.
Id. at 166–167.

100a
In reviewing the emerging clinical evidence for
fingolimod as a treatment for multiple sclerosis,
Thomson reports that “[t]wo meeting abstracts have
been published showing results obtained with FTY720
in a 12-month phase II clinical trial in patients with
active relapsing multiple sclerosis.” Ex. 1005, Abstract.
These publications disclosed the benefits of fingolimod
as compared to placebo at doses of 1.25 and 5 mg per
day.8 See id. at 164–65, Table 4.
Thomson also reviews a number of shorter-term
clinical trials relating to pharmacodynamic and pharmacokinetic outcomes of fingolimod administration.
Id. at 162–164, Table 3. In one multi-dose study,
Thomson notes that “[p]eripheral blood lymphocyte
counts decreased from baseline to nadir (range 3–7 d
after first dose) by 80 and 88% in subjects receiving
FTY720 1.25 and 5 mg, respectively.” Id. at Table 3.
With respect to another study involving single doses
of 0.25, 0.5, 0.75, 1, 2, or 3.5 milligrams of FTY720,
Thomson states that “All FTY720 groups showed a
temporal pattern of relative lymphocyte sequestration, seen at the latest 6 h postdose. No clear dose
response, but the highest doses showed a more pronounced reduction in lymphocyte numbers.” Id.
(referencing, in part, Budde 2002 (Ex. 1008)); see also
id. at 163 (“Although the higher doses of FTY720 produced a more rapid and sustained lymphocyte
sequestration, the actual degree of this property was
similar across the range of doses used in the study and
no clear dose–response relationship was detected.”).
With respect to yet another study involving renal
transplant patients co-administered cyclosporine and
8

We note that one of the referenced studies is Kappos 2005
(Ex. 1007).

101a
0.25, 0.5, 1, or 2.5 mg doses of fingolimod for twelve
weeks, Thomson reports that “lymphocyte sequestration was seen as early as w 1, nadir was reached at w
4 and was fully reversed 4-8 w after cessation of
treatment. The pharmacodynamics were not doselinear over the 10-fold dose range.” Id. at Table 3; see
id. at 164.
4. Analysis of Ground I
In arguing that the challenged claims would have
been obvious over Kovarik and Thomson, Petitioner
states that “Kovarik discloses that the oral administration of a 0.5 mg daily dose of FTY720 provides
effective treatment of multiple sclerosis. . . .” Pet. 36;
see Ex. 1002 ¶¶ 119, 126. According to Petitioner:
A person of skill in that art would have read
Kovarik’s teachings as readily applicable to a
patient with the RR-MS form of the disease
because RR-MS is by far the most common
form of the disease at onset and accounts for
approximately 85% of cases. Also, a skilled
artisan would have known that inflammation
is the driver of relapses in RR-MS and that
fingolimod hydrochloride was taught to treat
MS by reducing inflammation through the
accelerated lymphocyte homing mechanism
taught by Kovarik.
Pet. 41–42 (internal citations omitted). Petitioner
further argues that, “Thomson provides additional
motivation to administer 0.5 mg FTY720 to a patient
with RR-MS . . . [by] present[ing] an array of evidence
supporting the efficacy of FTY720 in treating RR-MS
by reducing relapse rates and slowing progression of
RR-MS associated with inflammation.” Pet. 42 (citing
Ex. 1002, ¶ 109). According to Petitioner,

102a
[t]he skilled artisan would have had a reasonable expectation that the daily oral dose of
0.5 mg FTY720 taught by Kovarik would be
therapeutically effective for patients suffering from RR-MS because Thomson describes
clinical trials of FTY720 that tested doses in
the range of 0.25 mg to 3.5 mg, in which it was
found that “the actual degree of this property
[lymphopenia] was similar across the range of
doses used.”
Pet. 43 (citing Ex. 1005, 162–63; Ex. 1002 ¶¶ 112–13).
In response, Patent Owner contends that Kovarik
“indisputably mandates a loading dose, without
exception,” and therefore teaches away from a method
that excludes a loading dose as required by the
challenged claims. See Prelim. Resp. 23–28. However,
as noted above, Kovarik teaches one embodiment in
which 0.5 mg of fingolimod, nominally administered as
a “loading dose” for four days, is followed by
“maintenance therapy” at the same daily dose. Ex.
1004, 15. Further, based on the evidence of record, we
accept the testimony of Petitioner’s expert that “a
person of ordinary skill would recognize that the
loading dose regimen taught by Kovarik is not
necessary to obtain therapeutic efficacy,” but is merely
a means to achieve rapid, steady-state drug concentrations, which may be beneficial in organ transplantation, but was not standard practice in the treatment of
MS. See Ex. 1002 ¶¶ 67, 72, 119, 121–22. We further
note that Kovarik teaches that, whereas, a standard
daily dose (i.e., “maintenance dose”) provides a steadystate trough blood level of the drug or its active
metabolites for “effective treatment,” the addition of a
loading dose provides “further unexpected benefits.”
See Ex. 1004, 1, 14 (italics added). Kovarik, thus,

103a
teaches the addition of a loading dose as an improvement to fingolimod dosage regimes known in the art.
It, therefore, stands to reason that one of ordinary skill
in the art would understand that a standard daily dose
(e.g., the 0.5 mg daily dose recited at page 15 of
Kovarik) will provide therapeutic benefits absent a
loading dose. See Ex. 1002 ¶ 120.
Patent Owner further argues that Ground I should
fail because Kovarik and Thomson do not provide “any
reason to believe that 0.5 mg daily doses of fingolimod
would actually be of use to a subject in need of
“reducing or preventing or alleviating relapses in” RRMS (claims 1 and 2); “treating” RR-MS (claims 3 and
4); or “slowing progression” of RR-MS (claims 5 and
6).” Prelim. Resp. 29; see id. at 35–36.
As an initial matter, in section II(B), above, we
construe “reducing or preventing or alleviating
relapses” and “slowing progression” as subsumed
within the genus of “treating” RRMS. See Ex. 1002 ¶
47 (testifying that the goals of treating RRMS “include
(1) the reduction of, alleviation of, or relief from the
relapses that characterize RR-MS; and (2) providing
some delay, even if short, in disease progression”).
Patent Owner provides no reasonable explanation or
evidence as to why one of ordinary skill in the art
would have believed that “treating” RRMS with
fingolimod would not be expected to reduce, prevent,
or alleviate relapses, or slow the progression of the
disease.
Second, as discussed in sections II(C)(1) and II(C)(2),
above, Kovarik teaches a daily dose of 0.5 mg and
Thomson teaches a range of doses including 0.5 mg,
which result in the lymphocyte homing effect then
thought to underlie fingolimod’s efficacy in treating
RR-MS. According to Dr. Giesser, one of ordinary skill

104a
in the art would recognize that 0.5 mg/day of
fingolimod would likely be efficacious in treating RRMS—and less likely to result in side effects than
higher doses. See Ex. 1002 ¶¶ 60–62, 116–118, 125.
In contrast to Dr. Giesser’s testimony, we note with
interest Patent Owner’s argument, supported by its
experts Drs. Lublin and Jusko, that pharmacokinetic
data evidenced by Webb, Kahan 2003, and Park would
have indicated to those of ordinary skill in the art that
0.5mg/day of fingolimod would not result in sufficient
lymphopenia to successfully treat RR-MS.9 See, e.g.,
Prelim. Resp. 41–43; Ex. 2003 ¶¶ 39; Ex. 2005 ¶¶ 36–
39. Although we do not find Patent Owner’s argument
unreasonable, at this stage of the proceedings, “a
general issue of material fact created by [Patent
Owner’s] testimonial evidence will be viewed in the
light most favorable to the petitioner.” See 37 C.F.R. §
42.108(c).
Responding to Patent Owner’s argument that
Petitioner should have addressed Patent Owner’s
pharmacokinetic argument in the Petition, we do not
discern where this argument was raised during the
course of prosecution, nor are we convinced that this
argument is self-evident based on the art of record. See
Prelim. Resp. 43–45. Accordingly, and contrary to
Patent Owner’s contention, we see nothing unfair or
improper in the lack of discussion in the Petition of the
pharmacokinetic data in Webb, Kahan 2003, and/or
Park. We, nevertheless, look forward to further
development of this issue at trial.
On the present record, we find that Petitioner’s
arguments and evidence establish a reasonable
9

Although Patent Owner directs the argument to Ground II,
we find it equally applicable here.

105a
likelihood that Petitioner would prevail in
demonstrating the unpatentability of claims 1–6 over
the combination of Kovarik and Thomson.
D

Ground II: Obviousness of Claims 1–6 Over
Chiba, Kappos 2005, and Budde
1. Overview of Chiba

Chiba discloses that fingolimod hydrochloride and
related compounds are capable of suppressing the
immune response of mammals through accelerated
lymphocyte homing (“ALH-immunosuppression”). Ex.
1006, Abstract, 2:35–44, 4:63–5:7. “For example, the
compound FTY720 specifically directs lymphocytes to
the peripheral lymph nodes, mesenteric lymph nodes,
and Peyer's patches. By reversibly sequestering
lymphocytes in these tissues, the compounds can
inhibit an immune response in a mammal.” Id. at
Abstract; see id. at 2:38–40, 17:38–40. Such ALHimmunosuppressive compounds “are useful in for the
prevention or treatment of resistance to transplantation or transplantation rejection . . . [and] autoimmune
diseases such as . . . multiple sclerosis” (id. at 6:26–49)
and may be administered “to an adult daily by 0.01-10
mg (potency) in a single dose or in several divided
doses . . .” (id. at 8:28–34).
2. Overview of Kappos 2005
According to Kappos 2005, “FTY720 is an oral
immunomodulator (sphingosine-1 phosphate receptor
(S1P) modulator) that reversibly sequesters tissue
damaging T and B cells away from blood and the
central nervous system to peripheral lymph nodes.
FTY720 has demonstrated both preventive and therapeutic efficacy in several animal models of MS.” Ex.
1007, O141. Kappos discloses the clinical and MRI

106a
results of a double-blind, placebo-controlled study to
evaluate efficacy, safety and tolerability of 1.25 mg
and 5.0 mg daily doses of FTY720 in the treatment of
RR-MS. Id. According to Kappos 2005, the study
“demonstrated efficacy of FTY720 on MRI and relapserelated endpoints” and “strongly suggest[s] that
FTY720 has the potential to be an efficacious disease
modifying treatment for relapsing forms of MS with
the additional benefit of once daily oral administration.” Id.
3. Overview of Budde
Budde discloses a “randomized, double-blind,
placebo-controlled [study] that explored single oral
doses of FTY720 from 0.25 to 3.5 mg” in renal
transplant patients. Ex. 1008, Abstract. Budde shows
that single oral doses of 0.25 mg, 0.5 mg, 0.75 mg, 1
mg, 2 mg, and 3.5 mg induced decreased lymphocyte
counts as compared to placebo with a nadir of 4.7–8
hours after administration. Id. at 1078; see id. at 1079
(“All FTY-randomized groups manifested a temporal
pattern of relative lymphopenia, detected at the latest
by 6 h postdose.”). Moreover,
At FTY doses ranging from 0.5 mg to 3.5 mg,
no clear dose response relationship was
detected, but the two highest dose groups
exhibited a more pronounced decline in lymphocyte numbers. FTY doses of >2.0 mg were
associated with a more rapid onset of lymphopenia (31 to 43% decrease after 2 h). The
three subjects treated with 3.5 mg FTY
manifested the most prolonged and intensive
lymphopenia.

107a
Id.; but see id. at 1082 (“Single oral doses of FTY in
doses ranging from 0.5 mg to 3.5 mg caused a dosedependent, reversible lymphopenia.”).
With respect to safety, “single oral doses of FTY
were well tolerated with transient asymptomatic
bradycardia as the most common adverse event.” Id.
at 1082. “Higher doses of FTY were more frequently
associated with bradycardia: 9 out of 12 subjects
randomized to >0.75 mg of FTY developed bradycardia; however, only 1 of 12 subjects receiving 0.25 to 0.5
mg of FTY.” Id. at 1075.
4. Analysis of Ground II
Petitioner argues that claims 1–6 would have been
obvious “[b]ecause Chiba teaches oral administration
of fingolimod hydrochloride for the treatment of
multiple sclerosis, with Kappos 2005 confirming its
utility in RRMS patients and Budde confirming the
efficacy of a 0.5 mg daily dose of FTY720.” Pet. 54. In
particular,
In view of Kappos 2005 and Budde, the skilled
artisan would have a reasonable expectation
that the 0.5 mg daily dose, a dose within the
range taught by Chiba and specifically used
by Budde, would induce the desired pharmacological effect (lymphopenia) in RR-MS
patients. EX1002, ¶¶58, 60-61, 64, 84, 139,
citing EX1022 at 309, EX1018 at 237-39,
EX1019 at 684, EX1031 at 1081, EX1028 at
440, and identifying lymphopenia as being
“often used as a clinical end-point in dose
response studies” and “relevant for relating
dosage to lymphopenia for MS.” Thus, a
skilled artisan would have had reason to use
the 0.5 mg dose identified in these clinical

108a
trials because there was no substantial
pharmacological detriment to using the lower
0.5 mg dose and because Budde teaches that
the 0.5 mg dose was associated with a
decreased risk of adverse effects such as
bradycardia when compared to higher doses.
EX1008 at 1075-76; EX1002, ¶139.
Id. at 53–54.
In response, and as discussed above in section
II(C)(3), Patent Owner relies on the testimony of its
experts to argue that pharmacokinetic data evidenced
by Webb, Kahan 2003, and Park would have indicated
to those of ordinary skill in the art that 0.5 mg/day of
fingolimod would not result in sufficient lymphopenia
to successfully treat RR-MS. See, e.g., Prelim. Resp.
41–43; Ex. 2003 ¶¶ 39; Ex. 2005 ¶¶ 36–39. Again,
though we may find Patent Owner’s argument reasonable on its face, at this stage of the proceedings, we are
bound to consider disputed facts created by testimonial evidence “in the light most favorable to the
petitioner.” See 37 C.F.R. § 42.108(c). Accordingly, on
the present record, we find that Petitioner’s arguments and evidence establish a reasonable likelihood
that Petitioner would prevail in demonstrating the
unpatentability of claims 1–6 in view of Chiba, Kappos
2005, and Budde.
E. Ground III: Anticipation of Claims 1–6 by
Kappos 2010.
Petitioner challenges claims 1–6 under 35 U.S.C.
§ 102 as anticipated by Kappos 2010. Pet. 21, 57–61;
see Ex. 1002 ¶¶ 144–146. Petitioner’s challenge is
predicated on the assertion that Kappos 2010 qualifies
as prior art because claims 1–6 are not entitled to a
filing date earlier than the April 21, 2014 filing date of

109a
the ’342 application. Pet. 17–18, 57. In particular,
Petitioner argues that the claim limitation requiring
fingolimod administration “absent an immediately
preceding loading dose regimen” first appeared in
the ’342 application in a preliminary amendment,
whereas the originally filed ’342 application and all
prior applications are “silent regarding loading dose
regimens.” Id. at 57–58 (citations omitted).
Patent Owner does not presently dispute that
Kappos 2010 discloses each element of claims 1–6, but
argues first, that Kappos 2010 is not prior art; and
second, that in contravention of 35 U.S.C. § 311(b),
Petitioner’s “anticipation theory is a ruse to unlawfully smuggle a 112 written description argument into
an IPR.” Prelim. Resp. 5, 45–49. We find no merit in
the latter argument.
Although § 311(b) permits inter partes review “only
on a ground that could be raised under section 102 or
103,” Petitioner has not challenged the instant claims
on any ground other than those that could be raised
under sections 102 and 103. Moreover, ascertaining
whether an asserted reference qualifies as prior art is
integral to our analysis under these sections. Patent
Owner cites no authority precluding the Board from
conducting such analysis where, as in the present
case, the prior art status of a reference turns on
whether applications in the chain of priority of the
challenged patent satisfy the written description
requirement of § 112. Cf. Bioactive Labs. v. BTG Int’l
Inc., Case IPR2015-01305 (PTAB Dec. 15, 2015)
(Paper 19) (finding that Petitioner failed to demonstrate that parent application having same specification as challenged patent lacked written descriptive
support and enablement for the challenged claims).

110a
In addressing the substance of Petitioner’s contention that Kappos 2010 qualifies as prior art, Patent
Owner contends that the ’405 patent (and presumably
each of the applications in its chain of priority)
supports excluding a loading dose because “the
specification says that doses administered as infrequently as once per week can treat RRMS.” Prelim.
Resp. 47; see Ex. 1001 (“[Fingolimod], may alternatively be administered intermittently, e.g. at a dose of
0.5 to 30 mg every other day or once a week.”). Relying
on the testimony of Petitioner’s expert that it was
standard practice to treat multiple sclerosis without
using a loading dose, Patent Owner further contends
that because the Specification did not expressly
prescribe a loading dose, “a person of skill reading the
specification would understand that it excluded a
loading dose.” Prelim. Resp. 48.
On the current record, we do not find Patent
Owner’s argument persuasive. First, at this stage of
the proceeding, Patent Owner’s contention that one of
ordinary skill in the art would have understood the
specification to categorically exclude a loading dose is
attorney argument entitled to little weight. See In re
Geisler, 116 F.3d 1465, 1470 (Fed. Cir. 1997).
Second, although the Specification’s recitation of
once per week administration may encompass a daily
dosage “absent an immediately preceding loading dose
regimen,” the claim language is directed to a broader
genus that requires no immediately preceding loading
dose under any circumstances. It is well settled that
under § 112, “[s]uch description need not recite the
claimed invention in haec verba but must do more
than merely disclose that which would render the
claimed invention obvious.” See ICU Med., Inc. v.
Alaris Medical Systems, Inc. 558 F.3d 1368, 1377 (Fed.

111a
Cir. 2009). In this case, the disclosure of only a single
species relating to once weekly administration fails to
show possession of the full scope of the invention. See
LizardTech, Inc. v. Earth Res. Mapping, Inc., 424 F.3d
1336, 1345 (Fed. Cir. 2005) (holding that “[a]fter
reading the patent, a person of skill in the art would
not understand” the patentee to have invented a
generic method where the patent only disclosed one
embodiment of it).
“[A] patentee bears the burden of establishing that
its claimed invention is entitled to an earlier priority
date than an asserted prior art reference.” In re
Magnum Oil Tools Int'l, Ltd., 829 F.3d 1364, 1376
(Fed. Cir. 2016). On the present record, we agree with
Petitioner that the ’405 patent is not entitled to a filing
date earlier than April 21, 2014, such that Kappos
2010 qualifies as prior art. The parties will have the
opportunity to further address this issue at trial.
On the present record, we find that Petitioner’s
arguments and evidence establish a reasonable likelihood that Petitioner would prevail in demonstrating
the unpatentability of claims 1–6 as anticipated by
Kappos 2010.
III. CONCLUSION
For the foregoing reasons, we find that the
information presented in the Petition establishes a
reasonable likelihood that the Petitioner would prevail
in showing that claims 1–6 of the ’405 Patent are
anticipated by Kappos 2010, and would have been
obvious in view of (1) Kovarik and Thomson, and
(2) Chiba, Kappos 2005, and Budda.
IV. ORDER
For the reasons given, it is

112a
ORDERED that inter partes review is instituted with
regard to the following asserted grounds:
Claims 1–6 under 35 U.S.C. § 103 as
unpatentable over the combination of Kovarik
and Thomson;
Claims 1–6 under 35 U.S.C. § 103 as
unpatentable over the combination of Chiba,
Kappos 2005, and Budde;
Claims 1–6 under 35 U.S.C. § 102 as
anticipated by Kappos 2010.
FURTHER ORDERED that pursuant to 35 U.S.C.
§ 314(a), inter partes review of the ʼ405 patent is hereby instituted commencing on the entry date of this
Order, and pursuant to 35 U.S.C. § 314(c) and 37
C.F.R. § 42.4, notice is hereby given of the institution
of a trial.
PETITIONER:
Steven M. Parmelee
Michael T. Rosato
Jad A. Mills
Wilson Sonsini Goodrich & Rosati
sparmelee@wsgr.com
mrosato@wsgr.com
jmills@wsgr.com
PATENT OWNER:
Jane M. Love, Ph.D.
Robert W. Trenchard
Gibson, Dunn & Crutcher LLP
jlove@gibsondunn.com
rtrenchard@gibsondunn.com

113a
APPENDIX G
STATUTES AND REGULATIONS
U.S. Const. art. III, § 2
The judicial power shall extend to all cases, in law
and equity, arising under this Constitution, the laws
of the United States, and treaties made, or which shall
be made, under their authority;—to all cases affecting
ambassadors, other public ministers and consuls;—
to all cases of admiralty and maritime jurisdiction;—
to controversies to which the United States shall
be a party;—to controversies between two or more
states;—between a state and citizens of another state;—
between citizens of different states;—between citizens
of the same state claiming lands under grants of
different states, and between a state, or the citizens
thereof, and foreign states, citizens or subjects.
In all cases affecting ambassadors, other public
ministers and consuls, and those in which a state shall
be party, the Supreme Court shall have original
jurisdiction. In all the other cases before mentioned,
the Supreme Court shall have appellate jurisdiction,
both as to law and fact, with such exceptions, and
under such regulations as the Congress shall make.
The trial of all crimes, except in cases of
impeachment, shall be by jury; and such trial shall be
held in the state where the said crimes shall have been
committed; but when not committed within any state,
the trial shall be at such place or places as the
Congress may by law have directed.

114a
21 U.S.C. § 355 (b), (j)
New drugs
(b) Filing application; contents
(1) Any person may file with the Secretary an application with respect to any drug subject to the provisions
of subsection (a) of this section. Such person shall submit
to the Secretary as a part of the application (A) full
reports of investigations which have been made to
show whether or not such drug is safe for use and
whether such drug is effective in use; (B) a full list of
the articles used as components of such drug; (C) a full
statement of the composition of such drug; (D) a full
description of the methods used in, and the facilities
and controls used for, the manufacture, processing,
and packing of such drug; (E) such samples of such
drug and of the articles used as components thereof as
the Secretary may require; (F) specimens of the
labeling proposed to be used for such drug, and (G) any
assessments required under section 355c of this title.
The applicant shall file with the application the patent
number and the expiration date of any patent which
claims the drug for which the applicant submitted the
application or which claims a method of using such
drug and with respect to which a claim of patent
infringement could reasonably be asserted if a person
not licensed by the owner engaged in the manufacture,
use, or sale of the drug. If an application is filed under
this subsection for a drug and a patent which claims
such drug or a method of using such drug is issued
after the filing date but before approval of the application, the applicant shall amend the application to
include the information required by the preceding
sentence. Upon approval of the application, the Secretary
shall publish information submitted under the two preceding sentences. The Secretary shall, in consultation

115a
with the Director of the National Institutes of Health
and with representatives of the drug manufacturing
industry, review and develop guidance, as appropriate, on the inclusion of women and minorities in
clinical trials required by clause (A).
(2) An application submitted under paragraph (1)
for a drug for which the investigations described in
clause (A) of such paragraph and relied upon by the
applicant for approval of the application were not
conducted by or for the applicant and for which the
applicant has not obtained a right of reference or use
from the person by or for whom the investigations
were conducted shall also include—
(A) a certification, in the opinion of the applicant
and to the best of his knowledge, with respect to
each patent which claims the drug for which such
investigations were conducted or which claims a use
for such drug for which the applicant is seeking
approval under this subsection and for which
information is required to be filed under paragraph
(1) or subsection (c) of this section—
(i) that such patent information has not been
filed,
(ii) that such patent has expired,
(iii) of the date on which such patent will
expire, or
(iv) that such patent is invalid or will not be
infringed by the manufacture, use, or sale of the
new drug for which the application is submitted;
and
(B) if with respect to the drug for which investigations described in paragraph (1)(A) were conducted
information was filed under paragraph (1) or

116a
subsection (c) of this section for a method of use
patent which does not claim a use for which the
applicant is seeking approval under this subsection,
a statement that the method of use patent does not
claim such a use.
(3) Notice of opinion that patent is invalid or will not
be infringed.—
(A) Agreement to give notice.—An applicant that
89shall include in the application a statement that
the applicant will give notice as required by this
paragraph.
(B) Timing of notice.—An applicant that makes a
certification described in paragraph (2)(A)(iv) shall
give notice as required under this paragraph—
(i) if the certification is in the application, not
later than 20 days after the date of the postmark
on the notice with which the Secretary informs the
applicant that the application has been filed; or
(ii) if the certification is in an amendment or
supplement to the application, at the time at which
the applicant submits the amendment or supplement, regardless of whether the applicant has
already given notice with respect to another such
certification contained in the application or in an
amendment or supplement to the application.
(C) Recipients of notice.—An applicant required
under this paragraph to give notice shall give notice
to—
(i) each owner of the patent that is the subject
of the certification (or a representative of the
owner designated to receive such a notice); and
(ii) the holder of the approved application
under this subsection for the drug that is claimed

117a
by the patent or a use of which is claimed by the
patent (or a representative of the holder designated to receive such a notice).
(D) Contents of notice.—A notice required under
this paragraph shall—
(i) state that an application that contains data
from bioavailability or bioequivalence studies has
been submitted under this subsection for the drug
with respect to which the certification is made
to obtain approval to engage in the commercial
manufacture, use, or sale of the drug before the
expiration of the patent referred to in the certification; and
(ii) include a detailed statement of the factual
and legal basis of the opinion of the applicant that
the patent is invalid or will not be infringed.
(4)(A) An applicant may not amend or supplement
an application referred to in paragraph (2) to seek
approval of a drug that is a different drug than the
drug identified in the application as submitted to the
Secretary.
(B) With respect to the drug for which such an
application is submitted, nothing in this subsection
or subsection (c)(3) of this section prohibits an applicant from amending or supplementing the application
to seek approval of a different strength.
(5)(A) The Secretary shall issue guidance for the
individuals who review applications submitted under
paragraph (1) or under section 262 of title 42, which
shall relate to promptness in conducting the review,
technical excellence, lack of bias and conflict of interest,
and knowledge of regulatory and scientific standards,

118a
and which shall apply equally to all individuals who
review such applications.
(B) The Secretary shall meet with a sponsor of an
investigation or an applicant for approval for a drug
under this subsection or section 262 of title 42 if the
sponsor or applicant makes a reasonable written
request for a meeting for the purpose of reaching
agreement on the design and size of clinical trials
intended to form the primary basis of an effectiveness claim or, with respect to an applicant for
approval of a biological product under section 262(k)
of title 42, any necessary clinical study or studies.
The sponsor or applicant shall provide information
necessary for discussion and agreement on the design
and size of the clinical trials. Minutes of any such
meeting shall be prepared by the Secretary and made
available to the sponsor or applicant upon request.
(C) Any agreement regarding the parameters of
the design and size of clinical trials of a new drug
under this paragraph that is reached between the
Secretary and a sponsor or applicant shall be reduced
to writing and made part of the administrative
record by the Secretary. Such agreement shall not
be changed after the testing begins, except—
(i) with the written agreement of the sponsor or
applicant; or
(ii) pursuant to a decision, made in accordance
with subparagraph (D) by the director of the
reviewing division, that a substantial scientific
issue essential to determining the safety or effectiveness of the drug has been identified after the
testing has begun.
(D) A decision under subparagraph (C)(ii) by the
director shall be in writing and the Secretary shall

119a
provide to the sponsor or applicant an opportunity
for a meeting at which the director and the sponsor
or applicant will be present and at which the
director will document the scientific issue involved.
(E) The written decisions of the reviewing
division shall be binding upon, and may not directly
or indirectly be changed by, the field or compliance
division personnel unless such field or compliance
division personnel demonstrate to the reviewing
division why such decision should be modified.
(F) No action by the reviewing division may be
delayed because of the unavailability of information
from or action by field personnel unless the reviewing division determines that a delay is necessary to
assure the marketing of a safe and effective drug.
(G) For purposes of this paragraph, the reviewing
division is the division responsible for the review of
an application for approval of a drug under this
subsection or section 262 of title 42 (including all
scientific and medical matters, chemistry, manufacturing, and controls).
(6) An application submitted under this subsection
shall be accompanied by the certification required
under section 282(j)(5)(B) of title 42. Such certification
shall not be considered an element of such application.
(j) Abbreviated new drug applications
(1) Any person may file with the Secretary an
abbreviated application for the approval of a new drug.
(2)(A) An abbreviated application for a new drug
shall contain—
(i) information to show that the conditions of
use prescribed, recommended, or suggested in the
labeling proposed for the new drug have been

120a
previously approved for a drug listed under
paragraph (7) (hereinafter in this subsection
referred to as a “listed drug”);
(ii)(I) if the listed drug referred to in clause (i)
has only one active ingredient, information to
show that the active ingredient of the new drug is
the same as that of the listed drug;
(II) if the listed drug referred to in clause (i)
has more than one active ingredient, information to show that the active ingredients of
the new drug are the same as those of the listed
drug, or
(III) if the listed drug referred to in clause (i)
has more than one active ingredient and if one
of the active ingredients of the new drug is
different and the application is filed pursuant
to the approval of a petition filed under
subparagraph (C), information to show that the
other active ingredients of the new drug are the
same as the active ingredients of the listed
drug, information to show that the different
active ingredient is an active ingredient of a
listed drug or of a drug which does not meet the
requirements of section 321(p) of this title, and
such other information respecting the different
active ingredient with respect to which the
petition was filed as the Secretary may require;
(iii) information to show that the route of
administration, the dosage form, and the strength
of the new drug are the same as those of the listed
drug referred to in clause (i) or, if the route of
administration, the dosage form, or the strength
of the new drug is different and the application is
filed pursuant to the approval of a petition filed

121a
under subparagraph (C), such information respecting the route of administration, dosage form, or
strength with respect to which the petition was
filed as the Secretary may require;
(iv) information to show that the new drug is
bioequivalent to the listed drug referred to in
clause (i), except that if the application is filed
pursuant to the approval of a petition filed under
subparagraph (C), information to show that the
active ingredients of the new drug are of the same
pharmacological or therapeutic class as those of
the listed drug referred to in clause (i) and the new
drug can be expected to have the same therapeutic
effect as the listed drug when administered to
patients for a condition of use referred to in clause
(i);
(v) information to show that the labeling proposed for the new drug is the same as the labeling
approved for the listed drug referred to in clause
(i) except for changes required because of differences approved under a petition filed under
subparagraph (C) or because the new drug and
the listed drug are produced or distributed by
different manufacturers;
(vi) the items specified in clauses (B) through
(F) of subsection (b)(1);
(vii) a certification, in the opinion of the
applicant and to the best of his knowledge, with
respect to each patent which claims the listed
drug referred to in clause (i) or which claims a use
for such listed drug for which the applicant is
seeking approval under this subsection and for
which information is required to be filed under
subsection (b) or (c)—

122a
(I) that such patent information has not been
filed,
(II) that such patent has expired,
(III) of the date on which such patent will
expire, or
(IV) that such patent is invalid or will not be
infringed by the manufacture, use, or sale of the
new drug for which the application is submitted;
and
(viii) if with respect to the listed drug referred
to in clause (i) information was filed under
subsection (b) or (c) for a method of use patent
which does not claim a use for which the applicant
is seeking approval under this subsection, a
statement that the method of use patent does not
claim such a use.
The Secretary may not require that an abbreviated
application contain information in addition to that
required by clauses (i) through (viii).
(B) Notice of opinion that patent is invalid or will
not be infringed.—
(i) Agreement to give notice.—An applicant
that makes a certification described in subparagraph
(A)(vii)(IV) shall include in the application a
statement that the applicant will give notice as
required by this subparagraph.
(ii) Timing of notice.—An applicant that makes
a certification described in subparagraph (A)(vii)(IV)
shall give notice as required under this
subparagraph(I) if the certification is in the application,
not later than 20 days after the date of the

123a
postmark on the notice with which the Secretary
informs the applicant that the application has
been filed; or
(II) if the certification is in an amendment or
supplement to the application, at the time at
which the applicant submits the amendment or
supplement, regardless of whether the applicant
has already given notice with respect to another
such certification contained in the application
or in an amendment or supplement to the
application.
(iii) Recipients of notice.—An applicant required
under this subparagraph to give notice shall give
notice to—
(I) each owner of the patent that is the
subject of the certification (or a representative
of the owner designated to receive such a
notice); and
(II) the holder of the approved application
under subsection (b) for the drug that is claimed
by the patent or a use of which is claimed by
the patent (or a representative of the holder
designated to receive such a notice).
(iv) Contents of notice.—A notice required
under this subparagraph shall—
(I) state that an application that contains
data from bioavailability or bioequivalence studies
has been submitted under this subsection for
the drug with respect to which the certification
is made to obtain approval to engage in the
commercial manufacture, use, or sale of the
drug before the expiration of the patent referred
to in the certification; and

124a
(II) include a detailed statement of the
factual and legal basis of the opinion of the
applicant that the patent is invalid or will not
be infringed.
(C) If a person wants to submit an abbreviated
application for a new drug which has a different
active ingredient or whose route of administration,
dosage form, or strength differ from that of a listed
drug, such person shall submit a petition to the
Secretary seeking permission to file such an application. The Secretary shall approve or disapprove a
petition submitted under this subparagraph within
ninety days of the date the petition is submitted.
The Secretary shall approve such a petition unless
the Secretary finds—
(i) that investigations must be conducted to
show the safety and effectiveness of the drug or of
any of its active ingredients, the route of administration, the dosage form, or strength which
differ from the listed drug; or
(ii) that any drug with a different active
ingredient may not be adequately evaluated for
approval as safe and effective on the basis of the
information required to be submitted in an
abbreviated application.
(D)(i) An applicant may not amend or supplement
an application to seek approval of a drug referring
to a different listed drug from the listed drug identified in the application as submitted to the Secretary.
(ii) With respect to the drug for which an application is submitted, nothing in this subsection
prohibits an applicant from amending or supplementing the application to seek approval of a
different strength.

125a
(iii) Within 60 days after December 8, 2003, the
Secretary shall issue guidance defining the term
“listed drug” for purposes of this subparagraph.
(3)(A) The Secretary shall issue guidance for the
individuals who review applications submitted
under paragraph (1), which shall relate to promptness in conducting the review, technical excellence,
lack of bias and conflict of interest, and knowledge
of regulatory and scientific standards, and which
shall apply equally to all individuals who review
such applications.
(B) The Secretary shall meet with a sponsor of an
investigation or an applicant for approval for a drug
under this subsection if the sponsor or applicant
makes a reasonable written request for a meeting
for the purpose of reaching agreement on the design
and size of bioavailability and bioequivalence studies
needed for approval of such application. The sponsor
or applicant shall provide information necessary for
discussion and agreement on the design and size of
such studies. Minutes of any such meeting shall be
prepared by the Secretary and made available to the
sponsor or applicant.
(C) Any agreement regarding the parameters of
design and size of bioavailability and bioequivalence
studies of a drug under this paragraph that is
reached between the Secretary and a sponsor or
applicant shall be reduced to writing and made part
of the administrative record by the Secretary. Such
agreement shall not be changed after the testing
begins, except—
(i) with the written agreement of the sponsor or
applicant; or

126a
(ii) pursuant to a decision, made in accordance
with subparagraph (D) by the director of the reviewing division, that a substantial scientific issue
essential to determining the safety or effectiveness
of the drug has been identified after the testing
has begun.
(D) A decision under subparagraph (C)(ii) by the
director shall be in writing and the Secretary shall
provide to the sponsor or applicant an opportunity
for a meeting at which the director and the sponsor
or applicant will be present and at which the
director will document the scientific issue involved.
(E) The written decisions of the reviewing division shall be binding upon, and may not directly or
indirectly be changed by, the field or compliance
office personnel unless such field or compliance office
personnel demonstrate to the reviewing division
why such decision should be modified.
(F) No action by the reviewing division may be
delayed because of the unavailability of information
from or action by field personnel unless the reviewing division determines that a delay is necessary to
assure the marketing of a safe and effective drug.
(G) For purposes of this paragraph, the reviewing
division is the division responsible for the review of
an application for approval of a drug under this
subsection (including scientific matters, chemistry,
manufacturing, and controls).
(4) Subject to paragraph (5), the Secretary shall
approve an application for a drug unless the Secretary
finds—
(A) the methods used in, or the facilities and
controls used for, the manufacture, processing, and

127a
packing of the drug are inadequate to assure and
preserve its identity, strength, quality, and purity;
(B) information submitted with the application is
insufficient to show that each of the proposed conditions of use have been previously approved for the
listed drug referred to in the application;
(C)(i) if the listed drug has only one active ingredient, information submitted with the application is
insufficient to show that the active ingredient is the
same as that of the listed drug;
(ii) if the listed drug has more than one active
ingredient, information submitted with the application is insufficient to show that the active
ingredients are the same as the active ingredients
of the listed drug, or
(iii) if the listed drug has more than one active
ingredient and if the application is for a drug
which has an active ingredient different from the
listed drug, information submitted with the application is insufficient to show—
(I) that the other active ingredients are the
same as the active ingredients of the listed
drug, or
(II) that the different active ingredient is an
active ingredient of a listed drug or a drug
which does not meet the requirements of section
321(p) of this title,
or no petition to file an application for the drug
with the different ingredient was approved under
paragraph (2)(C);
(D)(i) if the application is for a drug whose route
of administration, dosage form, or strength of the
drug is the same as the route of administration,

128a
dosage form, or strength of the listed drug referred
to in the application, information submitted in the
application is insufficient to show that the route of
administration, dosage form, or strength is the same
as that of the listed drug, or
(ii) if the application is for a drug whose route
of administration, dosage form, or strength of the
drug is different from that of the listed drug
referred to in the application, no petition to file an
application for the drug with the different route of
administration, dosage form, or strength was
approved under paragraph (2)(C);
(E) if the application was filed pursuant to the
approval of a petition under paragraph (2)(C), the
application did not contain the information required
by the Secretary respecting the active ingredient,
route of administration, dosage form, or strength
which is not the same;
(F) information submitted in the application is
insufficient to show that the drug is bioequivalent to
the listed drug referred to in the application or, if the
application was filed pursuant to a petition approved
under paragraph (2)(C), information submitted in
the application is insufficient to show that the active
ingredients of the new drug are of the same pharmacological or therapeutic class as those of the
listed drug referred to in paragraph (2)(A)(i) and
that the new drug can be expected to have the same
therapeutic effect as the listed drug when administered to patients for a condition of use referred to in
such paragraph;
(G) information submitted in the application is
insufficient to show that the labeling proposed for
the drug is the same as the labeling approved for the

129a
listed drug referred to in the application except for
changes required because of differences approved
under a petition filed under paragraph (2)(C) or
because the drug and the listed drug are produced
or distributed by different manufacturers;
(H) information submitted in the application or
any other information available to the Secretary
shows that (i) the inactive ingredients of the drug
are unsafe for use under the conditions prescribed,
recommended, or suggested in the labeling proposed
for the drug, or (ii) the composition of the drug is
unsafe under such conditions because of the type or
quantity of inactive ingredients included or the manner
in which the inactive ingredients are included;
(I) the approval under subsection (c) of the listed
drug referred to in the application under this
subsection has been withdrawn or suspended for
grounds described in the first sentence of subsection
(e), the Secretary has published a notice of opportunity for hearing to withdraw approval of the listed
drug under subsection (c) for grounds described in
the first sentence of subsection (e), the approval
under this subsection of the listed drug referred to
in the application under this subsection has been
withdrawn or suspended under paragraph (6), or the
Secretary has determined that the listed drug has
been withdrawn from sale for safety or effectiveness
reasons;
(J) the application does not meet any other
requirement of paragraph (2)(A); or
(K) the application contains an untrue statement
of material fact.
(5)(A) Within one hundred and eighty days of the
initial receipt of an application under paragraph (2) or

130a
within such additional period as may be agreed upon
by the Secretary and the applicant, the Secretary shall
approve or disapprove the application.
(B) The approval of an application submitted
under paragraph (2) shall be made effective on
the last applicable date determined by applying
the following to each certification made under
paragraph (2)(A)(vii):
(i) If the applicant only made a certification
described in subclause (I) or (II) of paragraph
(2)(A)(vii) or in both such subclauses, the approval
may be made effective immediately.
(ii) If the applicant made a certification described
in subclause (III) of paragraph (2)(A)(vii), the
approval may be made effective on the date
certified under subclause (III).
(iii) If the applicant made a certification described
in subclause (IV) of paragraph (2)(A)(vii), the
approval shall be made effective immediately unless,
before the expiration of 45 days after the date on
which the notice described in paragraph (2)(B) is
received, an action is brought for infringement of
the patent that is the subject of the certification
and for which information was submitted to the
Secretary under subsection (b)(1) or (c)(2) before
the date on which the application (excluding an
amendment or supplement to the application),
which the Secretary later determines to be substantially complete, was submitted. If such an
action is brought before the expiration of such
days, the approval shall be made effective upon
the expiration of the thirty-month period beginning on the date of the receipt of the notice
provided under paragraph (2)(B)(i) or such shorter

131a
or longer period as the court may order because
either party to the action failed to reasonably
cooperate in expediting the action, except that—
(I) if before the expiration of such period the
district court decides that the patent is invalid
or not infringed (including any substantive
determination that there is no cause of action
for patent infringement or invalidity), the approval
shall be made effective on(aa) the date on which the court enters
judgment reflecting the decision; or
(bb) the date of a settlement order or consent
decree signed and entered by the court
stating that the patent that is the subject of
the certification is invalid or not infringed;
(II) if before the expiration of such period the
district court decides that the patent has been
infringed(aa) if the judgment of the district court is
appealed, the approval shall be made effective
on—
(AA) the date on which the court of
appeals decides that the patent is invalid or
not infringed (including any substantive
determination that there is no cause of
action for patent infringement or invalidity);
or
(BB) the date of a settlement order or
consent decree signed and entered by the
court of appeals stating that the patent that
is the subject of the certification is invalid
or not infringed; or

132a
(bb) if the judgment of the district court is
not appealed or is affirmed, the approval shall
be made effective on the date specified by the
district court in a court order under section
271(e)(4)(A) of title 35;
(III) if before the expiration of such period
the court grants a preliminary injunction prohibiting the applicant from engaging in the
commercial manufacture or sale of the drug
until the court decides the issues of patent
validity and infringement and if the court
decides that such patent is invalid or not
infringed, the approval shall be made effective
as provided in subclause (I); or
(IV) if before the expiration of such period
the court grants a preliminary injunction
prohibiting the applicant from engaging in
the commercial manufacture or sale of the
drug until the court decides the issues of
patent validity and infringement and if the
court decides that such patent has been
infringed, the approval shall be made
effective as provided in subclause (II).
In such an action, each of the parties shall reasonably
cooperate in expediting the action.
(iv) 180-day exclusivity period.—
(I) Effectiveness of application.—Subject to
subparagraph (D), if the application contains a
certification described in paragraph (2)(A)(vii)(IV)
and is for a drug for which a first applicant has
submitted an application containing such a
certification, the application shall be made
effective on the date that is 180 days after the

133a
date of the first commercial marketing of the
drug (including the commercial marketing of
the listed drug) by any first applicant.
(II) Definitions.—In this paragraph:
(aa) 180-day exclusivity period.—The term
“180-day exclusivity period” means the 180day period ending on the day before the date
on which an application submitted by an
applicant other than a first applicant could
become effective under this clause.
(bb) First applicant.—As used in this
subsection, the term “first applicant” means
an applicant that, on the first day on which a
substantially complete application containing a certification described in paragraph
(2)(A)(vii)(IV) is submitted for approval of a
drug, submits a substantially complete application that contains and lawfully maintains
a certification described in paragraph
(2)(A)(vii)(IV) for the drug.
(cc) Substantially complete application.—
As used in this subsection, the term
“substantially complete application” means
an application under this subsection that on
its face is sufficiently complete to permit a
substantive review and contains all the
information required by paragraph (2)(A).
(dd) Tentative approval.—
(AA) In general.—The term “tentative
approval” means notification to an applicant
by the Secretary that an application under
this subsection meets the requirements of
paragraph (2)(A), but cannot receive effective

134a
approval because the application does not
meet the requirements of this subparagraph,
there is a period of exclusivity for the listed
drug under subparagraph (F) or section
355a of this title, or there is a 7-year period
of exclusivity for the listed drug under
section 360cc of this title.
(BB) Limitation.—A drug that is granted
tentative approval by the Secretary is not
an approved drug and shall not have an
effective approval until the Secretary issues
an approval after any necessary additional
review of the application.
(v) 180-day exclusivity period for competitive
generic therapies.—
(I) Effectiveness of application.—Subject to
subparagraph (D)(iv), if the application is for a
drug that is the same as a competitive generic
therapy for which any first approved applicant
has commenced commercial marketing, the
application shall be made effective on the date
that is 180 days after the date of the first
commercial marketing of the competitive generic
therapy (including the commercial marketing of
the listed drug) by any first approved applicant.
(II) Limitation.—The exclusivity period under
subclause (I) shall not apply with respect to a
competitive generic therapy that has previously
received an exclusivity period under subclause
(I).
(III) Definitions.—In this clause and subparagraph (D)(iv):

135a
(aa) The term “competitive generic therapy”
means a drug—
(AA) that is designated as a competitive
generic therapy under section 356h of this
title; and
(BB) for which there are no unexpired
patents or exclusivities on the list of products described in section 355(j)(7)(A) of this
title at the time of submission.
(bb) The term “first approved applicant”
means any applicant that has submitted an
application that—
(AA) is for a competitive generic therapy
that is approved on the first day on which
any application for such competitive generic
therapy is approved;
(BB) is not eligible for a 180-day exclusivity period under clause (iv) for the drug
that is the subject of the application for the
competitive generic therapy; and
(CC) is not for a drug for which all drug
versions have forfeited eligibility for a 180day exclusivity period under clause (iv)
pursuant to subparagraph (D).
(C) Civil action to obtain patent certainty.—
(i) Declaratory judgment absent infringement
action.—
(I) In general.—No action may be brought
under section 2201 of title 28 by an applicant
under paragraph (2) for a declaratory judgment
with respect to a patent which is the subject of

136a
the certification referred to in subparagraph
(B)(iii) unless(aa) the 45-day period referred to in such
subparagraph has expired;
(bb) neither the owner of such patent nor
the holder of the approved application under
subsection (b) for the drug that is claimed by
the patent or a use of which is claimed by
the patent brought a civil action against the
applicant for infringement of the patent
before the expiration of such period; and
(cc) in any case in which the notice provided
under paragraph (2)(B) relates to noninfringement, the notice was accompanied by
a document described in subclause (III).
(II) Filing of civil action.—If the conditions
described in items (aa), (bb), and as applicable,
(cc) of subclause (I) have been met, the applicant referred to in such subclause may, in
accordance with section 2201 of title 28, bring a
civil action under such section against the
owner or holder referred to in such subclause
(but not against any owner or holder that has
brought such a civil action against the applicant,
unless that civil action was dismissed without
prejudice) for a declaratory judgment that the
patent is invalid or will not be infringed by the
drug for which the applicant seeks approval,
except that such civil action may be brought
for a declaratory judgment that the patent will
not be infringed only in a case in which the
condition described in subclause (I)(cc) is applicable. A civil action referred to in this subclause
shall be brought in the judicial district where

137a
the defendant has its principal place of business
or a regular and established place of business.
(III) Offer of confidential access to application.—For purposes of subclause (I)(cc), the
document described in this subclause is a document providing an offer of confidential access to
the application that is in the custody of the
applicant under paragraph (2) for the purpose
of determining whether an action referred to
in subparagraph (B)(iii) should be brought.
The document providing the offer of confidential
access shall contain such restrictions as to persons
entitled to access, and on the use and disposition of any information accessed, as would apply
had a protective order been entered for the
purpose of protecting trade secrets and other
confidential business information. A request for
access to an application under an offer of confidential access shall be considered acceptance
of the offer of confidential access with the
restrictions as to persons entitled to access, and
on the use and disposition of any information
accessed, contained in the offer of confidential
access, and those restrictions and other terms of
the offer of confidential access shall be considered terms of an enforceable contract. Any
person provided an offer of confidential access
shall review the application for the sole and
limited purpose of evaluating possible infringement of the patent that is the subject of the
certification under paragraph (2)(A)(vii)(IV)
and for no other purpose, and may not disclose
information of no relevance to any issue of
patent infringement to any person other than a
person provided an offer of confidential access.
Further, the application may be redacted by the

138a
applicant to remove any information of no
relevance to any issue of patent infringement.
(ii) Counterclaim to infringement action.—
(I) In general.—If an owner of the patent or
the holder of the approved application under
subsection (b) for the drug that is claimed by the
patent or a use of which is claimed by the patent
brings a patent infringement action against the
applicant, the applicant may assert a counterclaim seeking an order requiring the holder to
correct or delete the patent information submitted
by the holder under subsection (b) or (c) on the
ground that the patent does not claim either(aa) the drug for which the application was
approved; or
(bb) an approved method of using the drug.
(II) No independent cause of action.—
Subclause (I) does not authorize the assertion of
a claim described in subclause (I) in any civil
action or proceeding other than a counterclaim
described in subclause (I).
(iii) No damages.—An applicant shall not be
entitled to damages in a civil action under clause
(i) or a counterclaim under clause (ii).
(D) Forfeiture of 180-day exclusivity period.—
(i) Definition of forfeiture event.—In this subparagraph, the term “forfeiture event”, with respect to
an application under this subsection, means the
occurrence of any of the following:
(I) Failure to market.—The first applicant
fails to market the drug by the later of(aa) the earlier of the date that is—

139a
(AA) 75 days after the date on which
the approval of the application of the
first applicant is made effective under
subparagraph (B)(iii); or
(BB) 30 months after the date of submission of the application of the first applicant;
or
(bb) with respect to the first applicant or
any other applicant (which other applicant
has received tentative approval), the date
that is 75 days after the date as of which, as
to each of the patents with respect to which
the first applicant submitted and lawfully
maintained a certification qualifying the first
applicant for the 180-day exclusivity period
under subparagraph (B)(iv), at least 1 of the
following has occurred:
(AA) In an infringement action brought
against that applicant with respect to the
patent or in a declaratory judgment action
brought by that applicant with respect to
the patent, a court enters a final decision
from which no appeal (other than a petition
to the Supreme Court for a writ of certiorari)
has been or can be taken that the patent is
invalid or not infringed.
(BB) In an infringement action or a
declaratory judgment action described in
subitem (AA), a court signs a settlement
order or consent decree that enters a final
judgment that includes a fording that the
patent is invalid or not infringed.
(CC) The patent information submitted
under subsection (b) or (c) is withdrawn by

140a
the holder of the application approved
under subsection (b).
(II) Withdrawal of application.—The first applicant withdraws the application or the Secretary
considers the application to have been withdrawn
as a result of a determination by the Secretary
that the application does not meet the requirements for approval under paragraph (4).
(III) Amendment of certification.—The first
applicant amends or withdraws the certification
for all of the patents with respect to which that
applicant submitted a certification qualifying
the applicant for the 180-day exclusivity period.
(IV) Failure to obtain tentative approval.—
The first applicant fails to obtain tentative
approval of the application within 30 months
after the date on which the application is filed,
unless the failure is caused by a change in or a
review of the requirements for approval of the
application imposed after the date on which the
application is filed.
(V) Agreement with another applicant, the
listed drug application holder, or a patent
owner.—The first applicant enters into an
agreement with another applicant under this
subsection for the drug, the holder of the
application for the listed drug, or an owner of
the patent that is the subject of the certification
under paragraph (2)(A)(vii)(IV), the Federal
Trade Commission or the Attorney General files
a complaint, and there is a final decision of the
Federal Trade Commission or the court with
regard to the complaint from which no appeal
(other than a petition to the Supreme Court for

141a
a writ of certiorari) has been or can be taken
that the agreement has violated the antitrust
laws (as defined in section 12 of title 15, except
that the term includes section 45 of title 15 to
the extent that that section applies to unfair
methods of competition).
(VI) Expiration of all patents.—All of the
patents as to which the applicant submitted a
certification qualifying it for the 180-day
exclusivity period have expired.
(ii) Forfeiture.—The 180-day exclusivity period
described in subparagraph (B)(iv) shall be
forfeited by a first applicant if a forfeiture event
occurs with respect to that first applicant.
(iii) Subsequent applicant.—If all first applicants forfeit the 180-day exclusivity period under
clause (ii)—
(I) approval of any application containing a
certification described in paragraph (2)(A)(vii)(IV)
shall be made effective in accordance with
subparagraph (B)(iii); and
(II) no applicant shall be eligible for a 180day exclusivity period.
(iv) Special forfeiture rule for competitive
generic therapy.—The 180-day exclusivity period
described in subparagraph (B)(v) shall be forfeited
by a first approved applicant if the applicant fails
to market the competitive generic therapy within
75 days after the date on which the approval of the
first approved applicant’s application for the
competitive generic therapy is made effective.
(E) If the Secretary decides to disapprove an
application, the Secretary shall give the applicant

142a
notice of an opportunity for a hearing before the
Secretary on the question of whether such application is approvable. If the applicant elects to accept
the opportunity for hearing by written request
within thirty days after such notice, such hearing
shall commence not more than ninety days after the
expiration of such thirty days unless the Secretary
and the applicant otherwise agree. Any such hearing shall thereafter be conducted on an expedited
basis and the Secretary’s order thereon shall be
issued within ninety days after the date fixed by the
Secretary for filing final briefs.
(F)(i) If an application (other than an abbreviated
new drug application) submitted under subsection
(b) for a drug, no active ingredient (including any
ester or salt of the active ingredient) of which
has been approved in any other application under
subsection (b), was approved during the period
beginning January 1, 1982, and ending on
September 24, 1984, the Secretary may not make
the approval of an application submitted under this
subsection which refers to the drug for which the
subsection (b) application was submitted effective
before the expiration of ten years from the date of
the approval of the application under subsection (b).
(ii) If an application submitted under subsection (b) for a drug, no active ingredient (including
any ester or salt of the active ingredient) of which
has been approved in any other application under
subsection (b), is approved after September 24,
1984, no application may be submitted under this
subsection which refers to the drug for which the
subsection (b) application was submitted before
the expiration of five years from the date of the
approval of the application under subsection (b),

143a
except that such an application may be submitted
under this subsection after the expiration of
four years from the date of the approval of the
subsection (b) application if it contains a certification of patent invalidity or noninfringement
described in subclause (IV) of paragraph (2)(A)(vii).
The approval of such an application shall be made
effective in accordance with subparagraph (B)
except that, if an action for patent infringement is
commenced during the one-year period beginning
forty-eight months after the date of the approval
of the subsection (b) application, the thirty-month
period referred to in subparagraph (B)(iii) shall be
extended by such amount of time (if any) which
is required for seven and one-half years to
have elapsed from the date of approval of the
subsection (b) application.
(iii) If an application submitted under subsection (b) for a drug, which includes an active
ingredient (including any ester or salt of the active
ingredient) that has been approved in another
application approved under subsection (b), is
approved after September 24, 1984, and if such
application contains reports of new clinical investigations (other than bioavailability studies) essential
to the approval of the application and conducted
or sponsored by the applicant, the Secretary may
not make the approval of an application submitted
under this subsection for the conditions of approval
of such drug in the subsection (b) application
effective before the expiration of three years from
the date of the approval of the application under
subsection (b) for such drug.
(iv) If a supplement to an application approved
under subsection (b) is approved after September

144a
24, 1984, and the supplement contains reports of
new clinical investigations (other than bioavailability studies) essential to the approval of the
supplement and conducted or sponsored by the
person submitting the supplement, the Secretary
may not make the approval of an application
submitted under this subsection for a change
approved in the supplement effective before the
expiration of three years from the date of the
approval of the supplement under subsection (b).
(v) If an application (or supplement to an
application) submitted under subsection (b) for a
drug, which includes an active ingredient (including any ester or salt of the active ingredient) that
has been approved in another application under
subsection (b), was approved during the period
beginning January 1, 1982, and ending on
September 24, 1984, the Secretary may not make
the approval of an application submitted under
this subsection which refers to the drug for which
the subsection (b) application was submitted or
which refers to a change approved in a supplement to the subsection (b) application effective
before the expiration of two years from September
24, 1984.
(6) If a drug approved under this subsection refers
in its approved application to a drug the approval
of which was withdrawn or suspended for grounds
described in the first sentence of subsection (e) or was
withdrawn or suspended under this paragraph or
which, as determined by the Secretary, has been withdrawn from sale for safety or effectiveness reasons, the
approval of the drug under this subsection shall be
withdrawn or suspended—

145a
(A) for the same period as the withdrawal or
suspension under subsection (e) or this paragraph,
or
(B) if the listed drug has been withdrawn from
sale, for the period of withdrawal from sale or, if
earlier, the period ending on the date the Secretary
determines that the withdrawal from sale is not for
safety or effectiveness reasons.
(7)(A)(i) Within sixty days of September 24, 1984,
the Secretary shall publish and make available to the
public—
(I) a list in alphabetical order of the official
and proprietary name of each drug which has
been approved for safety and effectiveness under
subsection (c) before September 24, 1984;
(II) the date of approval if the drug is approved
after 1981 and the number of the application
which was approved; and
(III) whether in vitro or in vivo bioequivalence studies, or both such studies, are required
for applications filed under this subsection
which will refer to the drug published.
(ii) Every thirty days after the publication of
the first list under clause (i) the Secretary shall
revise the list to include each drug which has
been approved for safety and effectiveness under
subsection (c) or approved under this subsection
during the thirty-day period.
(iii) When patent information submitted under
subsection (b) or (c) respecting a drug included on
the list is to be published by the Secretary, the
Secretary shall, in revisions made under clause
(ii), include such information for such drug.

146a
(B) A drug approved for safety and effectiveness
under subsection (c) or approved under this subsection shall, for purposes of this subsection, be considered
to have been published under subparagraph (A) on
the date of its approval or September 24, 1984,
whichever is later.
(C) If the approval of a drug was withdrawn or
suspended for grounds described in the first sentence
of subsection (e) or was withdrawn or suspended
under paragraph (6) or if the Secretary determines
that a drug has been withdrawn from sale for safety
or effectiveness reasons, it may not be published in
the list under subparagraph (A) or, if the withdrawal or suspension occurred after its publication
in such list, it shall be immediately removed from
such list—
(i) for the same period as the withdrawal or suspension under subsection (e) or paragraph (6), or
(ii) if the listed drug has been withdrawn from
sale, for the period of withdrawal from sale or, if
earlier, the period ending on the date the
Secretary determines that the withdrawal from
sale is not for safety or effectiveness reasons.
A notice of the removal shall be published in the
Federal Register.
(8) For purposes of this subsection:
(A)(i) The term “bioavailability” means the rate
and extent to which the active ingredient or therapeutic ingredient is absorbed from a drug and
becomes available at the site of drug action.
(ii) For a drug that is not intended to be
absorbed into the bloodstream, the Secretary
may assess bioavailability by scientifically valid

147a
measurements intended to reflect the rate and
extent to which the active ingredient or therapeutic ingredient becomes available at the site of drug
action.
(B) A drug shall be considered to be bioequivalent
to a listed drug if—
(i) the rate and extent of absorption of the
drug do not show a significant difference from the
rate and extent of absorption of the listed drug
when administered at the same molar dose of the
therapeutic ingredient under similar experimental
conditions in either a single dose or multiple
doses; or
(ii) the extent of absorption of the drug does not
show a significant difference from the extent of
absorption of the listed drug when administered
at the same molar dose of the therapeutic ingredient under similar experimental conditions in
either a single dose or multiple doses and the
difference from the listed drug in the rate of
absorption of the drug is intentional, is reflected
in its proposed labeling, is not essential to the
attainment of effective body drug concentrations
on chronic use, and is considered medically
insignificant for the drug.
(C) For a drug that is not intended to be absorbed
into the bloodstream, the Secretary may establish
alternative, scientifically valid methods to show
bioequivalence if the alternative methods are expected
to detect a significant difference between the drug
and the listed drug in safety and therapeutic effect.
(9) The Secretary shall, with respect to each application submitted under this subsection, maintain a
record of—

148a
(A) the name of the applicant,
(B) the name of the drug covered by the
application,
(C) the name of each person to whom the review
of the chemistry of the application was assigned and
the date of such assignment, and
(D) the name of each person to whom the
bioequivalence review for such application was
assigned and the date of such assignment.
The information the Secretary is required to maintain
under this paragraph with respect to an application
submitted under this subsection shall be made available to the public after the approval of such application.
(10)(A) If the proposed labeling of a drug that is
the subject of an application under this subsection
differs from the listed drug due to a labeling revision
described under clause (i), the drug that is the
subject of such application shall, notwithstanding
any other provision of this chapter, be eligible for
approval and shall not be considered misbranded
under section 352 of this title if—
(i) the application is otherwise eligible for
approval under this subsection but for expiration
of patent, an exclusivity period, or of a delay in
approval described in paragraph (5)(B)(iii), and a
revision to the labeling of the listed drug has been
approved by the Secretary within 60 days of such
expiration;
(ii) the labeling revision described under clause
(i) does not include a change to the “Warnings”
section of the labeling;
(iii) the sponsor of the application under this
subsection agrees to submit revised labeling of the

149a
drug that is the subject of such application not
later than 60 days after the notification of any
changes to such labeling required by the Secretary;
and
(iv) such application otherwise meets the
applicable requirements for approval under this
subsection.
(B) If, after a labeling revision described in
subparagraph (A)(i), the Secretary determines that
the continued presence in interstate commerce of
the labeling of the listed drug (as in effect before the
revision described in subparagraph (A)(i)) adversely
impacts the safe use of the drug, no application
under this subsection shall be eligible for approval
with such labeling.
(11)(A) Subject to subparagraph (B), the Secretary
shall prioritize the review of, and act within 8 months
of the date of the submission of, an original abbreviated new drug application submitted for review under
this subsection that is for a drug—
(i) for which there are not more than 3
approved drug products listed under paragraph
(7) and for which there are no blocking patents
and exclusivities; or
(ii) that has been included on the list under
section 356e of this title.
(B) To qualify for priority review under this paragraph, not later than 60 days prior to the submission
of an application described in subparagraph (A) or
that the Secretary may prioritize pursuant to subparagraph (D), the applicant shall provide complete,
accurate information regarding facilities involved in
manufacturing processes and testing of the drug

150a
that is the subject of the application, including
facilities in corresponding Type II active pharmaceutical ingredients drug master files referenced in
an application and sites or organizations involved in
bioequivalence and clinical studies used to support
the application, to enable the Secretary to make a
determination regarding whether an inspection of a
facility is necessary. Such information shall include
the relevant (as determined by the Secretary) sections of such application, which shall be unchanged
relative to the date of the submission of such
application, except to the extent that a change is
made to such information to exclude a facility
that was not used to generate data to meet any
application requirements for such submission and
that is not the only facility intended to conduct one
or more unit operations in commercial production.
Information provided by an applicant under this
subparagraph shall not be considered the submission of an application under this subsection.
(C) The Secretary may expedite an inspection or
reinspection under section 374 of this title of an
establishment that proposes to manufacture a drug
described in subparagraph (A).
(D) Nothing in this paragraph shall prevent the
Secretary from prioritizing the review of other applications as the Secretary determines appropriate.
(12) The Secretary shall publish on the internet
website of the Food and Drug Administration, and
update at least once every 6 months, a list of all drugs
approved under subsection (c) for which all patents
and periods of exclusivity under this chapter have
expired and for which no application has been
approved under this subsection.

151a
(13) Upon the request of an applicant regarding one
or more specified pending applications under this
subsection, the Secretary shall, as appropriate, provide review status updates indicating the categorical
status of the applications by each relevant review
discipline.

152a
28 U.S.C. § 2201
Creation of remedy
(a) In a case of actual controversy within its jurisdiction, except with respect to Federal taxes other
than actions brought under section 7428 of the Internal
Revenue Code of 1986, a proceeding under section 505
or 1146 of title 11, or in any civil action involving
an antidumping or countervailing duty proceeding
regarding a class or kind of merchandise of a free trade
area country (as defined in section 516A(f)(10) of the
Tariff Act of 1930), as determined by the administering authority, any court of the United States, upon the
filing of an appropriate pleading, may declare the
rights and other legal relations of any interested party
seeking such declaration, whether or not further relief
is or could be sought. Any such declaration shall have
the force and effect of a final judgment or decree and
shall be reviewable as such.
(b) For limitations on actions brought with respect
to drug patents see section 505 or 512 of the Federal
Food, Drug, and Cosmetic Act, or section 351 of the
Public Health Service Act.

153a
35 U.S.C. § 271
Infringement of patent
(a) Except as otherwise provided in this title,
whoever without authority makes, uses, offers to sell,
or sells any patented invention, within the United
States or imports into the United States any patented
invention during the term of the patent therefor,
infringes the patent.
(b) Whoever actively induces infringement of a
patent shall be liable as an infringer.
(c) Whoever offers to sell or sells within the United
States or imports into the United States a component
of a patented machine, manufacture, combination
or composition, or a material or apparatus for use in
practicing a patented process, constituting a material
part of the invention, knowing the same to be especially
made or especially adapted for use in an infringement
of such patent, and not a staple article or commodity
of commerce suitable for substantial noninfringing
use, shall be liable as a contributory infringer.
(d) No patent owner otherwise entitled to relief for
infringement or contributory infringement of a patent
shall be denied relief or deemed guilty of misuse or
illegal extension of the patent right by reason of his
having done one or more of the following: (1) derived
revenue from acts which if performed by another
without his consent would constitute contributory
infringement of the patent; (2) licensed or authorized
another to perform acts which if performed without his
consent would constitute contributory infringement
of the patent; (3) sought to enforce his patent rights
against infringement or contributory infringement; (4)
refused to license or use any rights to the patent; or (5)
conditioned the license of any rights to the patent or

154a
the sale of the patented product on the acquisition of a
license to rights in another patent or purchase of a
separate product, unless, in view of the circumstances,
the patent owner has market power in the relevant
market for the patent or patented product on which
the license or sale is conditioned.
(e)(1) It shall not be an act of infringement to make,
use, offer to sell, or sell within the United States or
import into the United States a patented invention
(other than a new animal drug or veterinary biological
product (as those terms are used in the Federal Food,
Drug, and Cosmetic Act and the Act of March 4, 1913)
which is primarily manufactured using recombinant
DNA, recombinant RNA, hybridoma technology, or
other processes involving site specific genetic manipulation techniques) solely for uses reasonably related
to the development and submission of information
under a Federal law which regulates the manufacture,
use, or sale of drugs or veterinary biological products.
(2) It shall be an act of infringement to submit—
(A) an application under section 505(j) of the
Federal Food, Drug, and Cosmetic Act or described
in section 505(b)(2) of such Act for a drug claimed in
a patent or the use of which is claimed in a patent,
(B) an application under section 512 of such
Act or under the Act of March 4, 1913 (21 U.S.C.
151–158) for a drug or veterinary biological product
which is not primarily manufactured using recombinant DNA, recombinant RNA, hybridoma technology,
or other processes involving site specific genetic
manipulation techniques and which is claimed in a
patent or the use of which is claimed in a patent, or
(C)(i) with respect to a patent that is identified in
the list of patents described in section 351(l)(3) of

155a
the Public Health Service Act (including as provided
under section 351(l)(7) of such Act), an application
seeking approval of a biological product, or
(ii) if the applicant for the application fails to
provide the application and information required
under section 351(l)(2)(A) of such Act, an application
seeking approval of a biological product for a
patent that could be identified pursuant to section
351(l)(3)(A)(i) of such Act,
if the purpose of such submission is to obtain
approval under such Act to engage in the commercial
manufacture, use, or sale of a drug, veterinary biological product, or biological product claimed in a
patent or the use of which is claimed in a patent before
the expiration of such patent.
(3) In any action for patent infringement brought
under this section, no injunctive or other relief may
be granted which would prohibit the making, using,
offering to sell, or selling within the United States
or importing into the United States of a patented
invention under paragraph (1).
(4) For an act of infringement described in paragraph (2)—
(A) the court shall order the effective date of any
approval of the drug or veterinary biological product
involved in the infringement to be a date which is
not earlier than the date of the expiration of the
patent which has been infringed,
(B) injunctive relief may be granted against an
infringer to prevent the commercial manufacture,
use, offer to sell, or sale within the United States or
importation into the United States of an approved

156a
drug, veterinary biological product, or biological
product,
(C) damages or other monetary relief may be
awarded against an infringer only if there has been
commercial manufacture, use, offer to sell, or sale
within the United States or importation into the
United States of an approved drug, veterinary biological product, or biological product, and
(D) the court shall order a permanent injunction
prohibiting any infringement of the patent by the
biological product involved in the infringement until
a date which is not earlier than the date of the
expiration of the patent that has been infringed
under paragraph (2)(C), provided the patent is the
subject of a final court decision, as defined in section
351(k)(6) of the Public Health Service Act, in an
action for infringement of the patent under section
351(l)(6) of such Act, and the biological product has
not yet been approved because of section 351(k)(7) of
such Act.
The remedies prescribed by subparagraphs (A),
(B), (C), and (D) are the only remedies which may be
granted by a court for an act of infringement described
in paragraph (2), except that a court may award
attorney fees under section 285.
(5) Where a person has filed an application described
in paragraph (2) that includes a certification under
subsection (b)(2)(A)(iv) or (j)(2)(A)(vii)(IV) of section
505 of the Federal Food, Drug, and Cosmetic Act
(21 U.S.C. 355), and neither the owner of the patent
that is the subject of the certification nor the holder of
the approved application under subsection (b) of such
section for the drug that is claimed by the patent or a
use of which is claimed by the patent brought an action

157a
for infringement of such patent before the expiration
of 45 days after the date on which the notice given
under subsection (b)(3) or (j)(2)(B) of such section was
received, the courts of the United States shall, to the
extent consistent with the Constitution, have subject
matter jurisdiction in any action brought by such
person under section 2201 of title 28 for a declaratory
judgment that such patent is invalid or not infringed.
(6)(A) Subparagraph (B) applies, in lieu of paragraph (4), in the case of a patent—
(i) that is identified, as applicable, in the list of
patents described in section 351(l)(4) of the Public
Health Service Act or the lists of patents described
in section 351(l)(5)(B) of such Act with respect to a
biological product; and
(ii) for which an action for infringement of the
patent with respect to the biological product—
(I) was brought after the expiration of the 30day period described in subparagraph (A) or (B),
as applicable, of section 351(l)(6) of such Act; or
(II) was brought before the expiration of the 30day period described in subclause (I), but which
was dismissed without prejudice or was not
prosecuted to judgment in good faith.
(B) In an action for infringement of a patent
described in subparagraph (A), the sole and exclusive
remedy that may be granted by a court, upon a finding
that the making, using, offering to sell, selling, or
importation into the United States of the biological
product that is the subject of the action infringed the
patent, shall be a reasonable royalty.
(C) The owner of a patent that should have been
included in the list described in section 351(l)(3)(A) of

158a
the Public Health Service Act, including as provided
under section 351(l)(7) of such Act for a biological
product, but was not timely included in such list, may
not bring an action under this section for infringement
of the patent with respect to the biological product.
(f)(1) Whoever without authority supplies or causes
to be supplied in or from the United States all or a
substantial portion of the components of a patented
invention, where such components are uncombined in
whole or in part, in such manner as to actively induce
the combination of such components outside of the
United States in a manner that would infringe the
patent if such combination occurred within the United
States, shall be liable as an infringer.
(2) Whoever without authority supplies or causes to
be supplied in or from the United States any component of a patented invention that is especially made
or especially adapted for use in the invention and not
a staple article or commodity of commerce suitable for
substantial noninfringing use, where such component
is uncombined in whole or in part, knowing that such
component is so made or adapted and intending that
such component will be combined outside of the United
States in a manner that would infringe the patent if
such combination occurred within the United States,
shall be liable as an infringer.
(g) Whoever without authority imports into the
United States or offers to sell, sells, or uses within the
United States a product which is made by a process
patented in the United States shall be liable as an
infringer, if the importation, offer to sell, sale, or use
of the product occurs during the term of such process
patent. In an action for infringement of a process
patent, no remedy may be granted for infringement on
account of the noncommercial use or retail sale of a

159a
product unless there is no adequate remedy under this
title for infringement on account of the importation
or other use, offer to sell, or sale of that product. A
product which is made by a patented process will, for
purposes of this title, not be considered to be so made
after—
(1) it is materially changed by subsequent processes;
or
(2) it becomes a trivial and nonessential component of another product.
(h) As used in this section, the term “whoever”
includes any State, any instrumentality of a State, and
any officer or employee of a State or instrumentality of
a State acting in his official capacity. Any State, and
any such instrumentality, officer, or employee, shall
be subject to the provisions of this title in the same
manner and to the same extent as any nongovernmental entity.
(i) As used in this section, an “offer for sale” or an
“offer to sell” by a person other than the patentee, or
any designee of the patentee, is that in which the sale
will occur before the expiration of the term of the
patent.

160a
35 U.S.C. § 311
Inter partes review
(a) In General.—Subject to the provisions of this
chapter, a person who is not the owner of a patent may
file with the Office a petition to institute an inter partes
review of the patent. The Director shall establish, by
regulation, fees to be paid by the person requesting the
review, in such amounts as the Director determines to
be reasonable, considering the aggregate costs of the
review.
(b) Scope.—A petitioner in an inter partes review
may request to cancel as unpatentable 1 or more
claims of a patent only on a ground that could be raised
under section 102 or 103 and only on the basis of prior
art consisting of patents or printed publications.
(c) Filing Deadline.—A petition for inter partes
review shall be filed after the later of either—
(1) the date that is 9 months after the grant of a
patent; or
(2) if a post-grant review is instituted under
chapter 32, the date of the termination of such postgrant review.

161a
35 U.S.C. § 315(e)
Relation to other proceedings or actions
(e) Estoppel.—
(1) Proceedings before the office.—The petitioner in
an inter partes review of a claim in a patent under this
chapter that results in a final written decision under
section 318(a), or the real party in interest or privy of
the petitioner, may not request or maintain a proceeding before the Office with respect to that claim on any
ground that the petitioner raised or reasonably could
have raised during that inter partes review.
(2) Civil actions and other proceedings.—The petitioner in an inter partes review of a claim in a patent
under this chapter that results in a final written decision under section 318(a), or the real party in interest
or privy of the petitioner, may not assert either in
a civil action arising in whole or in part under
section 1338 of title 28 or in a proceeding before the
International Trade Commission under section 337 of
the Tariff Act of 1930 that the claim is invalid on any
ground that the petitioner raised or reasonably could
have raised during that inter partes review.

162a
35 U.S.C. § 319
Appeal
A party dissatisfied with the final written decision
of the Patent Trial and Appeal Board under section
318(a) may appeal the decision pursuant to sections
141 through 144. Any party to the inter partes review
shall have the right to be a party to the appeal.

163a
37 C.F.R. § 42.73(d)
Judgment
(d) Estoppel. (1) Petitioner other than in derivation
proceeding. A petitioner, or the real party in interest
or privy of the petitioner, is estopped in the Office from
requesting or maintaining a proceeding with respect
to a claim for which it has obtained a final written
decision on patentability in an inter partes review, postgrant review, or a covered business method patent
review, on any ground that the petitioner raised or
reasonably could have raised during the trial, except
that estoppel shall not apply to a petitioner, or to the
real party in interest or privy of the petitioner who has
settled under 35 U.S.C. 317 or 327.
(2) In a derivation, the losing party who could have
properly moved for relief on an issue, but did not so
move, may not take action in the Office after the
judgment that is inconsistent with that party’s failure
to move, except that a losing party shall not be estopped
with respect to any contested subject matter for which
that party was awarded a favorable judgment.
(3) Patent applicant or owner. A patent applicant or
owner is precluded from taking action inconsistent
with the adverse judgment, including obtaining in any
patent:
(i) A claim that is not patentably distinct from a
finally refused or canceled claim; or
(ii) An amendment of a specification or of a drawing
that was denied during the trial proceeding, but this
provision does not apply to an application or patent
that has a different written description.

